<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         TUESDAY, APRIL 1, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Stevens, Domenici, Campbell, 
Hollings, and Kohl.

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

STATEMENT OF HON. JOHN ASHCROFT, ATTORNEY GENERAL OF 
            THE UNITED STATES

                OPENING STATEMENT OF SENATOR JUDD GREGG

    Senator Gregg. Welcome to this hearing. Senator Hollings is 
headed in this direction. It was kind of the Attorney General 
to arrive early, which we appreciate. And we thank him for 
that.
    This is obviously a time of acute sensitivities on a lot of 
issues. And we appreciate the Attorney General taking time out 
of his day to testify before the Appropriations Committee which 
has jurisdiction over the Justice Department. We also have 
jurisdiction over the Commerce Department, State Department, 
Judiciary, and a variety of independent agencies. But the 
Justice Department is the largest account in this 
subcommittee's jurisdiction and one of the most complicated.
    There is a lot going on that deals with the question of our 
national security and how we protect Americans and America. The 
Attorney General is at the center of that.
    So rather than my going on for an extended period of time 
about those concerns, we would like to hear from the Attorney 
General. And then we will proceed with questions.
    Mr. Attorney General.

                  ATTORNEY GENERAL'S OPENING STATEMENT

    Attorney General Ashcroft. Thank you very much. Good 
morning, Chairman Gregg and members of the subcommittee.
    We are at war. And I know that as we watch the events 
unfolding overseas, that our thoughts and prayers are with the 
young men and women who are defending our freedom. We pray also 
for the families who have lost loved ones or whose loved ones 
have been captured or are missing in action or wounded. Their 
efforts in the defense of freedom, which is a noble, if not the 
most noble of causes, will never be forgotten. We will honor 
their sacrifice with an ever-vigilant commitment to our war on 
terrorism.
    Indeed, the first and overriding priority of this budget 
and of the Department is to protect America from acts of 
terrorism and bring terrorists to justice. I am pleased to be 
here to present the President's fiscal year 2004 budget request 
for the Department of Justice. I thank you for your continued 
assistance in providing the Department of Justice with the 
resources to detect, disrupt, and dismantle terrorist activity.

                         IRAQI TASK FORCE PLAN

    The Justice Department's terrorism prevention efforts have 
included planning for the possibility of intensified conflict 
with Iraq. Last spring, the FBI began developing an action plan 
to address any related threats that might face us in the event 
of this intensification of the conflict. An Iraqi Task Force 
Plan was developed, in addition to the integrated prevention 
security framework put in place after September 11, 2001. The 
Iraqi Task Force Plan includes: around-the-clock operations at 
FBI headquarters and field offices, since the escalation of 
hostilities with Iraq and outreach to Middle Eastern and 
Islamic communities in the United States. The plan includes an 
analysis of prior cases involving Iraq and/or supporters of 
Iraq to identify potential intelligence targets or persons of 
interest. The plan includes stepped-up monitoring of 
individuals suspected of links to the Iraqi hostile forces or 
other terrorist organizations. The plan also includes voluntary 
interviews of 11,000 U.S.-based Iraqis to obtain 
counterterrorism information and intelligence information, as 
well as to identify any backlash threats to Iraqis in the 
United States. When I say backlash threats, I mean that we do 
not want Iraqi individuals in the United States to be the 
subject of discrimination, intimidation, harassment, or 
injustice. Those individuals of Iraqi origin are entitled to 
the same kind of security, freedom, and liberty as are other 
citizens in the United States. The voluntary interviews include 
inquiries about whether or not their well-being has been 
threatened.
    We appreciate the valuable information we have gained from 
the voluntary interviews and the cooperation of the Iraqi 
community in the United States. This cooperation has assisted 
us in our efforts in Iraq, as well as in our own domestic 
antiterrorism efforts. We have gathered intelligence about such 
things as Iraqi bunkers, tunnel systems, telecommunications 
networks, manufacturing plants, and Iraqi military officials. 
This information is being shared and analyzed by our law 
enforcement, military and intelligence officials.

                    2003 SUPPLEMENTAL BUDGET REQUEST

    On March 25, 2003, the President submitted a supplemental 
budget request for fiscal year 2003 to address the continuing 
threat to the national security of the United States posed by 
Iraq. For the Department of Justice, the request includes $500 
million for the Counterterrorism Fund to meet terrorism-related 
prevention and response requirements. Among our top priorities 
for the use of this funding is critical funding for the FBI 
that addresses response capabilities, security enhancements, 
language translation services, operational field expenses, and 
surveillance support.
    We also anticipate using a small portion of this funding to 
meet increased U.S. Marshal Service security requirements for 
the Federal judiciary and to upgrade the capability of the 
Office of Intelligence Policy and Review for its role in the 
Foreign Intelligence Surveillance Act warrant process.

                          2004 BUDGET REQUEST

    The President's overall Justice Department budget request I 
am discussing today will strengthen our capacity to fulfill all 
of the Department's top priorities. The President's budget 
requests $23.3 billion for the Department of Justice, including 
$19 billion in discretionary funding and $4.3 billion for the 
Department's mandatory and fee funded accounts.

                          TERRORISM PREVENTION

    The September 11 attacks made it clear that America's 
defense requires a new culture, a culture of prevention, 
nurtured by cooperation, built on coordination, and rooted in 
our constitutional liberties. The Justice Department is 
battling terrorism by integrating our law enforcement effort, 
not separating it, and by integrating, not separating, our 
intelligence capabilities.
    Our integrated terrorism prevention strategy is having an 
impact on terrorist threats. Listen to this recorded 
conversation between charged terrorist cell member Jeffrey 
Battle and an FBI informant on May 8, 2002, in Portland, 
Oregon. In this conversation, which was unsealed by the Court, 
Battle explained why his threatening enterprise was not as 
organized as he thought it should be. I will quote Mr. Battle 
now.

    ``Because we don't have support. Everybody's scared to give 
up any money to help us. You know what I'm saying? Because that 
law that Bush wrote about, you know, supporting terrorism, 
whatever, the whole thing. Everybody's scared. He made a law 
that says, for instance, I left out of the country and I 
fought. Right? But I wasn't able to afford a ticket. But you 
bought my plane ticket. You gave me the money to do it. By me 
going and me fighting and doing what they can by this new law, 
they can come and take you and put you in jail.''

    Mr. Chairman, terrorists clearly recognize the 
effectiveness of the laws passed by Congress and utilized by 
the Department to disrupt terrorist activity by interdicting 
the funding of terrorism. It is a credit to our new 
investigative tools, the hard work of the law enforcement 
community, and our intelligence agencies, as well as a vigilant 
public, that we have not suffered another major terrorist 
attack in this country.
    The FBI indicates that since September 11, 2001, over 100 
terrorist plots have been disrupted and some, no doubt, 
disrupted, delayed, or abandoned because funding was not 
available as the intercepted conversation between two 
individuals involved in terrorism clearly indicates.
    Nevertheless, as the President recently stated, ``There is 
no such thing as perfect security against a hidden network of 
cold-blooded killers. Yet abroad and at home we are not going 
to wait until the worst dangers are upon us.'' Therefore, we 
will continue to seek the assistance of Congress as we enhance 
a culture of prevention and ensure the resources of our 
Government are dedicated to defending Americans.

                     INTEGRATED PREVENTION STRATEGY

    Now, I would like to give you a brief overview of the 
results to date of our integrated prevention strategy to fight 
the war on terrorism.
    First, we are gathering and cultivating detailed 
intelligence on terrorism in the United States. Hundreds of 
suspected terrorists have been identified and tracked 
throughout the United States. Our human sources of information 
intelligence have doubled. Our counterterrorism investigations 
have doubled in the last year. In 2002, over 18,000 subpoenas 
and search warrants have been issued. Over 1,000 applications 
were made to the Foreign Intelligence Surveillance Act (FISA) 
court targeting terrorist spies, foreign powers that threaten 
our security, including 170 emergency FISA applications. These 
are emergency requests for surveillance activity based on our 
belief and information that there are threatening circumstances 
requiring us to implement coverage immediately. Those calls 
come to me at virtually any time of the day or night; and it is 
my responsibility to approve those, when appropriate.
    Second, we are arresting and detaining potential 
terrorists. Four alleged terrorist cells were broken up in 
Buffalo, Portland, Detroit, and Seattle. Two hundred twenty-
eight criminal charges have been brought to date. One hundred 
thirteen individuals have been convicted or pled guilty, 
including shoe bomber Richard Reid, American Taliban John 
Walker Lindh, three of the six members of the Buffalo cell, two 
more of whom pled guilty just last week, joining another 
defendant who was already cooperating, and there are 478 
deportations linked to the September 11 investigation.
    Third, we are dismantling the terrorist financial network. 
Thirty-six terrorist organizations have been designated as 
terrorist organizations, $125 million in assets have been 
frozen, and over 660 accounts frozen around the world; 70 
investigations into terrorist financing, with 23 convictions or 
guilty pleas to date related to terrorist financing.
    Fourth, we are disrupting potential terrorist travel. Nine 
major alien smuggling networks have been disrupted. Hundreds of 
terrorist criminals have been stopped through the National 
Security Entry-Exit Registration System, called NSEERS. Among 
those individuals stopped, 11 suspected terrorists with at 
least one known member of Al-Qaeda; 649 stopped at the border 
who were wanted criminals, who had committed past felonies or 
violated other laws; and 77 felons identified through domestic 
enrollment, who were in the country illegally. They were not 
stopped at the border but asked to come in and register as part 
of the NSEERS program. These included a murderer, a cocaine 
trafficker, child molesters, and individuals convicted of 
assault with a deadly weapon.
    Fifth, we are building our long-term counterterrorism 
capacity. A near threefold increase in the counterterrorism 
funds devoted by the Department, over 1,000 new and redirected 
FBI agents dedicated to counterterrorism and 
counterintelligence, 250 new assistant U.S. attorneys, 66 joint 
terrorism task forces, a 337 percent increase in the joint 
terrorism task force staffing, and fly-away expert teams for 
rapid deployment to hot spots around the world.
    We have made progress, but there is always additional work 
to be done. And to that end, the budget request includes an 
increase of $598.2 million for programs that support our 
mission to prevent and combat terrorism, including $516 million 
to enhance or complement the FBI's counterterrorism program.
    Even as the men and women of the Justice Department fight 
the war on terrorism, we do so within a framework that upholds 
our other crucial responsibilities. Let me briefly review these 
other core missions.

                       CORPORATE FRAUD TASK FORCE

    First, the Department of Justice has taken decisive action 
to combat corporate corruption and punish corporate 
lawbreakers. The relentless work of the Corporate Fraud Task 
Force, chaired by Deputy Attorney General Larry Thompson, has 
resulted in over 200 investigations opened into suspected 
corporate fraud, over 200 people charged to date, and 70 
convictions have been obtained. To date $20 million in assets 
have been frozen, $14 million in forfeitures, and we are 
seeking to forfeit more than $2.5 billion to restore to the 
creditors and investors the resources, which were lost as a 
result of the corporate fraud.
    The Department is committed to ensuring a marketplace of 
integrity and restoring the confidence of American investors 
and protecting their assets. And to that end, the fiscal year 
2004 budget requests $24.5 million to support the Corporate 
Fraud Task Force.

                            DRUG ENFORCEMENT

    Second, the Department of Justice has continued to fight 
the scourge of illegal drugs. Thanks to the tireless efforts of 
the Drug Enforcement Administration and the Organized Crime 
Drug Enforcement Task Force, we have increased the seizures of 
drug assets from major drug trafficking organizations by 20 
percent. We have dismantled 305 drug trafficking organizations 
in 2002 alone. We have more than doubled the amount of heroin 
seizures from 2000 to 2002. We have reached a 9-year low in 
student drug use.
    We have attacked the nexus, the connection between drug 
trafficking and terrorism, including bringing charges in San 
Diego against individuals for conspiring to trade heroin and 
hashish for anti-aircraft missiles, which they allegedly 
intended to sell to Al-Qaeda forces in Afghanistan. The fiscal 
year 2004 budget request includes $117.9 million to augment our 
efforts to reduce the availability of illegal drugs, to 
identify and dismantle drug trafficking organizations, and 
support drug treatment.

                        CRIMES AGAINST CHILDREN

    Third, the Department of Justice has prevented and 
prosecuted crimes against children. It allocated $2.5 million 
to develop an effective nationwide Amber Alert Network. We have 
reassigned three FBI investigative analysts to work full-time 
at the National Center for Missing and Exploited Children. We 
are supporting Internet Crimes Against Children Task Forces 
across the Nation with technology and capacity. We are 
dedicating a total of $15.2 million to the FBI's Innocent 
Images National Initiative, a $3.6 million increase, to keep 
pace with the nearly 2,000 percent increase in investigations 
since 1996, investigations to combat the proliferation of child 
pornography and child sexual exploitation via the Internet.

                       PROJECT SAFE NEIGHBORHOODS

    Fourth, the Department of Justice has provided increasing 
protection to Americans from gun crime. In the first 2 years of 
this administration's Project Safe Neighborhoods Initiative to 
combat gun crime, we have increased Federal gun crime 
prosecutions by 36 percent, which has helped lock up repeat 
offenders and lower crime in cities across America.
    For example, in Philadelphia, robberies at gunpoint dropped 
11 percent, and the homicide rate is the lowest it has been 
since 1985. In Kansas City, the murder rate dropped 23 percent 
to its lowest level in three decades. This reduction translates 
to 27 more people alive today who might not have been alive if 
the previous trend had continued.
    U.S. attorneys have charged 10,634 defendants for violating 
gun statutes, and they have convicted and taken 7,747 gun 
criminals off the street with those prosecutions. In 2002, the 
conviction rate for those charged with Federal gun crimes--
which may include other non-gun related charges as well--was 
near 90 percent. More than half of those charged were sentenced 
to more than 5 years in Federal prison. Our success in these 
areas would not be possible without the diligence and hard work 
of State and local law enforcement agencies who are partners in 
the Project Safe Neighborhoods endeavor.

                            FIRST RESPONDERS

    To that end, the administration is requesting $8.5 billion 
for first responders and state and local law enforcement in the 
budget and in the supplemental appropriation; $2 billion in the 
current war supplemental that is pending; and $6.5 billion in 
the fiscal year 2004 budget request for both the Justice 
Department and the Department of Homeland Security providing 
funding for State and local law enforcement and first 
responders.

                              CIVIL RIGHTS

    Fifth, the Department of Justice has protected vigorously 
the civil rights of all Americans. The Department has 
strengthened our Civil Rights Division with an approximately 10 
percent increase in both full-time attorneys at 355 and total 
employees at 709, enforcing the Nation's civil rights laws 
since the beginning of this administration; a 12 percent 
increase in successful prosecutions of criminal civil rights 
violations from the previous 2 years; a 100 percent increase in 
settling pattern or practice police misconduct cases during the 
first 2 years of the Bush administration than during the final 
2 years of the previous administration; a $500 million amount 
obtained for traditional black colleges through settlement of a 
25-year-old desegregation lawsuit.
    The Department has prosecuted more than 80 discriminatory 
backlash hate crimes in the wake of September 11, for example, 
by securing the conviction of Zachary Rolnik for violating the 
civil rights of Dr. James J. Zogby, the president of the Arab 
American Institute, by securing the guilty plea of Earl Leslie 
Krugel for conspiracy to manufacture and detonate bombs at a 
mosque and at a field office of United States Congressman 
Darrell Issa of California.
    The Department has prosecuted 43 non-September 11-related 
hate crimes cases in the last 2 years and initiated over 600 
non-September 11 hate crimes investigations.
    The Department has coordinated the Voting Rights Initiative 
to ensure access, honesty, and integrity at the polls on 
election day that resulted in a smooth election with far fewer 
complaints than were reported in recent years.
    The Department has investigated, prosecuted, and convicted 
record numbers of human trafficking and sex trafficking cases, 
doubling the number of trafficking prosecutions and the number 
of convictions over the previous 2 years.
    Now, obviously, our Department has other vital missions I 
have not been able to address here fully, but I would be happy 
to address them during the questions. For example, the 
Department's Antitrust Division successfully settled the 
Microsoft case, receiving praise from Judge Colar Catelli for, 
and I quote her now, ``The clear, consistent, and coherent 
manner'' in which the Division reached this historic 
settlement.
    On the criminal enforcement front last year, individuals 
convicted for antitrust violations and related criminal 
offenses received a record average sentence of greater than 18 
months.

                           prepared statement

    Mr. Chairman, ranking member, and other members of the 
subcommittee, as we work to achieve our Department's 
objectives, I want you to know that none of these are possible 
without the funding and the support and the framework of law, 
which is provided through the Department into the Nation by the 
Congress. And I want to express my appreciation to you for your 
conscientious devotion to your duties of protecting America and 
providing the resources through which the administration can 
join you in that effort to protect this Nation.
    I would be pleased to respond to questions.
    [The statement follows:]
                  Prepared Statement of John Ashcroft
    Mr. Chairman and Members of the Subcommittee: It is an honor to 
appear once again before this Subcommittee to present the President's 
budget request for the Department of Justice. For fiscal year 2004, the 
Budget seeks $23,334,844,000 for the Department of Justice, including 
$19,001,955,000 in discretionary funding and $4,332,889,000 for the 
Department's mandatory and fee-funded accounts. In total, the fiscal 
year 2004 request is $259,513,000 over the comparable fiscal year 2003 
Budget Request. The fiscal year 2004 Budget reflects the transfer of 
the Immigration and Naturalization Service, the Office of Domestic 
Programs, and a portion of the FBI's National Infrastructure Protection 
Center (NIPC) and other Departmental resources to the new Department of 
Homeland Security. It also reflects the transfer of the Bureau of 
Alcohol, Tobacco, Firearms and Explosives (ATF) from the Department of 
the Treasury to the Department of Justice.
    On March 25, 2003, the President submitted a supplemental budget 
request for fiscal year 2003 to address the continuing threat to the 
national security of the United States posed by Iraq. For the 
Department of Justice, the request includes $500,000,000 for the 
Counterterrorism Fund to meet immediate or emerging terrorism-related 
prevention and response requirements. Among our top priorities for the 
use of this funding are critical items for the FBI that address 
response capabilities, security enhancements, language translation 
services, operational field expenses, and surveillance support. We 
would also anticipate using a small portion of this funding to upgrade 
the capability of the Office of Intelligence Policy and Review for its 
role in the FISA warrant process, and to meet increased U.S. Marshals 
Service security requirements for the Federal Judiciary. The use of the 
Counterterrorism Fund provides the Department with the flexibility to 
allocate resources among components and priorities to meet 
unanticipated requirements. The Department, of course, will apprise the 
Committee through existing notification procedures of proposed 
allocations.
    The ongoing support of this Subcommittee for the Department's 
critical mission--the prevention and disruption of terrorist attacks--
is recognized and deeply appreciated. You have worked with us to stand 
up the Foreign Terrorist Tracking Task Force; reorganize the Federal 
Bureau of Investigation and the Criminal Division; improve security at 
our Nation's borders; improve inspections at our air and seaports; 
enhance our information technology infrastructure; increase information 
sharing among federal agencies and with our state and local partners; 
and undertake the largest criminal investigation in U.S. history. 
America is now more secure, more prepared, and better equipped to 
defeat the continued threat of terrorism.
   preventing and combating terrorism, including counterintelligence
    The fiscal year 2004 Budget places a high priority on securing 
additional resources needed to fight the nation's war on terrorism, 
while at the same time being sensitive to the overall economic picture 
that confronts our Nation. Our budget increases overall 
counterterrorism resources, while also reprioritizing some current 
resources to supplement requests for new program enhancements.
    In the days following the September 11th attacks, we initiated a 
comprehensive review and wartime reorganization in order to identify 
and redirect appropriate resources to our primary mission: 
counterterrorism. With the submission of the fiscal year 2004 Budget, 
the resources devoted to counterterrorism and homeland security have 
increased by approximately $1.9 billion over the Department's fiscal 
year 2001 Budget, representing an increase of 10 percent in the share 
of the Department's resources devoted to counterterrorism prior to 
September 11. Our budget request includes increases of $598,258,000 for 
programs supporting our mission requirements for preventing and 
combating terrorism.
    For the Federal Bureau of Investigation, the Budget requests 
$516,258,000 in enhancements above the fiscal year 2003 request that 
support or complement the FBI's Counterterrorism Program. Of the total, 
$189,107,000 is focused exclusively on the FBI's counterterrorism 
investigative capabilities. These increases will permit the FBI to 
continue its efforts to identify, track and prevent terrorist cells 
from operating within the United States and overseas and, where 
necessary, to investigate terrorist acts.
    To prevent terrorist attacks, the FBI must recognize and understand 
worldwide economic, political, social, and technological changes that 
have occurred over the last decade, and it must leverage existing 
intelligence in support of ongoing cases and operations. Following 
September 11th, with the support of this Subcommittee, Director Mueller 
restructured the FBI's Counterterrorism Division to implement a 
nationally-managed and centrally-driven Counterterrorism program (CT). 
The program seeks to improve intelligence coordination and analysis, 
enhance technical capabilities, and build a national response 
capability that is more mobile, agile, and flexible and provides a more 
proactive orientation toward meeting the terrorism threat. The fiscal 
year 2004 Budget requests 430 support positions and $27,381,000 to 
improve the FBI's capacity to manage this program, including:
  --62 positions and $3,641,000 to build a national level of expertise 
        and knowledge that can be accessed by and deployed to all field 
        offices;
  --115 positions and $7,081,000 to facilitate the collection, 
        analysis, exploitation, and dissemination of intelligence 
        gathered through the lawful interception of e-mail traffic of 
        known and suspected terrorists;
  --61 positions and $3,605,000 to provide a centralized and 
        coordinated financial investigative component to identify, 
        disrupt, and dismantle terrorist financing operations;
  --72 positions and $4,430,000 to significantly enhance the capacity 
        of the Terrorist Reports and Requirements Section to establish 
        policies and to develop and disseminate Intelligence 
        Information Reports;
  --19 positions and $1,056,000 to improve the capability of the FBI's 
        National Threat Center to evaluate terrorist threats for 
        credibility and disseminate intelligence reports to the 
        appropriate intelligence and law enforcement communities;
  --15 positions and $844,000 to support a robust analytical capacity 
        that will enable the FBI to better predict national security 
        vulnerabilities or targets;
  --86 positions and $5,224,000 to provide additional support to FBI 
        Headquarters to expand the centralized management capacity of 
        its counterterrorism mission; and
  --$1,500,000 to fund operational travel and to coordinate FBI 
        investigative efforts.
    For Counterterrorism field analytical support, the Budget requests 
214 positions and $14,603,000 to develop a comprehensive intelligence 
program that can identify emerging threats and patterns, find 
relationships among individuals and groups, and provide useful 
information to investigators in a timely manner.
    To support the FBI's prevention mission in the field, the fiscal 
year 2004 Budget includes an additional 248 positions (149 agents) and 
$28,046,000. These additional resources will expand the Bureau's 
ability to identify terrorist operatives and their targets, penetrate 
terrorist organizations, and neutralize or disrupt the threats posed by 
terrorist activities.
    New funding of $4,600,000 is requested for a communications 
application tool capable of conducting sophisticated link analysis on 
high volumes of telephone call and other relational data.
    On October 29, 2001, President Bush directed the establishment of 
the Foreign Terrorist Tracking Task Force (FTTTF), a multi-agency 
endeavor, whose mission is to prevent admission to the United States of 
foreign terrorists and their supporters and to identify and locate 
known and suspected terrorists who have gained entry to this country. 
This Subcommittee has supported the Administration's efforts to stand 
up the Task Force and to ensure a sufficient level of funding for its 
critical mission. We recognize the difficulty you faced with your 
allocation constraints and we deeply appreciate your support of the 
FTTTF in the fiscal year 2003 Omnibus Appropriations Act. The fiscal 
year 2004 Budget includes a total of $72,607,000 for on-going support 
of the FTTTF.
    The Joint Terrorism Task Forces (JTTTF) are the cornerstone of a 
coordinated Federal, State, and local law enforcement effort for 
conducting international and domestic terrorism investigations. The 
JTTFs promote an atmosphere of immediate transparency between the FBI 
and its other law enforcement partners that encourages and ensures the 
sharing of intelligence information among participating agencies. The 
fiscal year 2004 Budget requests an increase of $11,548,000 in non-
personnel funding to support the JTTF Program, of which $5,000,000 will 
support an Information Sharing Initiative.
    The FBI's Computer Intrusion Program targets cyber matters 
affecting our national security and our economic security. The FBI 
provides deterrence to disruptive intrusions by foreign powers, 
terrorists, and criminal elements through the successful 
identification, investigation, and prosecution of illegal computer 
intrusion activity. The proposed increase of 113 positions (53 agents) 
and $41,113,000 includes 66 positions (45 agents) and $11,128,000 to 
combat computer intrusions and 47 positions (8 agents) and $29,985,000 
for the Special Technologies Application Section to enhance technical 
analysis capabilities in support of cyber investigations.
    In response to the September 11th attacks, the FBI modified its 
public information system infrastructure to establish a means for the 
general public to report suspected terrorist activity via the Internet. 
Located in the FBI's Strategic Information and Operations Center 
(SIOC), the Internet Team has received 375,000 tips, resulting in 
40,000 investigative leads. The fiscal year 2004 budget proposes an 
additional 19 positions and $1,209,000 to provide 24/7 coverage for tip 
review and analysis.
Complementary Terrorism Support Programs
    The fiscal year 2004 Budget also requests an increase of 
$409,151,000 for the Department's counterintelligence, national 
security and criminal enterprise programs, all of which provide 
complementary counterterrorism support. Of this total, $327,151,000 is 
for programs and initiatives of the FBI and $82,000,000 supports 
initiatives in other DOJ components. With your support in December 
2002, the FBI reprogrammed $28,736,000 to counter the growing national 
security threats around the country and strengthen the central 
management of its counter-intelligence program. This was the first step 
in an ongoing effort to implement the FBI's counter-intelligence 
strategy. The fiscal year 2004 budget requests an additional 583 
positions (94 agents) and $69,880,000 for the FBI's counter-
intelligence mission.
    FBI Director Mueller has identified the need for upgraded 
technology as one of the top 10 priorities of the FBI, recognizing that 
over the years, the FBI failed to develop a sufficient capacity to 
collect, store, search, retrieve, analyze and share information. As 
this Committee is aware, the FBI has embarked on a comprehensive 
overhaul and revitalization of its information technology 
infrastructure. We appreciate your support of those efforts. The fiscal 
year 2004 Budget provides enhanced funding for the FBI's information 
technology programs of 3 positions and $82,247,000. Included in the 
request is an additional $61,689,000 for operation and maintenance 
costs associated with Trilogy hardware, $18,558,000 for recurring 
hardware and software upgrades over the next several years to avoid a 
gradual return to a technological state of obsolescence, and $2,000,000 
for costs associated with operations and maintenance of the FBI's Top 
Secret/Sensitive Compartmentalized Information Local Area Network (TS/
SCI LAN).
    To enhance the FBI's response to crisis situations worldwide, 
including secure, remote communications networks, specialty vehicles 
and equipment, and helicopter support for hostage rescue, the fiscal 
year 2004 Budget requests an additional 35 positions (7 agents) and 
$24,187,000. The request includes 27 positions (6 agents) and 
$14,984,000 to enhance Crisis Response Unit capabilities; $850,000 for 
automation equipment in support of rapid deployment team operations; 6 
positions (1 agent) and $2,226,000 for the Hostage Rescue Team (HRT) to 
provide aviation support during a terrorist or criminal act directed 
against the United States, its citizens, or interests; and 2 positions 
and $6,127,000 to provide Weapons of Mass Destruction (WMD) equipment 
and supplies, staff, and training, for HRT and the SWAT teams to ensure 
an appropriate state of preparedness to respond to counter-terrorism 
threats and other assigned tasks.
    The investigation of the attacks on the World Trade Center and the 
Pentagon underscores the global nature of terrorism and the ability of 
terrorists to plan, finance, and conduct operations in a variety of 
countries around the world. Terrorist organizations such as Osama Bin 
Laden's Al Qaeda have a presence throughout the Middle East, Europe, 
and Asia. The FBI's Legal Attache (Legat) Offices continue to be 
critical to our ongoing efforts to deny Al-Qaeda the ability to mount 
future attacks by building and maintaining effective international 
partnerships. For fiscal year 2004, the President's Budget includes an 
additional 82 positions (19 agents) and $61,755,000 to expand and 
support the Legal Attache (Legat) Program and the Visa Identification 
Terrorist Automated Lookout (VITAL) System. Legats and VITAL will 
provide a coordinated defense against terrorists seeking entry to the 
United States or threatening our interests and citizens abroad. The 
requested enhancements to the Legat Program of 30 positions (17 
agents), and $47,527,000 will add personnel and upgrade the 
communications capacity of the FBI's overseas offices, bringing the 
technology infrastructure of Legats in line with the Trilogy Project. 
Five new Legat Offices are requested in Sarajevo, Bosnia; Kuwait City, 
Kuwait; Tashkent, Uzbekistan; Kabul, Afghanistan; and Belgrade, Serbia. 
The requested funding will also expand five existing offices in Ottawa, 
Seoul, London, Berlin, and Moscow.
    The FBI's VITAL project will improve the Nation's security by 
providing the United States embassies and consulates with the ability 
to identify individuals who are threats to our national security before 
they can gain entry into the United States via air and seaports. When 
fully implemented, consular and immigrant officials will be able to 
electronically process fingerprint-based criminal history checks of 
visa applicants against the records in the Integrated Automated 
Fingerprint Identification System (IAFIS) and authenticate identities 
of travelers through biometrics prior to the issuance of visas. The 
budget request of 52 positions (2 agents) and $14,228,000 lays the 
groundwork for this important program by providing the necessary 
personnel and funding to develop and manage the VITAL project and to 
modify the IAFIS to provide the additional storage capacity needed to 
retain and store embassy and consulate fingerprint submissions.
    With the proliferation of information technology and the increased 
availability of computers, criminal and terrorist activity has shifted 
from a physical dimension in which evidence and investigations are 
described in tangible terms, to a cyber dimension. The role of the 
FBI's Computer Analysis Response Team (CART) is to provide assistance 
to FBI field offices in the search and seizure of computer evidence and 
in the conduct of forensic examinations where computers and storage 
media are required as evidence. It is anticipated that more than 60 
percent of the FBI's caseload will require at least one computer 
forensic examination. To meet this growing demand, the fiscal year 2004 
Budget includes an additional 45 positions (1 agent) and $18,040,000. 
Resources will be used to maintain existing and establish new Regional 
Computer Forensic Laboratories and to provide funding for rapid 
deployment teams. This Subcommittee has led the support for the FBI's 
CART program in the past and we look forward to continuing to work with 
you on this important initiative in the future.
    Since his appointment as FBI Director, Bob Mueller has made 
significant changes in the organizational structure at the FBI in an 
effort to make the agency more flexible, agile, and mobile in its 
capacity to respond to the many challenges it faces. The Director 
recognizes that the FBI must better shape its workforce and develop 
core competencies if it is to effectively respond to the array of 
national security and criminal threats facing our nation. Additional 
training resources are a necessary component of reshaping the FBI. The 
fiscal year 2004 Budget requests an additional 111 positions (76 
agents) and $17,559,000 to improve training in the fields of 
intelligence analysis ($2,450,000), counterterrorism ($14,027,000), and 
cyber crime ($1,082,000).
    The National Security Law Unit provides legal advice on all matters 
relating to the national security responsibilities of the FBI, 
including foreign counterintelligence, international terrorism, 
domestic security/terrorism, and computer intrusion/infrastructure 
protection matters. With the FBI's shift in focus to preventing future 
terrorist attacks, the workload of the National Security Law Unit has 
increased substantially. In fiscal year 2004, an additional 14 
positions and $1,405,000 is requested to meet the expanded workload of 
this office.
    Mr. Chairman and Members of the Subcommittee, you have been 
instrumental in the elevation of the role of security within the FBI 
through the establishment of a new Security Division that for the first 
time in FBI history is responsible for ALL FBI security matters. As the 
premier domestic agency conducting criminal, counterintelligence, and 
counterterrorism investigations, the FBI is an attractive target for 
individuals and organizations that seek to impede investigations, or 
obtain sensitive national security information. The fiscal year 2004 
budget requests 120 positions (32 agents) and $37,146,000 for continued 
security improvements. The request includes:
  --$5,050,000 to conduct additional contract background investigations 
        of on-board personnel and others with access to FBI information 
        and facilities;
  --5 positions and $968,000 for an enhanced adjudication program aimed 
        at ensuring that security clearances are granted as necessary 
        and appropriate;
  --24 positions and $6,888,000 for additional technical and physical 
        security improvements;
  --54 positions and $15,821,000 for Police Force and Guard Services to 
        meet increased security requirements at FBI Headquarters, the 
        Washington Field Office, the FBI Academy, the Criminal Justice 
        Information Services Facility in Clarksburg, WV; and the New 
        York Field Office;
  --37 positions (32 agents) and $6,419,000 to expand the polygraph 
        program, which is aimed at assuring that national security 
        information is not compromised by an FBI employee, contractor 
        or other individual; and
  --$2,000,000 for the Defensive Programs Unit to develop technical 
        surveillance countermeasures.
    The final fiscal year 2004 budget enhancement for the FBI relates 
to its critical need for additional staff support for field 
investigations. An increase of 300 positions and $14,932,000 is 
requested for essential personnel to focus on the administrative tasks 
associated with investigations, thereby allowing field agents, field 
investigators, and technical support personnel to focus exclusively on 
terrorist and criminal threats.
    The war against terrorism cannot be won without the support and 
assistance of our State and local partners. Our successes will depend 
on our ability to share information and intelligence in a timely manner 
with state and local law enforcement agencies. At its inception the 
OJP-funded Regional Information Sharing System (RISS) supported State 
and local law enforcement efforts to combat drug trafficking and 
organized criminal activity. However, the regional information-sharing 
concept has expanded and now more law enforcement agencies routinely 
reach out to share intelligence across jurisdictional boundaries. 
Section 701 of the USA Patriot Act authorizes RISS to operate secure 
information sharing systems to enhance the investigative and 
prosecutorial abilities of participating law enforcement agencies in 
addressing terrorism.
    A significant achievement in the last year has been the successful 
effort undertaken to link the various databases used by State and local 
law enforcement. We have connected the RISS with the FBI's Law 
Enforcement Online (LEO) system developing a backbone for further 
information sharing improvements. The fiscal year 2004 Budget seeks an 
additional $12,000,000 to further expand RISS' accessibility to state 
and local public safety agencies for the purpose of sharing terrorism 
alerts and related information.
    The Office of Justice Programs also provides significant assistance 
to State and local law enforcement and public safety entities through 
the training and technical assistance provided by its program experts. 
OJP's training and technical assistance programs provide direct 
assistance to state and local jurisdictions in developing and 
implementing comprehensive, system-wide strategies and in demonstrating 
and documenting programs that work. The fiscal year 2004 Budget 
requests an enhancement of $3,000,000 to provide training to state and 
local law enforcement, prosecution, and intelligence agency personnel 
at the command level in the areas of domestic anti-terrorism and 
extremist criminal activity. This funding will be combined with 
existing funding of $1,238,000 for the hate crimes training and 
technical assistance program to form one Bureau of Justice Assistance-
administered training program totaling $4,238,000.
    The President's fiscal year 2004 Budget for the Department of 
Justice includes $851,987,000 for the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives, which became a component of the Department of 
Justice on January 24, 2003, pursuant to the Homeland Security Act of 
2002, Public Law 107-296.
    The Homeland Security Act authorized the Safe Explosives Act, 
establishing a new program of explosives licenses and permits, 
expanding the number of individuals required to have licenses and 
permits, requiring fingerprinting and background checks for all 
applicants, and mandating the establishment of a National Explosives 
Licensing Center. The provisions of this new Act will aid in the fight 
against terrorism. The fiscal year 2004 Budget requests 88 positions 
and $10,000,000 for ATF to carry out this new initiative. This budget 
request will build upon the efforts being undertaken by the ATF to 
implement these new responsibilities during fiscal year 2003.
    As we succeed in the arrest, prosecution, and conviction of 
terrorists, we must also provide for the safe incarceration of those 
individuals. An increase of 2 positions and $23,000,000 is requested 
for the Bureau of Prisons' Salaries and Expenses Account to provide 
physical security upgrades at an existing facility that will house 
terrorist inmates. The upgrades include enhancements to the perimeter 
security of the facility and construction of maximum isolation cells to 
ensure minimal exposure to other inmates.
    The ability of law enforcement and public safety agencies to 
communicate effectively is essential to our ability to respond to 
future terrorism incidents. The Department's Narrowband Communications 
Program is responsible for developing the Integrated Wireless Network, 
a joint initiative with the Department of the Treasury, and several 
agencies of the Department of Homeland Security. The fiscal year 2004 
Budget requests an increase of $32,000,000 to continue the narrowband 
investment in radio infrastructure and radio investments principally 
along the Northern and Southern land borders and in key operational 
areas such as New York City.
    The Office of Intelligence Policy and Review (OIPR) in the 
Department of Justice plays a critical role in terrorism prevention by 
providing operational support to the FBI in its investigation of 
terrorism, primarily through the application for warrants under the 
Foreign Intelligence Surveillance Act of 1978 (FISA). OIPR prepares and 
files all applications for electronic surveillance and physical search 
under FISA, assists government agencies by providing legal advice on 
matters of national security law and policy, and represents the 
Department of Justice in a variety of inter-agency forums related to 
counterintelligence. The fiscal year 2004 Budget requests an increase 
of 12 positions and $2,000,000 to increase the operational support 
provided to the FBI through the application of FISA warrants and for 
information technology improvements.
                       combating corporate fraud
    Since the exposure of the corporate fraud scandals, the Department 
of Justice has taken decisive action to combat corporate fraud and 
punish corporate wrongdoers. To restore confidence in the integrity of 
our markets, President Bush created the Corporate Fraud Task Force, 
chaired by Deputy Attorney General Larry Thompson, to bring the maximum 
combined force of the Federal Government to investigate and prosecute 
corporate fraud. In addition to the Deputy Attorney General, the 
Department's Corporate Fraud Task Force members include the Director of 
the FBI, the Assistant Attorneys General of the Criminal and Tax 
Divisions of the Department, and several United States Attorneys from 
around the Nation. We appreciate this Committee's support for the 
Department's corporate fraud efforts and the $23,000,000 in additional 
funding provided in fiscal year 2003 for the FBI and the U.S. 
Attorneys.
    The Department of Justice is working closely in coordination with 
the Securities and Exchange Commission and other agencies through the 
Corporate Fraud Task Force to ensure a marketplace of integrity. The 
goal of our law enforcement efforts is clear: Information cannot be 
corrupted; trust must not be abused; confidence must be maintained in 
the markets; and the jobs, savings, investments, and pension plans of 
hard working Americans must be protected.
    For fiscal year 2004, our budget requests enhancements of 212 
positions (56 agents and 22 attorneys) and $24,538,000 to continue 
these efforts. For the FBI, we are requesting 118 positions (56 agents) 
and $16,000,000 for staff and resources to target corporate fraud 
cases. These resources will fund the immediate development or 
improvement of existing liaison with other agencies, increased 
corporate fraud training for agents and financial analysts and fund the 
establishment of corporate fraud ``Reserve Teams'' of financial experts 
dispatched to major fraud investigations. The budget also seeks 
$8,538,000 for additional prosecutors, financial analysts and other 
staff for the U.S. Attorneys, Criminal Division, and Tax Division to 
enhance prosecutorial capacity in this arena.
                     drug enforcement and treatment
    Combating illegal drug trafficking and the continued wave of 
violent crime associated with it remains among the Department's highest 
priorities. The drug threat we face is not a new one, nor is the 
priority we place on ending the toll that illegal drugs take on the 
lives of Americans. The growing combination of drug trafficking and 
terrorism serves to call us even more urgently to action. In March 
2002, I announced a strategy to reduce the availability of illegal 
drugs. The centerpiece of this strategy is the reorganization, 
revitalization and restoration of the Organized Crime Drug Enforcement 
Task Force (OCDETF) program. It is a strategy that recognizes illegal 
drugs as both a destructive force in the lives of individuals and a 
destructive force to the security of this nation.
    OCDETF's cadre of experienced and talented federal agents and 
prosecutors, with support from state and local law enforcement, 
exemplifies the government's collaborative capabilities to disrupt and 
dismantle drug trafficking organizations and their related enterprises. 
For 2004, the Administration has proposed to once again consolidate all 
OCDETF funding for participating agencies from the Departments of the 
Treasury, Homeland Security, and Justice within the Department of 
Justice's Interagency Crime Drug Enforcement appropriation. The 
reconsolidation of this funding will support the OCDETF program's 
refocused mission and removes bureaucratic barriers to improved 
accountability and resource management throughout the program. 
Moreover, the reconsolidation supports the Department's strategy for 
OCDETF to lead the charge in disrupting and dismantling the most 
significant drug trafficking and money laundering organizations.
    To establish the automated capacity to analyze and disseminate 
OCDETF investigative information, our budget proposes an enhancement of 
$22,000,000. By leveraging existing Foreign Terrorist Tracking Task 
Force (FTTTF) technology, OCDETF would analyze the drug investigative 
information stored in existing database systems and, more importantly, 
provide crucial capacity needed to rapidly ingest, conduct cross-case 
analysis, and disseminate drug investigative information. Ultimately, 
this system would expand the capability of OCDETF to use both existing 
and new drug investigative information to make nationwide connections 
among the sophisticated, compartmentalized components of major drug 
trafficking and money laundering organizations.
    In addition, our budget proposes an additional 192 positions and 
$26,000,000 to enable OCDETF participants to mount comprehensive 
attacks, in multiple national and international locations, on the 
highest-level drug traffickers and drug organizations identified on the 
Department's Consolidated Priority Organization Target (CPOT) List. By 
concentrating our efforts on the top 53 command and control targets, 
our resources will have the most profound impact on the overall drug 
supply. Drug organizations are driven by the desire for profit; as 
these organizations develop into larger enterprises, they employ 
illegal financial techniques to transfer or transport drug proceeds, to 
obtain and conceal assets, and to reinvest profits to promote ongoing 
illegal activity. To combat these efforts, our budget proposes an 
enhancement of 83 positions and $10,000,000 to expand the capability of 
OCDETF agencies to conduct meaningful investigations of the financial 
infrastructure supporting major drug organizations.
    As the world's leading drug enforcement agency and the only single-
mission federal agency dedicated to drug law enforcement, the Drug 
Enforcement Administration (DEA) continues to target aggressively the 
Nation's illegal drug threats in the post-September 11, 2001 
environment. Our budget proposes an enhancement of 329 positions 
(including 123 agents and 20 Diversion Investigators) and $38,880,000 
for the Priority Targeting Initiative. Through this initiative, DEA 
will target Priority Drug Trafficking Organizations involved in the 
manufacture and distribution of illegal drugs as well as those involved 
in the diversion of precursor chemicals used for manufacturing illegal 
drugs. International partnerships are critical to our Nation's efforts 
to combat the threat of illegal drugs. To continue the DEA's drug law 
enforcement training to our counterparts overseas, our budget proposes 
an enhancement of 20 positions (16 agents) and $1,500,000. Our fiscal 
year 2004 budget also proposes an increase of 20 positions and 
$2,500,000 to improve DEA's financial and asset management programs and 
$7,847,000 in prior-year unobligated balances to design and construct a 
state-of-the-art laboratory in the Southeast region (Miami, Florida). 
This request will provide DEA's highly skilled and specialized chemists 
with a modern, state-of-the-art facility.
    The Department's fiscal year 2004 budget requests additional 
funding for drug treatment programs in the Office of Justice Programs 
and the Bureau of Prisons. To expand the Drug Courts Program, our 
budget proposes an enhancement of $16,614,000 for fiscal year 2004. The 
Drug Courts Program provides alternatives to incarceration to encourage 
abstinence and alter behavior with a combination of escalating 
sanctions, mandatory drug testing, treatment and strong aftercare. For 
the Bureau of Prisons, our budget proposes an enhancement of 12 
positions and $467,000 to support drug treatment for approximately 
16,500 inmates. This will bring the BOP to its treatment threshold as 
required by the Violent Crime Control and Law Enforcement Act of 1994.
                   preventing crimes against children
    A critical focus of the fiscal year 2004 Budget and a primary 
objective of Goal II of the Department's Strategic Plan is to Combat 
Crimes Against Children and Other Vulnerable Victims of Violence and 
Exploitation. Children today face dangers wholly new to any generation. 
The rapid expansion of the Internet into our homes, libraries and 
public institutions has brought boundless opportunity within reach, but 
the same vehicle that serves young people also aids those who would 
harm them. The fiscal year 2004 Budget includes enhancements totaling 
$19,094,000 to support efforts to reduce child abductions and firearms 
violence.
    The impact of firearms violence is particularly severe on our 
children and young adults. Of the approximately 1,400 juveniles 
murdered in 2001, 44 percent were killed with a firearm; and over 2,800 
students were expelled in 1999-2000 for bringing firearms to school. 
The Youth Crime Gun Interdiction Initiative of the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives (ATF) is a model partnership between 
ATF and local law enforcement designed to reduce firearms violence by 
investigating illegal trafficking to youth. The fiscal year 2004 Budget 
proposes to expand this initiative, begun in 17 cities in 1996, to an 
additional 10 cities. The enhancement of 118 positions (62 agents) and 
$13,000,000 will bring the total number of participating cities to 70.
    Nothing hits home more than a missing child and nothing galvanizes 
law enforcement and the communities they serve more than finding that 
missing child and returning that child home safely. AMBER--America's 
Missing: Broadcast Emergency Response--was created in 1996 as a legacy 
to 9-year-old Amber Hagerman, who was kidnapped while riding her 
bicycle in Arlington, Texas and then brutally murdered. After this 
heinous crime, Dallas-Fort Worth broadcasters teamed with local police 
to develop an early warning system to help find abducted children. I am 
pleased that the fiscal year 2004 Budget includes $2,500,000 to develop 
an effective, coordinated AMBER Alert program nationwide. The 
Department's AMBER Coordinator, Assistant Attorney General Deborah 
Daniels, will use these funds to train law enforcement and others in 
operating an effective AMBER Alert system and to give radio stations 
the software to upgrade their emergency alert systems so they can 
broadcast an AMBER Alert. A sound AMBER plan is vital to the swift 
recovery of a child in imminent danger of physical harm.
    The Innocent Images National Initiative, a component of the FBI's 
Cyber Crime Program, combats the proliferation of child pornography and 
child sexual exploitation facilitated by on-line computers. The 
Innocent Images National Initiative focuses on individuals who indicate 
a willingness to travel interstate for the purposes of engaging in 
sexual activity with a minor and on major producers and/or distributors 
of child pornography. In the last six years, the FBI has seen a 20-fold 
increase in the number of Innocent Images cases opened. The fiscal year 
2004 Budget requests an additional 32 positions (19 agents) and 
$3,594,000 to increase investigations and keep pace with the rising 
trend of child pornography and sexual exploitation via the Internet.
                         enhancing dna programs
    The fiscal year 2004 Budget includes increases of $106,220,000 in 
expanded funding for DNA analysis. Forensic DNA analysis has rapidly 
developed into a vital tool used to support an increasing number of 
investigative efforts. Increased demand and limited processing 
capability has created a significant backlog in cases requiring 
forensic DNA analysis. The FBI's Nuclear DNA Program has examined 
evidence from terrorist activities such as the U.S.S. Cole bombings, 
assaults on the World Trade Center and the Pentagon, the anthrax-laced 
mailings and numerous hoax anthrax letters. On the State level, DNA 
analysis has proved invaluable by instantly identifying repeat 
offenders, as well as narrowing the field of potential suspects. The 
fiscal year 2004 Budget will provide continued support to this 
indispensable investigative tool for both State and Federal programs.
    The FBI's Combined DNA Index System (CODIS) and National DNA 
Database utilize forensic sciences and computer technology as an 
effective tool for solving violent crimes. CODIS and the National 
Database enable Federal, State, and local crime laboratories to 
exchange and compare DNA profiles electronically, thereby linking 
crimes to each other and to convicted offenders. The FBI's DNA effort 
began as a pilot project in 1990 serving 14 State and local 
laboratories. Today, the FBI's National DNA Index System includes 42 
States, two Federal laboratories and the Commonwealth of Puerto Rico. 
It has produced more than 6,000 hits, assisting in more than 6,400 
criminal investigations. Ultimately, the number of crimes it helps to 
solve measures its success.
    In fiscal year 2004, the Budget is proposing an increase of 32 
positions and $3,283,000 to expand the FBI's capacity to collect, 
analyze, and store DNA forensic evidence. The FBI plans to double the 
processing rate of nuclear DNA cases by 2005, by increasing the number 
of Forensic DNA Examiners and Biologist Technicians by two-thirds and 
developing Rapid DNA Analysis Systems to replace manual processing. The 
Budget requests 28 positions and $2,692,000 for this purpose. In 
addition, 4 positions and $591,000 is requested to staff, supply and 
equip the Federal Convicted Offender Program to collect DNA samples and 
produce DNA profiles for CODIS. These resources will enable the FBI to 
keep pace with the expanded terrorism-related offenses authorized by 
the USA Patriot Act.
    The fiscal year 2004 Budget also proposes a consolidated DNA effort 
in the Office of Justice Programs (OJP) to assist state and local 
laboratories to reduce backlogs of DNA samples and improve their 
capabilities through increased information and research to make DNA 
tests faster and cheaper. The Budget request proposes funding this 
consolidated effort at a level of $177,000,000, an increase of 
$102,937,000 above the fiscal year 2003 Budget request level.
    Many of our Nation's crime labs lack the capacity to analyze all of 
the DNA evidence collected by police. While all 50 States collect DNA 
from their convicted felons, many lack the resources to enter these 
samples into the national DNA database. As a result, there are some 
500,000 samples awaiting analysis in laboratories across the country. 
Reducing this backlog by entering these samples in State and national 
DNA databases will assist law enforcement in linking offenders already 
in custody to unsolved crimes. As of March 2002, the FBI's DNA database 
had identified 610 offenders and produced 193 ``forensic hits'' in 
which cases not known to be related were found to have been committed 
by the same offender. The proposed enhancements for fiscal year 2004 
will be used to--
  --Reduce the DNA backlog through formula-based grants to expedite the 
        entry of DNA samples from convicted felons and unsolved crimes 
        into the national database;
  --Improve the capacity of DNA crime labs through grants to state and 
        local crime labs for the acquisition of DNA analysis equipment 
        that will process samples more quickly and accurately; and
  --Support continuing research on forensic DNA technology and provide 
        assistance for pilot projects.
   protecting the judicial system and managing federal detention and 
                         incarceration capacity
    The Department's fiscal year 2004 budget request seeks significant 
resources to improve courtroom security, to detain the accused in 
Federal custody and to protect the American public by providing for the 
safe, secure and humane incarceration of sentenced offenders. Security 
associated with terrorist-related court proceedings requires an 
unprecedented level of protection for all trial participants because of 
the global interest and intense media attention. These high-security, 
high profile proceedings require extensive operational planning and 
support from specially trained and equipped law enforcement personnel. 
The United States Marshal Service (USMS) is responsible for safely 
transporting accused individuals to and from judicial proceedings and 
ensuring the safety of the judicial participants, the public, and USMS 
personnel. To meet better the security needs of these proceedings; our 
budget seeks 275 positions (231 Deputy United States Marshals) and 
$26,599,000. The budget request for USMS also seeks $2,000,000 from the 
Department's Working Capital Fund for courthouse security equipment. 
This additional funding is sought to fund security systems, relocation, 
and telephone and data lines for four new courthouse facilities opening 
during fiscal year 2004.
    During 2002, the Nation's prison population rose 4.4 percent, by 
over 6,800 inmates. The Department's fiscal year 2004 budget request 
seeks additional resources for the Bureau of Prisons to manage this 
growth, including activation costs for seven new facilities. Our budget 
seeks a total of 2,727 positions and $251,978,000 to activate 7 new 
facilities including United States Penitentiary (USP)--Hazelton, West 
Virginia, USP--Canaan, Pennsylvania, and USP--Terre Haute, Indiana, 
Federal Correctional Institution (FCI)--Victorville, California, FCI--
Forrest City, Arkansas, FCI--Herlong/Sierra, California, and FCI--
Williamsburg, South Carolina. These facilities will add 8,000 
critically needed beds to reduce overcrowding.
    To provide adequate space to detain individuals in the custody of 
USMS, our budget seeks an increase of $34,705,000. These resources will 
fund additional bed space in state, local and private facilities for 
Federal detainees.
    managing the department's financial and information resources, 
                including enhancing information security
    The Congress has entrusted a significant level of resources to the 
Department of Justice to enable it to carry out its important mission. 
Our budget seeks additional funding to ensure that resources entrusted 
have sufficient oversight. To strengthen the Department's management 
and oversight of information technology security, including the 
continued implementation of a Department-wide security architecture and 
security standards, and the development and initial implementation of a 
Public Key Infrastructure, the Department seeks an enhancement of 13 
positions and $9,000,000. For fiscal year 2004, the Department also 
seeks an enhancement of $15,000,000 for the Department's Unified 
Financial Management System that will improve financial management and 
oversight with standardized core functions across the Department.
    To continue the deployment of the Department's Justice Consolidated 
Office Network (JCON), our fiscal year 2004 budget seeks an enhancement 
of $17,000,000 and $33,000,000 from the Department's Working Capital 
Fund. These resources will continue to enable the United States 
Marshals Service to increase the JCON-architecture deployment to 92 
percent.
                       other important activities
    Our budget seeks $40,730,000, including $35,030,000 in appropriated 
resources and $5,655,000 from the Department's Working Capital Fund, to 
enhance several items of critical importance to the Department's 
continued efforts. For the United States Attorneys, we are seeking 145 
positions and $15,862,000. Of this amount, $10,207,000 in appropriated 
resources would enable the United States Attorneys throughout the 
Nation to address critical areas including civil defensive litigation 
needs arising from greater demands associated with the implementation 
of anti-terrorism programs after September 11, 2001, expanding civil 
defensive case loads, and increased complexity of employment 
discrimination and tort cases; and to provide for much needed 
litigation support and enhanced timeliness of financial reporting. In 
addition, $5,700,000 from the Department's Working Capital Fund would 
enhance the United States Attorneys' information technology 
infrastructure.
    Our budget also seeks additional resources for the Environment and 
Natural Resources and Civil Divisions of the Department. Requested 
enhancements totaling 32 positions and $4,188,000 would enable the 
Environment and Natural Resources Division to address its Tribal Trust 
Fund docket and to further implement a critically needed initiative to 
seek out and prosecute violators of hazardous material transportation 
and handling laws. Additional resources of 30 positions and $4,500,000 
for the Civil Division would enable the Division to continue to address 
high-profile immigration cases which implicate the integrity of the 
September 11, 2001 investigation and the Federal Government's response 
and to fund additional costs generated by the 2000 amendments to the 
Radiation Exposure Compensation Act (RECA), which triggered a nearly 
five-fold increase in the number of RECA claims filed. An additional 28 
positions and $2,000,000 are also sought for the Executive Office for 
Immigration Review (EOIR). These additional resources would enable EOIR 
to keep pace with workload increases as a direct result of increased 
interior and border enforcement.
    For fiscal year 2004, we are seeking $5,500,000 for the Office of 
Justice Programs to fund additional Public Safety Officers Educational 
Assistance payments and to begin converting the National Crime 
Victimization Survey conversion from primarily a paper-and-pencil 
operation to a fully automated data collection process.
    The United States National Central Bureau continues to facilitate 
international law enforcement cooperation as the United States 
representative with the International Criminal Police Organization 
(INTERPOL). Our fiscal year 2004 budget seeks an additional $932,000 to 
fund increased dues payments on behalf of the United States to 
INTERPOL. Additional funds are needed to replenish depleted reserve 
accounts, while at the same time expanding operations and personnel to 
focus on combating international terrorism.
    We are proposing additional resources to provide enhanced building 
security. In fiscal year 2004, our budget request seeks $6,517,000 for 
improved perimeter security and guard services. This request builds 
upon the fiscal year 2002 reprogramming proposal submitted by the 
Department. In addition, for the United States Trustee Program, we seek 
an additional $1,104,000 to enhance the information technology 
infrastructure of the Program.
                               conclusion
    Chairman Gregg, Senator Hollings, and Members of the Subcommittee, 
I have outlined for you today the principal focus of the fiscal year 
2004 budget request for the Department of Justice. The Department 
continues to evaluate its programs and operations with the goal of 
achieving both component-specific and departmental economies of scale; 
increased efficiencies; and cost savings. Aided by ongoing reviews of 
business practices, we are beginning a comprehensive, multi-year 
process to implement a wide range of streamlining and efficiency 
measures that will result in substantial savings. Many of these 
proposals have been incorporated into our fiscal year 2004 budget 
proposal.
    I look forward to working with you on this budget proposal and 
other issues.
    Thank you. I would be pleased to answer any questions you might 
have.

    Senator Gregg. Thank you, Mr. Attorney General, for that 
extensive opening statement. It does remind me a bit of a 
fellow I used to represent when I was practicing law named 
Oscar Payne. He was about 78 years old, and he worked on a farm 
up in Acworth, New Hampshire. He went to church once, and it 
appeared he was the only one at church. And the minister spoke, 
and did three readings from the Bible. He sang four hymns and 
did a sermon, a full sermon. It was a very good sermon. They 
even had the offering. They passed the plate.
    And at the end of the service, the minister went to the 
front door and said to Oscar, as he walked out, shook his hand, 
``Oscar, what did you think?'' And Oscar said, ``Well, when I 
go down in my field, if I only find one stalk of corn, I don't 
dump the whole load of manure on it.''
    We certainly appreciate that extensive statement.
    And as is the tradition of this committee, we always defer 
to the chairman when he comes.
    Senator Stevens. I left my truck behind today, Mr. 
Chairman.
    Nice to see you, John. And you are doing a wonderful job. 
We thank you very much for what you are doing. I have to go get 
ready for the supplemental today and just dropped by briefly. 
Thank you very much.
    Attorney General Ashcroft. It is an honor to serve with 
you, sir.
    Senator Gregg. I also want to say you are doing an 
exceptional job. And we----
    Attorney General Ashcroft. You could have at least----
    Senator Gregg. As an old friend, I enjoy you.
    Senator Hollings.

                            CORPORATE FRAUD

    Senator Hollings. Thank you, Mr. Chairman.
    General, I was listening to that litany of the various 
prosecutions, indictments, convictions, and what have you, and 
particularly with respect to corporate fraud. At the time that 
you put the Deputy Attorney General Larry Thompson in charge of 
corporate fraud, at that particular time the question arose 
that his firm represented Enron, Kenny-boy, Ken Lay.
    Now 1\1/2\ years later, with all of those convictions that 
you talk about, prosecutions and indictments and everything 
else like that, we have not heard anything about Kenneth Lay. 
Specifically, we see now in the news what we heard the first 
couple of months before our Commerce Committee from California, 
that it was a total fraud the way Enron was taking more than 
their shortage of so-called allocation. And then with the more 
or overage of that particular shortage, they were sending a 
note, shipping it back in with the increased price, defrauding 
the State of California. Now that has been verified in several 
news stories here in the last 2 weeks.
    At that time, there was a witness from the California 
Public Service Commission or Authority or whatever. And I asked 
him, I said, ``Wait a minute here now. That morning, Mrs. Lay 
appeared on my television before I came to work, said that her 
husband did not know anything about it. And the witness 
testified he knew everything about it. He knew all the 
details.''
    With that in the public sector, what happens? You have 
everybody but Kenneth Lay. And that is where it all started. 
Can you tell the committee?
    Attorney General Ashcroft. Senator, the corporate fraud 
investigations are ongoing. As it relates to the Enron 
Corporation, I am not informed about that. I am not a part of 
it, because I was recused from those investigations as a result 
of a determination that was reached that recusal would be 
appropriate for me in regard to Enron. I do not want to be non-
responsive, but it would be inappropriate for me to comment on 
something in which I am not involved, which is an ongoing 
investigation, and something from which I am recused.
    Senator Hollings. Well, as the Attorney General, you should 
be curious, just as this Senator is curious. Suppose you get a 
report from Deputy Attorney General Larry Thompson for you and 
for me on the status of the Kenneth Lay case.
    Attorney General Ashcroft. I would be happy to instruct the 
Department to give you a complete report, to the extent it is 
appropriate, on that investigation. It is something about which 
I cannot give you a report.
    [The information follows:]

                            Enron Task Force

    As of June 19, 2003, the Department's Enron investigation 
has resulted in the convictions of Arthur Andersen and 5 
individuals, as well as the indictment of 15 other individuals, 
including both the Chief Financial Officer and Treasurer of 
Enron. The investigation into possible additional criminal 
activity is active and ongoing.

                       NATIONAL SECURITY COUNCIL

    Senator Hollings. Very good. Now let me ask with 
specificity with respect to the National Security Council. Now 
that we have changed over to domestic threats, at the time 
President Truman organized the National Security Council, you 
had the Vice President, the Secretary of State, and the 
Secretary of Defense, and everything else of that kind. We came 
within a vote of really asking that the Attorney General and 
that the FBI and others also be a part of that.
    My concern is that the President gets a complete report 
from his National Security Council. Do you meet with him every 
day and give him a report intelligence-wise, or what is the 
score on that? Because the old rule was that the FBI just 
handled domestic crime; the CIA handled intelligence abroad. 
Now we have got to doing or developing as you are doing, a 
domestic intelligence. And you have to coordinate the two. And 
I have some questions about the coordination. But I am 
wondering if the President gets a complete report on the 
domestic intelligence. What is the setup?
    Attorney General Ashcroft. Well, every morning at just 
about 7 o'clock, I begin my day meeting with FBI officials, as 
we prepare to go and brief the President of the United States. 
On a daily basis, we brief the President of the United States, 
and we do so in the presence of those individuals who brief the 
international intelligence.
    One of the things that is very apparent to us is that there 
is no longer a discontinuity or a break between things that 
might be happening in the United States and things that might 
be happening overseas. It is important that a complete picture 
be given and that the FBI knows what is happening 
internationally, and that the CIA knows what is happening as a 
result of the domestic thing, and that the President hears it 
all and be able to respond to it all.
    The President devotes himself to that with a discipline and 
an intensity which is very, very impressive to me. He does it 
on a daily basis, and I witness it personally.

                  TERRORISM THREAT INTEGRATION CENTER

    Senator Hollings. Good. What about the status of the TTIC, 
the Terrorism Threat Integration Center? Is that developed?
    Attorney General Ashcroft. The Terrorism Threat Integration 
Center, TTIC as some folks are calling it, is being stood up at 
this time. It will go into effect on the first of May in a 
formal sense, as a way of integrating intelligence that comes 
from virtually all the sources that generate intelligence for 
the country. It will provide access to participants in the TTIC 
operation, meaning both the intelligence sources from overseas 
and from at home, and the intelligence that is gathered, say, 
by agencies that are not thought of as being intelligence 
agencies but uncover information. For example, the Immigration 
authorities who encounter information or Customs authorities, 
who hear about potential smuggling and the like.
    The Terrorist Threat Integration Center, which would have 
the means of examining the intelligence information from all 
agencies by virtue of having search engines, could harmonize 
this information so it is all available. It is an attempt to 
have it in a format which would provide easy processing, so 
that information from different agencies, which has previously 
been assembled in different ways, would be comparable.
    The TTIC will first come into existence and be stood up, as 
I said, on the first of May. It is later expected to be housed 
at an independent location, directed by an individual chosen by 
the Director of the CIA in consultation with the Attorney 
General and the Director of the FBI and others. It will also be 
at a location which will house the counterterrorism effort of 
the FBI and the CIA. But they will be separately administered.
    I believe it is important that the output of these 
intelligence-gathering agencies be available broadly to both 
sides. They have separate gathering operations, primarily 
because the CIA has a culture of gathering outside the United 
States, where the rules are far different than the culture of 
gathering information inside the United States where we have to 
have strict adherence to the laws and to the Constitution of 
the United States.
    Once information has been gathered by each of these 
agencies and by the other contributing agencies, it is 
available in this Terrorist Threat Integration Center. The 
intelligence of these various agencies that participate is 
available through a search engine function in the center that 
should make intelligence available to the FBI, which was 
developed originally by CIA, or vice-versa, and the other 
agencies, so that we should have a far more comprehensive 
understanding.
    We should be able to integrate our understanding, rather 
than having the right hand maybe have some substantial assets 
the left hand does not know about. These assets should be 
jointly understood, although they are independently developed. 
The techniques for developing information in the United States, 
as opposed to abroad, follow a different set of protocols, 
guidelines, rules, which follow our Constitution, as opposed to 
a variety of other rules which are available and imposed in 
different settings overseas.

               TERRORIST THREAT INTEGRATION CENTER BUDGET

    Senator Hollings. The budget for TTIC, do you have it? Who 
appropriates for that?
    Attorney General Ashcroft. Well, I believe TTIC is not 
provided for in our Department. I turned to make an inquiry 
because funding associated with the TTIC will be for the entire 
counterterrorism section of the FBI, which is part of our 
budget. The $50 million to stand this project up was provided 
originally in the Defense area. But I am not--I would have to 
get back to you on the specifics.
    [The information follows:]

                  Terrorist Threat Integration Center

    The fiscal year 2003 Department of Defense appropriation 
included $104 million for the Terrorist Threat Integration 
Center (TTIC), of which no less than $50 million is to be used 
for FBI costs associated with TTIC.

              EMERGENCY WARTIME SUPPLEMENTAL APPROPRIATION

    Senator Hollings. Let us get a hold of it, so we can follow 
it.
    Now the distinguished chairman, Senator Stevens, just left 
for the supplemental. I note that you have some $500 million 
for the Department of Justice in that particular supplemental. 
Can you give the committee a breakdown on what that $500 
million will be expended for?
    Attorney General Ashcroft. Included in the $500 million are 
resources that relate to the terrorist threats, and retaliatory 
actions that might be taken against the United States. 
Counterterrorism funds are requested to reimburse departmental 
components for extraordinary costs, security enhancements, 
language translation services, operational field expenses, 
including overtime and surveillance support.
    The Office of Intelligence Policy and Review has been the 
subject of very serious demands recently and needs----
    Senator Hollings. Do you have amounts for each one of those 
items?
    Attorney General Ashcroft. We do not have a specific amount 
for each of those items listed in the request that went to the 
Congress.
    Senator Hollings. Can you furnish that for the committee?
    Attorney General Ashcroft. Pardon?
    Senator Hollings. Could you furnish the committee with the 
itemized amounts?
    Attorney General Ashcroft. We will be happy to discuss 
these needs with the committee. I do not know that I am 
prepared to provide a detailed list. But as monies would be 
spent, we would expect to be conferring with the committee 
about the way in which they are spent. I can read the list of 
the kinds of things, as I was beginning to do, that the funds 
would be used for. It goes on to include the United States 
Marshals Service courthouse security, which had to be elevated 
as a result of a number of our law enforcement efforts in 
terrorism.
    We would be happy to be very collaborative about this 
particular set of resources and understand the desire of the 
Congress to watch carefully the expenditure.
    Senator Hollings. Let me yield to----
    Senator Gregg. Okay. I have some questions.
    On that point, Senator Hollings and I expect, to offer 
language to the markup which would require that we reintroduce 
the transfer language and make it applicable to this account, 
this extra $500 million, which does not sound to be 
inconsistent with what you are suggesting you would be willing 
to do anyway.
    Senator Campbell, do you have some questions?
    Senator Campbell. Thank you, Mr. Chairman. I have listened 
very carefully and read the Attorney General's statement, too. 
And I found it very detailed, a lot of information in there. I 
was even interested in your analogy concerning the volume of 
his testimony.
    I do not want to know your reaction to that, Mr. A.G.
    Attorney General Ashcroft. Well, could I please----
    Senator Campbell. Yes. Why do you not go ahead?
    Attorney General Ashcroft [continuing]. Just personally 
note that this is April Fool's Day. And I was hoping----
    Senator Campbell. Oh, okay. That explains it.
    Attorney General Ashcroft [continuing]. That he would at 
least follow that remark with the words ``April Fool.''

                              CIVIL RIGHTS

    Senator Campbell. Well, in any event, I just want to tell 
you, I think you are in a very, very tough job. You are really 
in unchartered waters. And I want to associate my words with 
the brief remarks that Senator Stevens said before he left. I 
know that you are getting some accusations from different civil 
libertarians about, you know, sort of a punitive agenda or 
infringing on civil rights. And I do not see that at all.
    We are facing a time in the United States that we have 
never faced before. And from my perspective, I think you are 
doing just about as good a job as a person can do, fully 
recognizing that in America anybody gets to accuse anybody of 
anything. And being at sort of the top of that ladder, you are 
going to be the recipient of a lot of accusations.
    But I noted with interest the number of people you have 
increased in the Civil Rights Division, 709 employees now, I 
believe you said. And the number of hate crimes that you have 
prosecuted, and I did not remember the number of the 9/11-
related crimes you have also prosecuted, but I know that is 
going up considerably, too.
    And I think, very frankly, the numbers that you use would 
do all of us well, because we get questions in our town 
meetings and we get questions in our different forums about 
what we are doing when we hear some of these accusations. And I 
just wanted to commend you and say that you are setting an 
example, I think, for all of us to try to find that balance 
between preserving civil liberties and making sure that this is 
a safer Nation.
    I just wanted to put that in the record, Mr. Chairman. 
Thank you.

                            TERRORIST THREAT

    Senator Gregg. Thank you, Senator Campbell.
    In regard to the expanded war, Hosni Mubarak made an 
interesting comment yesterday about the expansion of the 
terrorist threat that the war is creating from his perspective. 
Do you see an expansion of terrorist activity within the United 
States?
    Attorney General Ashcroft. We have expanded our efforts 
dramatically. I think it is fair to say that there was 
intelligence that indicated that an elevated and escalated 
military presence by the United States and escalated activity 
in Iraq might occasion additional activity by terrorists. And 
we have acted to do that.
    I think in my opening statement, it may have been somewhere 
in the middle although it was less distinguishable, we have had 
a very substantial presence in seeking to curtail the 
activities of anyone who might be associated with terrorism, 
including the interviews that would help us learn about 
terrorist activities.
    So, frankly, in the United States to date, we have an 
increased effort by law enforcement and by the Department to 
make sure that we are not placed at higher risk. And to date, I 
must thank the hard work of the FBI and other law enforcement 
agencies, State and locals, who have worked very diligently 
with us to make sure that we have not seen specific terrorist 
acts carried out in the United States.
    Senator Gregg. Is there higher activity, however, that you 
are trying to interdict?
    Attorney General Ashcroft. As I indicated before, the 
intelligence indicated that there were levels of threats that 
were high. We believe that--and very frequently the level of 
threats that you have is related to the level of activity. That 
is what we are seeking to interdict. We hope that we can 
continue to do it successfully.

                  TERRORIST THREAT INTEGRATION CENTER

    Senator Gregg. Now when you were talking with Senator 
Hollings about TTIC, I am wondering how this coordinates with 
all the other activities that we have. We have the Foreign 
Terrorist Tracking Task Force. Homeland Security has a task 
force. You have the National Theater Center--the National 
Threat Center, and the FBI's analytical operations on 
counterterrorism. Are these all going to be moved out to the 
TTIC building?
    Attorney General Ashcroft. No, I do not believe they are. 
The FBI will maintain its own analysis. But it will also 
contribute its information intelligence on terrorism to the 
combined Terrorist Threat Integration Center. I think we 
anticipate that the FBI will continue to make its own 
independent evaluations but do so with the ability to gain the 
information that is available to TTIC and contribute the 
information it has to TTIC.

                          DEPORTED INDIVIDUALS

    Senator Gregg. When you deport 436 people, do you keep 
track of them after you deport them? It is sort of like putting 
the sharks back in the ocean, is it not?
    Attorney General Ashcroft. We maintain a list of those 
individuals who have been deported and seek to make sure that 
they do not come back into the United States. There are times 
when individuals are deported and, depending upon the nature of 
the situation, we alert the countries to which they are 
deported. Frequently individuals in this setting are 
individuals that we believe the receiving country ought to be 
aware of and interested in. And we try and make sure that 
happens.
    We have not deported individuals when we have felt that we 
had a valid basis for pursuing them for violations of the law 
in the United States. Generally, if persons have violated the 
law here in the United States in ways that are provable in the 
Article III Courts--and, you know, we have standards in that 
respect--for those individuals, we seek to prosecute them.
    Senator Gregg. Senator Domenici.
    Senator Domenici. Thanks very much, Mr. Chairman. I have 
three or four questions.
    It is good to see you----
    Senator Gregg. Excuse me, Senator Domenici. Senator 
Domenici, I apologize. Senator Kohl was here before you. I 
apologize.
    Senator Kohl. I would be pleased to yield. Go ahead, 
Senator.
    Senator Domenici. Thank you.
    It is good to see you. We are neighbors, but we still do 
not see each other very much.
    Attorney General Ashcroft. We sure do not.
    Senator Domenici. It looks like you are doing all right, 
though. You look healthy.
    Attorney General Ashcroft. Thank you.
    Senator Domenici. Is everything going all right, as well as 
possible?
    Attorney General Ashcroft. We are grateful for the 
successes we have. And we are going to keep working as hard as 
we can.

                        ALIEN ASSISTANCE PROGRAM

    Senator Domenici. Well, I have a few questions, I think 
three or four. My first one has to do with the Alien Assistance 
Program, SCAAP, and the Border Prosecutors Initiative. The 
President's budget eliminates funding for the State Criminal 
Alien Assistance Program, as it did last year, a $565 million 
reduction from 2002. I am concerned about the impact that 
cutting this program is going to have on struggling counties in 
States like mine, as they shoulder the significant cost burden 
created by illegal immigration, which obviously is a Federal 
responsibility.
    I am also concerned that this cost burden may damage 
localities' abilities to address other homeland security needs 
that they may have. Border counties are growing faster than any 
other region in the Nation. At the same time, they have a lower 
per capita income, and a higher percentage of people below the 
poverty level than any other region, making them the least able 
to foot the cost of services for criminal illegal aliens.
    In this time of heightened security in the border regions, 
I think it is imperative to ensure the effective processing of 
criminal illegal aliens, including incarceration by local law 
enforcement agencies. So in the past years, I have fought to 
increase SCAAP resources to relieve some of these costs for 
local communities for detaining these aliens.
    The State of New Mexico received a small amount, but 
important, $2.3 million in 2002 for funding this program. A 
recent New Mexico border county coalition study detailing the 
costs associated with processing criminal illegal aliens 
estimates that New Mexico's three counties will spend an 
estimated $5 million annually on criminal justice, law 
enforcement, and emergency medical care for illegal aliens. 
This is a small amount in your very large budget, but it is 
very important for these rural impoverished counties.
    So in view of this tremendous burden on border criminal 
justice systems, how does the Department of Justice propose to 
meet the costs of the Federal responsibilities that are 
currently shouldered by States, if not through this program?
    Attorney General Ashcroft. Well, first, Senator, let me be 
the first to recognize that the incarceration of individuals 
who come into the United States and commit crimes falls 
inordinately heavily on those States that are on the border. 
And the States of Texas, New Mexico, Arizona, California, 
Florida, Illinois as well, have relied heavily on this program, 
which is designed to undertake some of the costs of 
incarcerating individuals who commit crimes after coming to the 
United States illegally, and therefore are detained.
    The administration has sought to improve our performance at 
the borders, stop people from coming here illegally, and has 
focused its resources on doing that, so as to diminish the need 
to have people who come here illegally incarcerated because 
they commit crimes. We want to stop them before they get here. 
I think it is debatable as to how successful we are in all of 
that. We have a Border Assistance Initiative that related to 
the Southwest border that we are requesting that relates to 
prosecution. But I understand that if you prosecute, you need a 
place to put individuals, and that does not address the 
detention of those individuals.
    Ideally, we need to do a better job and continue to improve 
our performance at preventing those individuals from coming, so 
that later on we do not have to seek to remediate the problem 
by detaining them in our prison systems at great expense.
    As you mentioned, in the 2003 omnibus appropriation bill, 
Congress provided $250 million for the State Criminal Alien 
Assistance Program (SCAAP). The administration is seeking to 
address those issues by improving our border performance and 
providing the other assistance in the Border Initiative 
Program.
    Senator Domenici. Well, I bring it up because I think in 
the preparation of the budget it is so easy to eliminate and 
forget about these programs because of the bigger ones. But 
actually, when you have a border State, and especially one 
which is a broad area, not very much population in just a few 
communities, this is a tough area. A couple million dollars is 
pretty tough for those systems to try to accommodate. We will 
try to see what we can do in the process to be helpful.

                        STATE JUSTICE INSTITUTE

    There is an institute called the State Justice Institute. 
Are you aware of that within the Department, the State Justice 
Institute? It has $6 million in the past----
    Senator Gregg. I believe that is independent of the Justice 
Department.
    Attorney General Ashcroft. I am not aware of it. I think it 
may be in the court system.
    Senator Domenici. It is not in their budget?
    Senator Gregg. No, it is not. It is an independent agency.

        AMERICA'S LAW ENFORCEMENT AND MENTAL HEALTH PROJECT ACT

    Senator Domenici. I am sorry.
    Let me leave you a question with reference to the kind of 
court system that is evolving called the mental health courts. 
I am very aware of them, and had something to do with starting 
them. They are beginning to mature. I personally believe that 
they can have a great deal of positive impact on alleviating 
overcrowding and creating greater judicial economy within our 
court systems.
    Are you aware of any steps that the DOJ is taking to 
distribute the $3 million to implement America's Law 
Enforcement and Mental Health Project Act?
    Attorney General Ashcroft. We, in this fiscal year, have a 
$4 million appropriation for distribution to assist about 23 
different mental health courts around the country. As you have 
indicated, this is something sort of on the cutting edge, new.
    Senator Domenici. Yes.
    Attorney General Ashcroft. In addition to working with 
them, we are trying to develop a set of guidelines, procedures, 
develop the information that would be valuable to other groups 
that might seek to start such courts. The grant program is 
underway. The awards are in the process of being made. There 
are a couple dozen that appear to be most likely to be the 
beneficiaries of the $4 million of grant money.
    Senator Domenici. Well, I thank you for being empathetic 
toward them. Some people seem to think they are a bother. But 
essentially, when you look around the country and find that so 
many individuals occupying prison space are actually mentally 
ill. They are put there either in county courts or others 
because of their mental illness, and nobody knows what else to 
do, so they throw them in jail for a while. It does not really 
work. Setting these courts up is a very good intermediary 
process to do a better job in that regard.
    Attorney General Ashcroft. Well, Senator, last year you 
asked me at this hearing if I would get a briefing on these so 
that I could become aware----
    Senator Domenici. That is right.
    Attorney General Ashcroft [continuing]. Of the value. And I 
did get that briefing. And I have asked that the Department 
work carefully to make sure that the grant resources are 
properly made available.

                RADIATION EXPOSURE COMPENSATION PROGRAM

    Senator Domenici. My last observations and a few questions, 
which I will submit for the record, have to do with the 
Radiation Exposure Compensation Program. Now that program has 
been a difficult one. We have gone back and forth as to how it 
will be funded. But eventually we made it a mandatory program 
and put $172 million in law. The Department has $172 million to 
pay claims in 2002 and $143 million for claims in 2003.
    I would like you to submit for the record a status report 
on the payment of these claims. How many claims has the 
Department approved, and how much has been spent, and what is 
the average amount of the claims approved? This has become over 
time a program that got bounced back and forth. It became 
somewhat scandalous when people with claims could not get the 
money because they were given IOUs, because we did not have the 
appropriated funds.
    Between the chairman and others, we have attempted to fund 
it properly. It has been a terribly difficult program, not only 
for me as one who helped start it, but for the chairman. I have 
about five questions that will get this on the record so 
everybody will know exactly where we are. I would appreciate it 
if you would answer them as early as the chairman expects the 
responses to the committee.

                       FEDERAL JUDGES--NEW MEXICO

    And my last question has to do with New Mexico judges. The 
latest reports on the need for Federal judges would indicate 
that the area of the judiciary, Federal judiciary, that is most 
in need are those courts along the borders of the United 
States. And my State, while it is a small one, continues to be 
one that needs judges because of the enormous criminal 
caseload. I believe there is an indication in the latest study 
that New Mexico needs three additional judges.
    Are you aware of the last report? And are you going to do 
something to recommend that there be compliance and an effort 
to fill the need, as recommended, with reference to the Federal 
judges?
    Attorney General Ashcroft. Well, Senator, last year in the 
reauthorization of the Department, there were judges created, 
additional judges. The Department supported that. And the 
Department supports the additional judges' specific numbers in 
a particular report. Regional allocations are not something 
that I am focused on at this time. I have been made aware of 
the need, and I think that it is a need that this 
administration understands and is willing to address.
    Senator Domenici. Well, I will ask you for some specific 
answers as to what would help alleviate this, if you would 
answer those, also. We need some indication from you about them 
so we can pursue it with a little more vigor to get the 
positions filled. Thank you.
    Thank you, Mr. Chairman.
    Senator Gregg. Okay. Senator Kohl. I apologize, Senator 
Kohl, for the mixup in the order.
    Senator Kohl. Good morning.
    Attorney General Ashcroft. Good morning.

                            CHEMICAL WEAPONS

    Senator Kohl. Mr. Attorney General, within the past month 
the FBI has warned law enforcement agencies nationwide that 
terrorists could build a simple but very deadly chemical weapon 
out of readily available materials. Specifically, the FBI cited 
hydrogen cyanide, or chlorine gas, as easy to make chemical 
weapons created by combining liquid and solid materials. In the 
case of hydrogen cyanide, which was once used as a war gas, one 
need only to combine cyanide and salt--cyanide salt and acid. 
Pardon me.
    What is so disturbing is how easy it is to obtain cyanide. 
It is readily available at chemical weapon supply houses, from 
mail order catalogs, or even via the Internet. Even more 
disturbing is evidence that terrorists could use cyanide in a 
future terrorist attack.
    Has the Department of Justice reviewed the potential use of 
these poisons as a terror weapon? Do you think that Congress 
needs to consider regulating the sale of toxic substances like 
cyanide through a permit system to ensure that it does not fall 
into the wrong hands?
    Attorney General Ashcroft. Well, first let me say, Senator, 
that this is a matter of real concern. I know that this is a 
matter that the terrorist community is aware of, that among the 
kinds of evil chemistry and other threats that they deal in, 
this is among those kinds of circumstances.
    And I would be very happy to work with individuals in the 
Senate, and in the House for that matter, if they were to 
choose to seek to address this problem, just as we have been 
very pleased to work with you as it related to the Bureau of 
Alcohol, Tobacco, Firearms and Explosives (ATF). The new 
explosives regulatory format, which is being implemented--and I 
must commend your staff for working with the Justice Department 
closely to iron out the difficulties there. The ATF has become 
a part of the Department of Justice. This new regulating 
responsibility for explosives is something they are working 
together on and, I think, productively.
    We would be happy to confer in regard to efforts in the 
Congress that might relate to improving our safety and the 
security of the country when threatened by evil chemistry from 
terrorists or others.

                 TOBACCO SMUGGLING/TERRORIST FINANCING

    Senator Kohl. Thank you. I would like to work with you on 
that. Mr. Attorney General, recent ATF investigations reveal 
that tobacco smugglers are using the profits they make from 
their illegal operations in the United States to fund terrorist 
groups, like Hezbollah, among others. Furthermore, the GAO 
estimates that State governments are losing billions of dollars 
in tax revenue because of cigarette smuggling and Internet 
sales of cigarettes. This is a serious problem that is not 
getting the attention it deserves as a funding source for 
terrorism.
    I am considering introducing legislation to increase the 
penalties associated with tobacco smuggling. Do you agree that 
this is a serious terrorism-related concern? And will you 
pledge to work with me and my staff on this legislation?
    Attorney General Ashcroft. I certainly do agree that it is 
a serious terrorist concern. Last fall, in Charlotte, North 
Carolina, the Joint Terrorism Task Force of the FBI, together 
with the ATF, dismantled the terrorist financial support cell 
which operated there, which was funding terrorism, according to 
the allegations, out of the smuggled cigarettes which are 
bought in a low tax jurisdiction, transported to a high tax 
jurisdiction, and sold. The money which would have otherwise 
been available as tax revenue in the higher tax jurisdiction is 
diverted either into criminal activity or terrorist activity.
    And in the case last fall, 26 individuals were charged with 
various crimes, including racketeering, money laundering, 
immigration fraud, credit card fraud, marriage fraud, visa 
fraud, bribery, and providing materials to support terrorist 
organizations. Now that is not a litany of good things.
    So we are concerned about the problem and would be happy to 
work with you in regard to legislation that might help 
remediate the capacity of criminals generally, and terrorists 
as well, to fund their activities that threaten the security of 
our people through the use of these kinds of resources in 
smuggling.

                     LOCAL LAW ENFORCEMENT FUNDING

    Senator Kohl. Thank you. I would like to ask a question 
about local law enforcement funding. This budget slashes 
funding for State and local law enforcement. For example, the 
following programs are either drastically reduced or just plain 
eliminated. The Burne Memorial Grant Program, the Local Law 
Enforcement Block Grant Program, the Juvenile Accountability 
Incentive Block Grant Program, and State Criminal Alien 
Assistance Program, the COPS Universal Hiring Program, COPS and 
School Program, and the COPS Technology Program. Combined, 
these important programs delivered more than $2.9 billion to 
police departments across the country last year.
    The fiscal year 2004 DOJ proposal rolls most of these 
programs into a $559 million Justice Assistant Grant Program. 
And only the COPS Technology Program has survived, although 
even that program had a reduced funding level. This is a 
startling cutback of law enforcement assistance of more than $2 
billion.
    What does not make sense about this huge reduction is that 
we are asking State and local law enforcement, as you know, to 
devote even more time and resources in the fight against 
terrorism. Many of our law enforcement agencies' budgets are 
dependent on Federal aid, as you well know. And if we abandon 
them, then they will have a very tough time doing what we are 
asking them to do with even less funding. It does not seem to 
make too much sense. What are your comments?
    Attorney General Ashcroft. Well, first of all, if you 
combine the supplemental request and the request for this 
appropriation year, it is clear that the money that goes to 
local law enforcement through the Justice Department and 
through the Department of Homeland Security is far more than it 
has ever been before; so while the justice portion of the 
resources may not be what it once was, the development of new 
resources through the Department of Homeland Security provides 
a much greater resource. For example, the President's 2004 
budget request, plus the supplemental transmitted last week, 
totals $8.5 billion, which is a very, very substantial sum of 
money.
    Now as it relates to the COPS Hiring Program and a number 
of the other programs, some of them are discontinued because 
this administration believes that they have fulfilled their 
purpose. Others, like the resources available under the Justice 
Assistance Program, which is right at $600 million, are not 
earmarked for specific programs to provide for greater 
flexibility on the part of law enforcement to meet the needs 
that they have. This administration believes flexibility is 
more valuable.
    I understand that there is a difference between the 
administration and the Congress, as it relates to earmarks and 
that is probably going to be something that there is continuing 
discussion on. But overall, when you put together the 
supplemental and the budget request, it totals far in excess of 
anything we have ever done to assist State and local first 
responders and law enforcement personnel. And we believe that 
it should help them be the kind of excellent partners they have 
turned out to be.
    If I could just take this moment again to commend our 
colleagues in State and law enforcement. They have risen to the 
challenge of defending America with the kind of team work that 
is very, very gratifying.

                    TERRORISM THREAT WARNING SYSTEM

    Senator Kohl. I appreciate your comment. And I am sure you 
are aware of the many complaints across the country in terms of 
our asking them to do more and their contention that we are, in 
fact, providing fewer dollars while at the same time asking 
them to do more.
    I would like to ask a question about the orange terror 
threat level alert. For the second time in the last 2 months, 
the country is again at the orange terror threat level. Last 
month we talked about these warnings. And I asked whether they 
could be reorganized or regionalized or made more specific. And 
you gave a very thoughtful answer at that time.
    That said, the threat level was raised when the war began 
in Iraq. Was the war the rationale for raising the threat 
level, or had there been particular threats to certain cities 
or industries? My concern is that when we put the entire Nation 
at a heightened sense of alert for extended periods of time, 
then vigilance will fade. And we will become perhaps even numb 
to the orange alert.
    Is there any better way to target this alert system so that 
local law enforcement agencies or particular States and 
localities that really need to be on the lookout are alerted, 
and other places in our country which are much less at risk are 
not put at the same high level of alert?
    Attorney General Ashcroft. Senator, when we last spoke 
about this, a migration was underway, which has been underway 
for some months now, of moving that from the Department of 
Justice, in terms of primary responsibility, to the Department 
of Homeland Security. I am pleased to make a response.
    I think when we talked last, we talked about understanding 
that, I think as everyone can, there are many areas in the 
country that are not as likely as other areas to be the subject 
of major attacks. That is one of the reasons why the alert 
system is an advisory system that does not mandate specific 
activities on the part of people, but suggest things that might 
be done based on the kinds of assets, infrastructure, or 
otherwise that exist there.
    At that time, I did comment as well, and I thank you for 
reflecting on my comments then. We have learned, however, that 
preparations for terrorist attacks tend to take place in a wide 
variety of settings that are not likely to be the ultimate 
attack locations, or at least were not on September 11. We saw 
terrorist preparations all across America, in towns small and 
large, from Portland, Maine, to Oklahoma City, I believe it 
was, to the west coast, across the Southwest, Minneapolis, a 
wide variety of places.
    So one of the things we want to ask Americans to do is not 
just to be alert to the fact that there might be an attack 
there, but be alert to the kinds of circumstances that might be 
preparatory for an attack or individuals who might be involved 
in the developing of the skills or assets necessary to launch 
an attack.
    I have said all this now to say that the Department of 
Homeland Security is now the final arbiter of whether we 
change. I would just add this one final remark, which I believe 
is in direct answer to your question. I know of no instance 
when the risk, when the level was raised that it was not raised 
in response to an understanding of the risk being higher. I 
know of no instance when the level was lowered when it was not 
lowered in response to the fact that we believed that we had 
digested some of the risk, and we could go back to the lower 
level.
    So that threat warning system is a risk-related system. It 
is designed to reduce risk and that is sort of strange. As you 
know, weather reporting is not designed to reduce or change the 
weather. But this system is designed to actually reduce the 
risk because if we get on a higher alert, it is very likely 
that we can, by being more active, reduce the likelihood that 
we will be hit. And that is an anomaly, but it is the truth.
    I hope that when we elevate our sensitivity and we take 
extra steps, we displace and disrupt terrorism. So it is risk-
driven. It is information-driven, not aspiration-driven. We do 
not put the risk where we want it to be. We take a look at the 
information, and we make the determination. I am kind of 
reporting historically now, since this is not my final call 
anymore, but that is the way I believe it is run.
    And when we do it properly, we report a risk, we diminish 
the risk by reporting it and enlisting the American people in 
working to make sure the risk never materializes.

                 ROCKET LAUNCHERS AND AIRLINE SECURITY

    Senator Kohl. All right. Thank you. One last question on 
rocket launchers and airline security: Recent news reports have 
highlighted the danger that shoulder-mounted rocket launchers 
pose to commercial aircraft. In fact, there was an attempted 
rocket attack on an Israeli airliner in Kenya last November. 
Fortunately, it was not successful. News reports suggest that 
Federal authorities are concerned about the issue with regard 
to airports, or particular airports, around our country.
    Given that these weapons are widely available, cheap, and 
easy to make, should not the American flying public be 
justifiably concerned that what happened in Kenya could happen 
here? Are you doing anything to assess this risk? Do you have 
any activities that you have undertaken to help prevent such an 
attack here in this country?
    Attorney General Ashcroft. This is a matter of concern. I 
believe that the airline industry provides secure air traffic 
in the United States. My family and I are in the planes on a 
regular basis. My wife will be flying today.
    So we believe that this is a matter that is appropriate for 
our attention, and it is a matter that we consider and are 
carefully assessing.

          RISK OF INTERNATIONAL TERRORISM IN THE UNITED STATES

    Senator Kohl. One last question, if I might ask: Was 9/11 
the watershed moment in terms of all the terrorism that we are 
trying to prevent in this country? Was the risk as great before 
9/11, but we were not aware of it? I guess many of my 
constituents back home are trying to understand and figure out 
why it is today we are so, so concerned, justifiably, about 
terrorism, doing so much and spending so much to prevent 
terrorism.
    What happened before 9/11, or were we fortunate, you know, 
and perhaps somewhat naive, and we are much more sophisticated 
now? In your mind, this is just a judgment, but----
    Attorney General Ashcroft. Well, frankly, Senator, I think 
9/11 was a watershed event. I think if the water did anything, 
it washed our eyes so that we could see that America was not as 
isolated as we had once thought and hoped. We had relied on 
oceans to defend us and to make us different.
    Terrorism had been significant around the world, but it had 
only really reached America in one previous setting where it 
was an American terrorist who had killed almost 170 people in 
Oklahoma City, a very serious event. But we had not seen 
terrorism as international. We had seen terrorism in other 
settings, in other countries, but the international terrorists 
had never reached into America.
    And while we were concerned about things that were 
happening overseas and happening to our assets overseas, no 
relation, but the U.S.S. Cole bombing was one of those things. 
The bombings of our Embassies were things like that, but they 
were overseas.
    We were introduced to the idea of international terrorism 
actually having very serious impacts here, and I do not want to 
disregard the fact that there was the attempt on the World 
Trade Center in the early 1990s, which was a bombing attempt, 
and that should be understood. But we saw it entirely 
differently after 9/11, and we should. And if I could do it 
over again, I would. If I could relive the 1990s, I would spend 
some of these resources in the 1990s to see if we could have 
prevented what happened in 2001.
    It is clear from what we know, having survived 9/11, and 
what we have learned in the intelligence community, that there 
are still very serious individuals with capacity, who would 
continue to hurt the United States, at a level as great as or 
greater than the injury to the United States on 9/11. We take 
that very seriously and are addressing those threats as 
intensely as we possibly can, respecting the framework of 
freedom which we have the responsibility to defend, and without 
which we would not care about defense. The only thing worth 
securing is liberty, and we are not going to trample on liberty 
in order to develop security.
    Senator Kohl. Thank you. Thank you, Mr. Attorney General, 
Senator Gregg.

                           OPERATION TOP OFF

    Senator Gregg. That was an interesting question, Senator 
Kohl. I would just note that this committee, prior to 9/11, did 
a lot in the area of terrorism and had a lot of trouble getting 
the attention of the community out there on that issue. We held 
two operations, called Operation Top Off, which was a chemical 
attack and a major bomb attack. One was held in Denver, and one 
was held in Portsmouth, New Hampshire. They were held over the 
strongest objection of the community out there that was 
supposed to be doing the exercises. And finally this community 
had to actually force those communities to pursue that.
    In addition, we held a joint hearing with this committee, 
the Defense Committee, the Intelligence Committee, where we 
asked all the agencies to come up and testify before us. The 
Attorney General was kind enough to do that prior to 9/11. And 
what was highlighted there was once again our lack of 
readiness.
    I think our culture has a lot of trouble dealing with 
issues until we have an event. And that is just the nature of 
the American culture, I am afraid. We have had the event, and 
we are certainly aggressively dealing with it. And the Attorney 
General, I think, is doing a superb job, as is the FBI, to try 
to deal with it.
    Senator Hollings.
    Senator Hollings. Senator Gregg is too modest. Actually he, 
long before any kind of hearing or finding by Hart and Rudman, 
this subcommittee, under his leadership, had hearings on 
terrorism. He instituted a training course. Several hundred 
were lost at 9/11 that had been trained. And 80,000 at that 
time, I will never forget it, had already been trained in 
terrorism work that was an initiative by Senator Judd Gregg. So 
we have been working on it.
    On your successes, and I speak only from experience having 
served with the Hoover Commission some 50 years ago, 
investigating the CIA and the FBI, amongst other intelligence 
agencies, I was inculcated by Alan Dulles and J. Edgar Hoover 
on this need to know discipline. And yes, everybody has to be 
proud of the successes. But in your game in antiterrorism and 
otherwise, a lot of them should not be even announced.
    Specifically, I will never forget when we got that hit in 
Yemen, that car full of terrorists, the FBI participated in 
leads for that particular hit. The Yemenites covered for us. 
They said there must have been explosives in the car. They do 
not know what happened. No, no. Big mouth, ``Oh, no. We have a 
drone. We run them down with a drone.''
    We got Mohammed in Pakistan. We followed him for 6 months. 
We could not keep our mouths shut for 6 hours so the FBI could 
follow the leads we got from him.
    And on top of it, we bragged about, ``Oh, we got the 
computer, we got this, we got that.'' Lies, so you got nothing. 
You just got the fellow, but he just did not give you any 
information. But use the leads to enforce law.
    I find too much braggadocio. ``You are either with us or 
against us here. Now is the time. The time has run out. You are 
irrelevant.'' Now, ha-ha, we are running around saying, ``You 
are very relevant, and we need your help.'' I mean, this crowd 
has been bragging too much.

                        STATE AND LOCAL FUNDING

    Other than that, let us get back to Senator Kohl's question 
because, General, you said that none of this was possible 
without the funding. Yes, the Office of Domestic Preparedness 
was transferred to Home Security. And I am on that 
subcommittee. But that did not supplant the $500 million of the 
Burne Formula Grants. That does not supplant the $397.4 million 
that you cut out of local law enforcement block grants. You 
eliminated COPS Hiring Programs, the COPS interoperability, the 
$139.9 million in the COPS Law Enforcement Technology Program. 
Just when crime is on the way up, you cut out the money and 
give us a Mitch Daniel put-off, that ``Oh, well, we have a lot 
more money in the other budget.'' We are here on all the 
budgets.
    And you had the successes. And now you are cutting it out. 
Well, in the DEA, that is under you, you changed the FBI to 567 
FBI agents that were working on drug enforcement that are now 
working on terrorism. So what happens to the DEA? That was like 
the hearing we just had last Thursday. You had both Governor 
Ridge and Secretary Rumsfeld up here, and they are fighting 
over the same people. These first responders, policemen and 
firemen and the National Guard, and all my crowd had cleared 
out. They are out in the Persian Gulf now and in Iraq. And we 
look around, and we find out that we just do not have enough.
    I told Secretary Rumsfeld rather than a money supplemental, 
he needed a manpower supplemental. You have 12 of these 
peacekeeping. You have a war in Iraq. You have a war in 
Afghanistan. And you have a terrorism war here. And you are 
still trying to do it. And everybody is fighting over the same 
manpower. And we cannot afford to cut these particular grants, 
cops hiring programs and different other things of that kind, 
the DEA. A war in Iraq is not going to be shortchanged money. 
You cannot shortchange the terrorism war. We need way more 
cops. We need way more effort and everything else.
    Last week, when they had that other alert that you folks 
put out, the Governor of South Carolina had to take and put 
parole officers around the Port of Charleston. He just ran out 
of personnel. And that is the same with the airports and 
everything else.
    I just want you to get a grasp of this thing, because this 
is a grasp that you can, Senator Kohl, Chairman Gregg, all of 
us have. I mean, the buck stops here. And we are not going to 
shortchange Iraq. You do not have to worry about the money for 
Iraq. We would be falling over each other. Support the troops. 
Support the troops. We are running around with the flag. Of 
course, we are not going to pay for it. We are going to borrow 
for the troops.
    This is some crowd. But then to go even further and cut out 
the working programs when crime is on the increase and 
everything else of that kind, I just want to register that 
observation.

                                TRILOGY

    Let me ask about Trilogy. Where is that? What is the final 
price tag? What is the status of it, you know? So everybody in 
the FBI is talking to everybody. We had the Arizona agent, that 
somehow it fell between the cracks. The Minnesota young lady 
who had to travel all the way, and they then would not listen 
to her, and everything else. So we gave Mueller, Director 
Mueller, millions and millions of dollars. This committee had a 
program transfer November a year ago, a year and a half ago 
now. So what is the program? Do we have it? Is it working? Do 
you need more money? We are going to get it done.
    Attorney General Ashcroft. We are going to get Trilogy 
done. It was a project started several years ago, before 9/11. 
It has been upgraded on the basis of several things, including 
9/11. The first big deadline was to get all the computers 
talking to each other. That was to take place by March 31, 
yesterday. I am happy to report to you that we came in 3 days 
early on that. We met the deadline. By March 28 Trilogy was 
operational.
    The Trilogy Wide Area Network connects computers throughout 
the FBI, except for a couple crucial computers that were 
involved in specific matters that were ongoing and could not be 
disrupted in order to make the switch-over at this time.
    The next big deadline, which is scheduled for completion, 
is the upgrade of software for desktop computers by November 
2003. And by the end of this year, December----
    Senator Hollings. Do you have the money for that, for the 
November time line?
    Attorney General Ashcroft. The money is in the request. The 
original request was short $137.9 million. It was short for two 
reasons: 20 percent of that, about $27 million, close to $30 
million, was underestimated. The other 80 percent, $111 
million, has gone up as a result of the Hanssen case. We 
learned we did not have the security in our computer system we 
needed, if you remember the case.
    Senator Hollings. Oh, yes.
    Attorney General Ashcroft. We cannot forget it, and we 
should not forget it.
    In the McVeigh case, you will remember, that was the first 
execution the Federal Government had undertook in about 25 
years. We found out that we needed, according to the Inspector 
General, additional capacity to track evidence and the like in 
the computer system. Trilogy was upgraded as a result of 9/11.
    All of these things are accommodated in the budget. And we 
expect to have the virtual case file capacity in place by 
December of 2003. The virtual case file addresses the idea that 
you raised in your question about whether people in one part of 
the organization can know about information that is developed 
in another part of the organization. As a case oriented 
organization, when it was a paper system, the paper file of a 
case was where the case was prosecuted. The rest of the 
organization did not necessarily know about the facts and 
circumstances in that setting.
    The electronic file, of course, can be transferred and 
replicated without expense, once you have an electronic system. 
That is known as the Virtual Case File Program of the Trilogy 
effort. That is on schedule to be implemented by December of 
2003 so we will no longer have disparities between what is 
known about a circumstance in one part of the country and 
another part of the country.
    When case information is available on a broader basis, the 
information which comes out of these cases and investigations 
is also intelligence. It has intelligence value. And it 
appropriately can be fed into TTIC, so that the Terrorist 
Threat Integration Center, can be aware of that as well.
    The work in this respect is very important. We just met the 
March 31 deadline. We are on schedule to meet the other 
deadlines. And the resources are in the budget to achieve that, 
according to my best information from the Department, which is 
making major progress in this respect.
    [The information follows:]

  Clarification of Fiscal Year 2004 Trilogy Request and Reprogramming

    The fiscal year 2004 President's Budget includes $82.2 
million and 3 positions for Information Technology (IT) 
Projects, including funds to continue the Trilogy initiative 
and other critical IT projects. Funds include $18.5 million for 
recurring hardware and software upgrades and replacement over 
the next several years to preserve the gains made through the 
Trilogy program and avoid gradual erosion of the FBI's upgraded 
technology. These funds also include $61.7 million for costs 
associated with completing the communications circuit 
installation; hardware and software acquisition and 
maintenance; and contractor support for the Enterprise 
Operations Center. Finally, $2 million of the fiscal year 2004 
President's Budget is to upgrade the Top Secret/Sensitive 
Compartmented Information Local Area Network at FBI 
Headquarters.
    In addition, the Department of Justice transmitted a 
reprogramming request to Congress on May 21, 2003, proposing to 
redirect $137.9 million in existing resources to the Trilogy 
program. This proposal represents an increased level of funding 
to complete Trilogy, from a total project cost of $457.8 
million to $595.7 million. Additional funding is needed to 
ensure Trilogy addresses all identified requirements related to 
the network/infrastructure and applications components, as well 
as program management support and component integration issues. 
The reprogramming reflects the Department's response to 
changing requirements resulting from events such as the World 
Trade Center and Pentagon attacks, as well as the Hanssen and 
McVeigh cases, most notably expanding the scope and adding risk 
mitigation to ensure success of the Trilogy project.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Hollings. Great.
    Thank you, Mr. Chairman. I will submit some other 
questions.
    Senator Gregg. Mr. Attorney General, we have a variety of 
questions, especially dealing with technical aspects of the 
budget and dealing with capital costs specifically and 
personnel, that we will submit to you in writing and would 
appreciate your staff getting back to us with some answers, if 
they have the opportunity.
    And we appreciate you taking the time to come and thank you 
for your courtesy.
    Attorney General Ashcroft. We will make the answers to the 
questions a matter of priority. And thank you very much for 
your help.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Pete V. Domenici
                       scaap and southwest border
    Question. Mr. Attorney General, as you are aware, the President's 
Budget completely eliminates funding for the State Criminal Alien 
Assistance Program, as it did last year, a $565 million reduction from 
fiscal year 2002. I am highly concerned about the impact cutting this 
program would have on many struggling counties in New Mexico, as they 
shoulder the significant cost burden created by illegal immigration, a 
federal responsibility. I am also concerned that this unbearable cost 
burden may damage localities' ability to address other homeland 
security needs.
    Border counties are growing faster than any other region in the 
nation. At the same time, they have a lower per capita income and a 
higher percentage of people below the federal poverty level than any 
other region, making them the least able to foot the cost of services 
for criminal illegal aliens. In this time of heightened security in our 
border regions, it is imperative to ensure the effective processing of 
criminal illegal aliens, including incarceration by local law 
enforcement agencies.
    In past years, I have fought to increase SCAAP resources to relieve 
the significant costs imposed on local communities by the costs of 
detaining criminal aliens. The state of New Mexico received $2.3 
million in fiscal year 2002 funding through this program. However, a 
recent U.S.-Mexico Border Counties Coalition study detailing costs 
associated with processing criminal illegal aliens estimates that New 
Mexico's three border counties alone spend an estimated $5.0 million 
annually on criminal justice, law enforcement, and emergency medical 
care for illegal immigrants.
    In view of the tremendous burden on border criminal justice systems 
in the border region, how does the Department of Justice propose to 
meet the costs of the federal responsibilities currently shouldered by 
states and localities, if not through SCAAP?
    Answer. The State Criminal Alien Assistance Program (SCAAP) is a 
payment program designed to provide federal assistance to states and 
localities that incur costs for incarcerating certain criminal aliens 
held as a result of state convictions. In fiscal year 2004, the Office 
of Justice Programs (OJP) requests no funding for SCAAP for the 
following reasons:
  --SCAAP does not advance the core mission of the Department of 
        Justice (DOJ). Since 1995, approximately $3.45 billion has been 
        distributed to eligible state and local jurisdictions. By 
        statute, SCAAP funds are unrestricted, and recipient 
        jurisdictions may use these funds for any lawful state or local 
        purpose. Expenditures are not limited to correctional or even 
        criminal justice purposes. Thus, in contrast to other programs 
        administered by the Department, funds awarded under SCAAP do 
        not necessarily support efforts to develop the nation's 
        capacity to prevent and control crime, administer justice, or 
        assist crime victims. Further, funds awarded are not linked to 
        overall performance or evaluation data as is now required for 
        other DOJ programs.
  --Redirecting resources from SCAAP will provide funding for 
        Congressional and Administration initiatives. These initiatives 
        include increasing resources available to stem the tide of 
        illegal immigration as well as the funding of programs such as 
        OJP'S Southwest Border Initiative (SWBI), a $50 million program 
        that provides targeted assistance to southwestern state and 
        local jurisdictions, including those in New Mexico, that 
        prosecute referred Federal drug cases. The Administration has 
        already begun to prioritize and move resources among programs 
        that are competing for scarce federal dollars in order to 
        ultimately fund those programs that provide the most cost-
        effective and direct support to jurisdictions for addressing 
        pressing national crime problems.
  --Finally, since the Bureau of Justice Assistance (BJA) began 
        administering SCAAP in fiscal year 1995, there has been only 
        marginal improvement in the technical ability of the 
        Immigration and Naturalization Service to positively identify 
        those offenders being held in the nation's prisons and jails 
        who are undocumented aliens. Yet, the number of jurisdictions 
        claiming they are housing undocumented aliens has increased to 
        more than 800 applicants as of the fiscal year 2003 cycle. The 
        vast majority of these applicants will receive some funds, and 
        many of these awards will be quite small, some falling below 
        $1,000. Without better individual verification of offender 
        identity and a clearer link between payments and relieving the 
        burden of detention costs, this trend toward more jurisdictions 
        sharing each new appropriation dilutes the impact of these 
        program funds and fails to address the purpose for which this 
        program was initiated. That purpose was to help relieve an 
        unfair financial burden on a limited number of states and 
        localities that were seriously inundated with undocumented 
        alien offenders who should have been prevented from crossing 
        the nation's borders.
    In fiscal year 2002, funds distributed to New Mexico under the 
SCAAP program totaled approximately $2.33 million of the total of $540 
million awarded. Only 14 of New Mexico's 33 counties received awards, 
which ranged from $402 to $250,610; the state's award was approximately 
$1.77 million. In contrast, more than $1.5 million had been requested 
under SWBI by New Mexico jurisdictions through June 2003. More funding 
is available, and there will be another funding opportunity to cover 
costs incurred in the second half of fiscal year 2003 later this year. 
Thus, while the scope and coverage of these two programs are not 
identical and not all cases for which payments will be provided will 
involve illegal aliens, both the offender populations involved and the 
goals of the program are very similar. And, more importantly, for the 
state of New Mexico specifically, SWBI will generate proportionally 
more funding that will go to directly reimburse local jurisdictions 
affected by illegal crime than will SCAAP.
         need for additional permanent judgeships in new mexico
    Question. Attorney General Ashcroft, the Chief Justice of the 
United States Supreme Court, William H. Rehnquist, and the Chief 
Circuit Judge for the Tenth Circuit, Deanell Reece Tacha, have 
described the Southwest Border states as being in crisis. This 
description is based upon the massive number of cases that each federal 
judge currently has on his or her docket. Chief Circuit Judge Tacha 
expressed her concern about the District of New Mexico in particular. 
The District of New Mexico ranks fifth in the nation in weighted 
filings per judgeship. Two weeks ago the Judicial Conference of the 
United States asked Congress for 57 new Judgeships, including 3 more 
for the District of New Mexico (only Northern California, Eastern 
California, Southern Florida, and Eastern New York have need for a 
greater number of judgeships).
    Based upon the experiences of the U.S. Attorney practicing in this 
district, would you agree that the judicial system in the district of 
New Mexico is in a state of crisis? What would help to alleviate the 
problems that are making the administration of justice so difficult?
    Answer. The District of New Mexico has seen a marked increase in 
criminal case filings over the last ten years. In fiscal year 1992, 602 
criminal cases were filed against 905 defendants. In contrast, during 
fiscal year 2002, 2,232 criminal cases were filed against 2,570 
defendants. Clearly the heavy workload in this area impacts the federal 
judiciary. Increased staffing combined with more efficient case 
processing procedures has been highly beneficial to the United States 
Attorneys along the Southwest Border. Further refinements of the 
court's case processing procedures might have similar benefits for the 
courts.
    The Las Cruces United States Attorney's Branch Office has an area 
of responsibility that includes 15 counties comprising more than 60,000 
square miles including a 180-mile border with Mexico. The 180-mile 
Mexico/New Mexico border is highly porous, remote, and unpopulated. The 
increase in criminal immigration cases has been particularly striking. 
In fiscal year 1992, 76 cases were filed involving 92 defendants. In 
fiscal year 2002, 1,339 cases were filed against 1,401 defendants.
    Virtually 100 percent of the immigration related offenses 
prosecuted in Las Cruces are generated by the U.S. Border Patrol, now a 
part of the Department of Homeland Security. El Paso Sector Border 
Patrol encompasses West Texas and all of New Mexico. In 1993, El Paso 
Sector inaugurated an operation called ``Hold the Line.'' The 
preliminary concept of ``Hold the Line'' was to move undocumented 
immigrant traffic to areas that were less populated and would be more 
manageable. This endeavor appears to be continuing successfully.
    Undocumented immigrant apprehensions dropped dramatically (72 
percent) in El Paso at the initiation of ``Hold the Line'' in fiscal 
year 1994. Apprehensions then increased for the next two fiscal years 
until the implementation of the Illegal Immigration Reform and 
Immigrant Responsibilities Act (IIRIRA) on April 1, 1997.
    Though the number of illegal alien apprehensions dramatically 
declined after enactment of the IIRIRA, the ``Hold the Line'' stations 
that bordered the Rio Grande River continued to apprehend the largest 
number of illegal aliens. As time went on, ``Hold the Line'' stations' 
apprehensions declined and apprehensions in New Mexico began to 
increase. In 1998, Border Patrol stations in the New Mexico sector 
began to apprehend more aliens than the El Paso sector stations in 
Texas.
    The Las Cruces Office expects this trend to continue. As the 
enforcement presence remains highly visible in and around central El 
Paso and as the Border Patrol's presence continues to escalate in 
southern Arizona. The number of aliens apprehended in southern New 
Mexico will continue to skyrocket.
    Another factor in the continued rise is prosecution cases for the 
State of New Mexico is the IDENT system at all the New Mexico Stations 
and the Integrated Automated Fingerprint Identification System (IAFIS) 
in Deming, New Mexico. These systems identify fugitive aliens and 
aliens who are prior deportees and aggravated felons. When the prior 
deportees and aggravated felons are located, we are required by law to 
federally prosecute these aliens. In the near future the IAFIS system 
will be deployed in all the Border Patrol Stations in New Mexico and 
will again increase the prosecution load for the USAO in New Mexico.
    To put this into context, the El Paso Border Patrol Sector 
Prosecutions Program has seen dramatic increases in New Mexico cases 
prosecuted. In fiscal year 1999 the average number of cases prosecuted 
per month for New Mexico was 53. Currently for fiscal year 2003 the 
average number of cases prosecuted per month is 131. That is a 147 
percent increase in four years.
    There are currently no resident district judges in Las Cruces, even 
though more than 70 percent of the criminal cases in the District of 
New Mexico are prosecuted here. The active district judges, augmented 
by senior district and circuit judges as well as an array of visiting 
judges, take turns coming to Las Cruces. A given case can easily pass 
to three or four district judges prior to trial. The assignment of two 
or more district judges to Las Cruces would help our ability to 
appropriately service our caseload.
                radiation exposure compensation program
    Question. Attorney General Ashcroft, I want to congratulate the 
Department of Justice for its hard work to ensure that claimants under 
the Radiation Exposure Compensation Act are receiving claims payments 
instead of IOUs as was the case a couple of years ago. I commend the 
Department for aggressively implementing language I sponsored in the 
fiscal year 2001 Supplemental Appropriations bill that provided ``such 
sums as may be necessary'' to pay RECA claims approved by September 30, 
2001, to compensate those who sustained injury as a result of the 
United States open-air nuclear testing and uranium mining activities in 
the 1950's through 1970's.
    Will you please give the Subcommittee a status report on this 
program?
    Answer. The July 2000 Amendments to the Radiation Exposure 
Compensation Act (RECA) markedly expanded the scope of the Program. 
Major changes include new categories of beneficiaries; expansion of 
eligible diseases, geographic area, and time period; and a reduction in 
the radiation exposure threshold for miners.
    It has been nearly three years since the Amendments were enacted. 
Since that time, the level of activity has increased dramatically:
  --The approval rate increased from 49 percent--before enactment--to 
        83 percent, since enactment.
  --Nearly 9,800 claims have been received since enactment--compared 
        with some 1,200 claims received in the three fiscal years 
        preceding the Amendments.
  --More than 6,200 claims, valued at over $380 million, have been 
        approved since enactment--compared with 574 approvals valued at 
        less than $42 million in the three fiscal years preceding the 
        Amendments.
    Our most current estimates for fiscal year 2003:

                            WORKLOAD SUMMARY
------------------------------------------------------------------------
                                             Fiscal year--
                             -------------------------------------------
                                 2000       2001       2002    2003 est.
------------------------------------------------------------------------
Pending, Beginning of Year..        353        728      2,936      2,679
Received....................        854      3,828      3,416      3,200
Approved....................        316      1,561      2,807      2,480
Denied......................        163         59        866        620
Pending, End of Year........        728      2,936      2,679      2,779
------------------------------------------------------------------------

    To address this sharp rise in workload, we are doing all we can to 
ensure the program is being administered to provide timely and accurate 
compensation for all eligible claimants. Currently, there are 20 staff 
on board, including 11 claims examiners. With nearly 2,800 claims 
pending, each examiner is responsible for an average of 252 claims. 
Thus, while the program is able to process a huge volume--some 3,100 
projected this fiscal year, the backlog is growing: we will end the 
year with a greater number of pending claims than the number pending at 
the year's outset.
    So that we may reduce the number of pending claims significantly, 
the Department seeks Congressional approval to reprogram funds for RECA 
administration this fiscal year. In addition, the President's fiscal 
year 2004 budget includes an increase of $1 million for RECA 
Administrative Expenses. This increase will provide examiners with much 
needed support to review claims, assist claimants in providing 
information that will complete claims, and perform many of the time-
consuming administrative tasks that detract from the primary mission--
resolving claims.
    As you know, the Fiscal Year 2002 National Defense Authorization 
Act (Public Law 107-107) made the Trust Fund a mandatory account and 
provided $665 million, setting annual spending caps for 2002-2011. We 
applaud Congress' decision to make the RECA Trust Fund mandatory. We 
are monitoring spending under the caps and can report the following 
with respect to the current status:
  --In fiscal year 2002, the cap provided $172 million and the 
        Department obligated the full amount.
  --The fiscal year 2003 cap is $143 million. To date, an average of 
        $12.3 million has been obligated per month. To stay within the 
        cap, obligations will have to drop to about $9.5 million per 
        month for the remainder of this fiscal year.
  --No ``IOU's'' will be necessary this fiscal year. However, 
        compensation for some current claims will be paid from fiscal 
        year 2004 funds.
    Question. Would you please provide for the record an updated 
breakdown of the number of claims paid by state and by category of 
beneficiary?
    Answer. The table at Attachment 1 displays the number of claims 
approved through June 11, 2003, by state and by type of claim. 
Residents of Utah, Arizona, Colorado, and New Mexico have been awarded 
79 percent of the compensation approved. However, RECA awards have been 
made to residents of all 50 states and the District of Columbia.
    Question. I also congratulate the President and the Department for 
proposing in the 2002 budget to make payments for claims under RECA an 
entitlement. Congress did enact as part of the Defense Authorization 
bill, my amendment to make the RECA program a mandatory program. The 
Department has $172 million to pay claims in 2002 and $143 million to 
pay claims in 2003, and additional amounts in future years.
    Will you please give the Subcommittee a status report on the 
payment of RECA claims? How many claims has the Department approved and 
how much has been spent out of the Trust Fund to pay these claims since 
the inception of RECA?
    Answer. Through June 11, 2003, a total of 9,588 claims have been 
approved, with a value of $631,323,282.
    Question. What is the average amount of the claims approved, the 
number of claims denied, and the general reason for denial of these 
claims?
    Answer. RECA award amounts are fixed by statute. Uranium workers 
(uranium miners, mill workers, ore transporters) are eligible for a 
$100,000 award; onsite participants are eligible for a $75,000 award; 
and downwinders are eligible for a $50,000 award. Over the 11-year 
history of the Program, the average amount approved is $65,845. 
However, since enactment of the Amendments, the average has declined 
from $74,000 to $61,000--due to the predominance of downwinder awards.
    Through June 11, 2003, the RECA Program has denied 4,866 claims. 
Claims are denied if one or more of the eligibility criteria are not 
satisfied. For example, uranium worker claims are typically denied in 
cases where the documentation does not establish that the individual 
contracted an illness specified under the law. Similarly, downwinder 
and onsite participant claims are most frequently denied where the 
records fail to establish a covered disease or the individual was 
either not present in the affected ``downwind'' area or did not 
participate in atmospheric weapons testing.
    Question. For the record, would you please provide the Subcommittee 
with a breakdown of the types of claims approved or disapproved 
(childhood leukemia, other downwinder, onsite participants, or uranium 
miners), the number of claims currently pending, and the amounts 
disbursed by type of claim paid?
    Answer. The table on the following page provides the requested 
information as of June 11, 2003.

                        RADIATION EXPOSURE COMPENSATION PROGRAM APRIL 1992-JUNE 11, 2003
----------------------------------------------------------------------------------------------------------------
                                                           Value of     Claims
                                                            Awards     Received   Approved    Denied    Pending
----------------------------------------------------------------------------------------------------------------
Childhood Leukemia.....................................   $1,200,000         44         24         19          1
Downwinder.............................................  309,170,000      9,723      6,184      1,981      1,558
Onsite Participant.....................................   42,461,782      1,808        589        955        264
Uranium Miner..........................................  251,391,500      5,096      2,520      1,861        715
Uranium Miller.........................................   21,700,000        419        217         40        162
Ore Transporter........................................    5,400,000        106         54         10         42
                                                        --------------------------------------------------------
      TOTAL............................................  631,323,282     17,196      9,588      4,866      2,742
----------------------------------------------------------------------------------------------------------------

    Question. For my use, would you please provide this same 
information specifically for claims from New Mexico, including the 
total claims received, the total claims approved, the total claims 
denied, and the total claims pending?
    Answer. With respect to claims for which the primary claimant 
resides in New Mexico, the Department has approved 801 claims, with a 
total value of $76,277,799 through June 11, 2003. The following table 
provides the requested information.

                  RADIATION EXPOSURE COMPENSATION PROGRAM: NEW MEXICO APRIL 1992-JUNE 11, 2003
----------------------------------------------------------------------------------------------------------------
                                                       Value of     Claims
                                                        Awards     Received    Approved     Denied      Pending
----------------------------------------------------------------------------------------------------------------
Childhood Leukemia..................................     $50,000           1           1           0           0
Downwinder..........................................   3,300,000         151          66          38          47
Onsite Participant..................................     993,299          55          14          33           8
Uranium Miner.......................................  66,334,500       1,706         664         753         289
Uranium Miller......................................   5,300,000         109          53          10          46
Ore Transporter.....................................     300,000          16           3           4           9
                                                     -----------------------------------------------------------
      TOTAL.........................................  76,277,799       2,038         801         838         399
----------------------------------------------------------------------------------------------------------------

    Question. How many claims are projected to be filed and processed 
under current law in the upcoming year?
    Answer. For fiscal year 2004, we estimate that 2,900 claims will be 
filed and 3,100 claims will be processed. Of the 3,100 that may be 
processed, at an estimated 2,215 claims would be approved, valued at 
$135 million. This assumes that the approval rate will fall from 80 
percent in fiscal year 2003 to 71 percent in fiscal year 2004, while 
the average value of awards holds at $61,000. Based on these 
conservative assumptions, the value of approvals would exceed the $107 
million cap by more than $28 million--exclusive of unfunded awards from 
the end of fiscal year 2003.
    To stay within the $107 million cap set for fiscal year 2004, while 
paying for awards made in the final weeks for fiscal year 2003, the 
approval rate would have to fall to 48 percent.
    Question. Does the Administration have any long-range estimates as 
to the number of claims that might still be filed under the Radiation 
Exposure Compensation Act under current law and regulations?
    Answer. In May 2000, the Congressional Budget Office (CBO) 
developed cost estimates for a bill that became the Radiation Exposure 
Compensation Act Amendments of 2000 (Public Law 106-245). CBO roughly 
estimated that about 15,600 claims might be filed over the 22-year 
lifetime of the Act. CBO projected that about 11,700 claims would be 
filed in the first five years--or, roughly 2,340 per year. These 
estimates appear to be low. In less than three years, nearly 9,800 
claims have been filed--more than 3,200 annually. Based on a three-year 
track record with the expanded program, we have developed detailed 
projections through fiscal year 2005. The following chart includes 
these projections, along with our ``guesstimates'' regarding the fiscal 
year 2006-2011 period--bearing in mind that the farther we delve into 
the future, the greater is the uncertainty we attach to our estimates. 
These projections suggest that (1) more people are responding more 
quickly then CBO anticipated and (2) the amount that may be approved in 
a given year may exceed existing caps.

                                     OUT YEAR WORKLOAD AND FUNDING ESTIMATES
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal year--
                                                                 -----------------------------------------------
                                                                       2004            2005          2006-2011
----------------------------------------------------------------------------------------------------------------
Pending, Beginning of Year......................................           2,779           2,579           2,179
Received........................................................           2,900           2,300           5,200
Approved........................................................           2,215           1,625           3,235
Denied..........................................................             885           1,075           3,240
Pending, End of Year............................................           2,579           2,179             904
Value of Approvals..............................................            $135             $99            $197
Public Law 107-107 Cap..........................................            $107             $65            $168
----------------------------------------------------------------------------------------------------------------


                                                 ATTACHMENT 1--AWARDS APPROVED BY STATE AND BY CATEGORY
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                            Onsite      Uranium      Uranium        Ore         Total        Value of
                                                             Downwinder  Participant     Miner        Miller    Transporter     Awards        Awards
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama...................................................            4            9            3  ...........  ...........           16      $1,081,344
Alaska....................................................           10            1            7  ...........  ...........           18      $1,275,000
Arizona...................................................        2,386           38          292           10            3        2,729    $152,502,016
Arkansas..................................................           15            5           12            2  ...........           34      $2,495,490
California................................................          198           80           33            1            1          313     $19,135,196
Colorado..................................................           67           11          869           87           28        1,062    $102,575,000
Connecticut...............................................            1            2  ...........  ...........  ...........            3        $200,000
Delaware..................................................            1            3  ...........  ...........  ...........            4        $275,000
D.C.......................................................            2            1  ...........  ...........  ...........            3        $175,000
Florida...................................................           12           35            6  ...........  ...........           53      $3,692,507
Georgia...................................................            5            8            1  ...........  ...........           14        $927,181
Hawaii....................................................            3           16            1  ...........            1           21      $1,473,334
Idaho.....................................................           60            8           22            1  ...........           91      $5,870,000
Illinois..................................................            5           10            6  ...........  ...........           21      $1,585,511
Indiana...................................................            3            3            9  ...........  ...........           15      $1,275,000
Iowa......................................................            3            4            3            1  ...........           11        $822,503
Kansas....................................................           12            6            3  ...........  ...........           21      $1,350,000
Kentucky..................................................            1            4            1  ...........  ...........            6        $395,319
Louisiana.................................................  ...........            8  ...........  ...........  ...........            8        $549,170
Maine.....................................................  ...........            2  ...........  ...........  ...........            2        $150,000
Maryland..................................................           10           19            1  ...........  ...........           30      $1,945,180
Massachusetts.............................................            1            6  ...........  ...........  ...........            7        $500,000
Michigan..................................................            4            8  ...........  ...........  ...........           12        $800,000
Minnesota.................................................            8            6            2            1  ...........           17      $1,150,000
Mississippi...............................................  ...........            1            1            1  ...........            3        $275,000
Missouri..................................................           11            7           12            1  ...........           31      $2,375,000
Montana...................................................           15            4            8            1  ...........           28      $1,909,872
Nebraska..................................................            4            3            6  ...........  ...........           13      $1,025,000
Nevada....................................................          619           94           45            2            1          761     $42,775,000
New Hampshire.............................................            1            1            1  ...........  ...........            3        $225,000
New Jersey................................................            2            3  ...........  ...........  ...........            5        $325,000
New Mexico................................................           67           14          664           53            3          801     $76,277,799
New York..................................................            9            9            1  ...........  ...........           19      $1,212,608
North Carolina............................................            3           10            4  ...........  ...........           17      $1,253,241
North Dakota..............................................            1  ...........  ...........            1  ...........            2        $150,000
Ohio......................................................            2            6            3            2  ...........           13      $1,050,000
Oklahoma..................................................           13            4           24            2  ...........           43      $3,509,500
Oregon....................................................           41           10           23  ...........  ...........           74      $5,097,234
Pennsylvania..............................................            7           10  ...........  ...........  ...........           17      $1,072,054
Rhode Island..............................................  ...........            2  ...........  ...........  ...........            2        $150,000
South Carolina............................................            1            5  ...........  ...........  ...........            6        $411,328
South Dakota..............................................            2            2            5            4            1           14      $1,235,174
Tennessee.................................................            7            8            1  ...........  ...........           16        $981,133
Texas.....................................................           40           20           17            2  ...........           79      $5,298,097
Utah......................................................        2,473           35          350           37           13        2,908    $165,719,850
Vermont...................................................  ...........            1            1  ...........  ...........            2        $175,000
Virginia..................................................            9           17  ...........  ...........  ...........           26      $1,656,302
Washington................................................           42           20           26            1            1           90      $6,278,077
West Virginia.............................................  ...........            1           22  ...........  ...........           23      $2,275,000
Wisconsin.................................................  ...........            7            1  ...........  ...........            8        $561,262
Wyoming...................................................           27            2           34            6            2           71      $5,700,000
                                                           ---------------------------------------------------------------------------------------------
      Subtotal............................................        6,207          589        2,520          216           54        9,586    $631,173,282
Canada....................................................            1  ...........  ...........            1  ...........            2        $150,000
                                                           ---------------------------------------------------------------------------------------------
      TOTAL...............................................        6,208          589        2,520          217           54        9,588    $631,323,282
--------------------------------------------------------------------------------------------------------------------------------------------------------

                          mental health courts
    Question. Attorney General Ashcroft, as you are aware, the fiscal 
year 2003 Omnibus Appropriations Bill contained $3 million for Mental 
Health Courts. The funding is the result of the Americas Law 
Enforcement and Mental Health Project Act, enacted into law three years 
ago. The Act authorized the creation of Mental Health Courts with 
separate dockets to handle cases involving individuals with a mental 
illness.
    The specific thrust of Mental Health Courts is simple to provide an 
individual with a mental illness and charged with a misdemeanor or 
nonviolent offense the option of out-patient or in-patient mental 
health treatment as an alternative to incarceration.
    Finally, the Department of Justice estimates that sixteen percent 
of all inmates in local and state jails suffer from a mental illness 
and the American Jail Association estimates that as many as 700,000 
persons suffering from a mental illness are jailed each year.
    Do you believe Mental Health Courts can alleviate prison 
overcrowding and create greater judicial economy within our court 
systems?
    Answer. Mental Health Courts can help alleviate overcrowding, to a 
degree, by employing problem-solving approaches that use alternative 
sentencing options to reduce the demands on correctional institutions 
while offering approaches that address the underlying issues of these 
mentally ill offenders. These courts use several critical elements as 
part of their comprehensive case management approach, such as complete 
individualized mental assessments as soon as possible after interface 
with law enforcement, judicial supervision, immediate mental health 
services as needed, and a plan for longer-term services. They can 
alleviate prison overcrowding by segregating a population whose minor 
criminal misbehavior is likely to be a function of their illness and 
providing the treatment they need. In doing so, it is hoped that 
communities with mental health courts will see reduced recidivism, and 
a reduction in the recurring costs to the system of continued criminal 
behavior by this population.
    This approach ensures a coordinated response between the service 
providers and community supervision that reinforces accountability and 
access to the critical services needed for the offenders to gain 
stability in their mental health and uses sanctions and incentives that 
are meaningful to the mentally ill offenders to help keep them crime 
free.
    Question. What steps are being taken by DOJ to distribute the $3 
million appropriated to implement Americas Law Enforcement and Mental 
Health Project Act?
    Answer. The competition for the fiscal year 2003 funds has taken 
place. The Bureau of Justice Assistance received 44 applications. The 
peer review process is underway, and 14 awards are expected to be made 
by the end of this fiscal year. These 14 sites will be in addition to 
the 23 sites awarded during the first cycle (fiscal year 2002 funding). 
Site awards in both cycles were for up to $150,000 each, varying 
according to the applicant's request and budget clearances, and have 
grant periods of 18 months. Additional funding will be used for 
technical support. An evaluator is assessing and documenting a sample 
of the courts in sites funded with fiscal year 2002 resources.
    Question. What plans does DOJ have to provide assistance to court 
systems seeking to develop and implement a Mental Health Court and does 
DOJ plan to offer continued technical assistance after the 
implementation of a Mental Health Court?
    Answer. Approximately $500,000 from the initial earmark in fiscal 
year 2002 was used to support non-site work related to examining the 
mental health courts approach. The Crime and Justice Research Institute 
received a grant to provide an update of an overview of the issues 
related to mental health courts and reported in May 2002 in Emerging 
Judicial Strategies for the Mentally Ill in the Criminal Caseload. The 
Bureau of Justice Assistance also funded the Criminal Justice/Mental 
Health Consensus Project. This national scope, 2-year effort prepared 
specific recommendations for local, state and federal policymakers and 
criminal justice and mental health professionals on how to improve the 
criminal justice system response to people with mental illness. The 
Council of State Governments coordinated this effort, working with the 
Association of State Correctional Administrators, Bazelon Center for 
Mental Health Law, Center for Behavioral Health, Justice and Public 
Policy, National Association of State Mental Health Program Directors, 
Police Executive Research Forum, and the Pretrial Services Resource 
Center.
    This year, approximately $750,000 will be set aside for technical 
assistance support to the sites, primarily to bring professionals 
involved in the courts to the funded sites. It is anticipated that 
several organizations will be involved, each bringing to the table 
expertise in reaching constituencies in different areas, including law 
enforcement, prosecutor, judges, community correctional personnel, and 
treatment coordinators. This technical assistance will be available to 
the courts selected and, to the extent feasible, to other jurisdictions 
attempting this approach without federal funding. Courts will be 
assisted at least through the initial startup phase.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
    village of chickaloon and village forestry department of alaska
    Question. The Office of Community Oriented Policing Services (COPS) 
was created to meet the needs of law enforcement in Native American 
Communities. According to DOJ records, the Village of Chickaloon and 
the Village of Forestry Department (of Alaska) have received 
$1,473,250.00 in funding from COPS from 1994-2002. In addition, eight 
officers have been funded through COPS. However, the Village of 
Chickaloon is not a sovereign entity and the State Troopers monitor the 
Village. Please describe each grant proposal submitted by the Village 
of Chickaloon and explain how each grant proposal meets the 
requirements for funding under the COPS program.
    Answer. The Village of Chickaloon and the Chickaloon Village of 
Forestry Department have received a total of 8 grant awards, totaling 
$1,723,238, from the COPS Office.
    The first award to the Village of Chickaloon, in 1995, was awarded 
through COPS FAST program. The FAST program provided jurisdictions 
serving fewer than 150,000 persons to hire new officers to engage in 
community policing. The Village of Chickaloon was eligible to apply 
under the FAST program, along with other state, local, and tribal law 
enforcement agencies serving populations less than 150,000.
    The following seven awards, to the Village of Chickaloon and the 
Chickaloon Village of Forestry Department, were awarded through COPS 
Tribal Resources Grant Program. Under this program federally recognized 
tribes may apply to receive funding for training and equipment for new 
and existing officers as well as salary and benefits for new community 
policing officers. As a federally recognized tribe, Chickaloon was 
eligible to apply for federal assistance through COPS Tribal Resources 
Grant Program.
    Details of the eight grants are provided in the following answers 
as well as in the supplemental documentation provided.
    Question. For each grant given to the Village of Chickaloon under 
the COPS program, detail the funds given for each year and describe the 
purpose of each grant.
    Answer. The Village of Chickaloon and the Chickaloon Village of 
Forestry Department have received a total of 8 grant awards, totaling 
$1,723,238, from the COPS Office.
    1. The Village of Chickaloon was awarded one full-time position 
through the COPS FAST grant program (COPSFAST). COPSFAST provided 
funding to jurisdictions serving populations of less than 50,000. The 
program provided funding for the payment of salaries and approved 
fringe benefits for sworn entry-level officers, lateral transfers, or 
rehired officers. The FAST grant provided a maximum federal 
contribution of 75 percent of the salary and benefits for each officer 
position over three years, up to $75,000 per officer. Chickaloon's FAST 
grant, which began March 1, 1995, and expired August 31, 1998, totaled 
$75,000.
    2. The Village of Chickaloon was awarded two full-time positions 
through the Universal Hiring Program (UHP). The UHP grant provided 
funding for the payment of salaries and approved fringe benefits for 
newly hired entry-level officer positions with a maximum federal 
contribution of 75 percent of the salary and benefits for each officer 
position over three year, up to $75,000 per officer position, unless a 
waiver of the matching local funds was granted. Chickaloon's UHP grant, 
which began December 1, 1995, and expired December 31, 2000, totaled 
$252,084--the grantee received a full waiver of the local match.
    3. The Village of Chickaloon was awarded equipment and training 
through the Tribal Resources Grant Program 1999 (TRGP99), the specifics 
of the departments's award are detailed in the attached Final Funding 
Memo. The TRGP99 grant provided funding to federally recognized tribes 
for salaries and benefits for newly hired entry-level officer 
positions, and training and equipment for new and existing with a 
maximum federal contribution of 75 percent of the approved costs, 
unless a waiver of the local matching funds is granted, up to $75,000 
per officer for salary and benefits, $3,000 for background 
investigations, $1,200 to $6,000 per type of training, $3,000 per 
officer for basic equipment, $75,000 per department for technology, 
and/or $20,000 per vehicle. Chickaloon's TRGP99 grant, which began 
September 1, 1999, and expired May 31, 2001, totaled $90,810--the 
grantee received a full waiver of the local match.
    4. The Village of Chickaloon was awarded equipment and training 
through the Tribal Resources Grant Program 2000 (TRGP00), the specifics 
of the department's award are detailed in the attached Final Funding 
Memo. The TRGP00 grant provided funding to federally recognized tribes 
for salaries and benefits for newly hired entry-level officers 
positions, and training and equipment for new and existing officers. 
The TRGP00 grant provided a maximum federal contribution of 75 percent 
of the approved costs, unless a waiver of the local matching funds is 
granted, up to $75,000 per officer for salary and benefits, $3,000 for 
background investigations, $1,200 to $6,000 per type of training, 
$3,000 per officer for basic equipment, $75,000 per department for 
technology, and/or $20,000 per vehicle. Chickaloon's TRGP00 grant, 
which began August 1, 2000, and expired on July 31, 2003, totaled 
$14,251--the grantee received a full waiver of the local match.
    5. The Village of Chickaloon was awarded two full-time positions 
through the Tribal Resources Grant Program 2000 (TRGP00). The TRGP00 
program parameters are detailed in the above paragraph (#4). 
Chickaloon's TRGP00 grant, which began August 1, 2000, and is scheduled 
to expire January 31, 2005, totals $281,172--the grantee received a 
full waiver of the local match.
    6. The Chickaloon Village Forestry Department was awarded equipment 
and training through the Tribal Resources Grant Program 2000 (TRGP00), 
the specifics of the department's award are detailed in the attached 
Final Funding Memo. The TRGP00 grant provided funding to federally 
recognized tribes for salaries and benefits for newly hired entry-level 
officer positions, and training and equipment for new and existing 
officers. The TRGP00 grant provided a maximum federal contribution of 
75 percent of the approved costs, unless a waiver of the local matching 
funds is granted, up to $75,000 per officer for salary and benefits, 
$3,000 for background investigations, $1,200 to $6,000 per type of 
training, $3,000 per officer for basic equipment, $75,000 per 
department for technology, and/or $20,000 per vehicle. Chickaloon 
Village Forestry Department's TRGP00 grant, which began August 1, 2000, 
and is scheduled to expire July 31, 2003, totaled $207,177--the grantee 
received a full waiver of the local match.
    7. The Chickaloon Village Forestry Department was awarded two full-
time positions through the Tribal Resources Grant Program 2000 
(TRGP00). The TRGP00 program parameters are detailed in the above 
paragraph (#6). Chickaloon Village Forestry Department's TRGP00 grant, 
which began August 1, 2000, and is scheduled to expire January 31, 
2005, totals $421,756--the grantee received a full waiver of the local 
match.
    8. The Village of Chickaloon received funding through the Tribal 
Hiring Renewal Grant Program (THRGP) to renew two full-time positions. 
The THRGP grant provides funding to federally recognized tribes that 
were unable to retain the previously awarded COPS-funded positions with 
tribal, state, or BIA funding and have received an exemption from the 
COPS Office's retention requirement. The THRGP grant is a two-year 
grant, which funds fourth and fifth year salaries and benefits for the 
renewal of COPS-funded police officer positions, there is not a local 
match requirement for this program. Chickaloon's grant, which began 
September 1, 2002, and is scheduled to expire August 31, 2004, totals 
$249,988.
    Question. Has the Village of Chickaloon submitted any periodic 
reports to the COPS office in Washington regarding the use of the grant 
funds and/or the effectiveness of the grant funds? If so, detail the 
results of said studies?
    Answer. All COPS grantees, including the Village of Chickaloon, are 
required to submit programmatic progress reports and quarterly 
financial status reports. The COPS Office has not conducted an on site 
visit to the Village of Chickaloon, however COPS is aware of their 
program progress through the grantee's submission of programmatic 
progress reports and quarterly financial status reports.
    Question. Has the DOJ conducted any studies regarding the effects 
of the COPS programs in Alaskan communities? If so, detail the results 
of said reports.
    Answer. The COPS Office has not funded a study to evaluate the 
effect of COPS grants specifically in Alaskan communities. However, 
independent evaluations of COPS programs have been conducted by the 
University of Nebraska and the Urban Institute to evaluate the effect 
of COPS funding.
    Question. Please submit a copy of each application received from 
Chickaloon or its Forestry Department.
    Answer. The COPS Office has submitted a binder containing grant 
information received from the Village of Chickaloon and the Chickaloon 
Village Forestry Department.
    Question. Have any official (or officials) of your Department 
visited Chickaloon?
    Answer. No, the COPS Office has not conducted a formal site visit 
to the Village of Chickaloon.
    Question. Did your office receive any letters of support for the 
applications of Chickaloon or the Department of Forestry pertaining to 
any applications?
    Answer. The COPS Office did not receive any letters of support for 
the Chickaloon or the Department of Forestry applications.
    Question. Please provide a copy of any report pertaining to 
Chickaloon received by your office from any official source Federal or 
state pertaining to Chickaloon's eligibility for these grants, or the 
need for the grants, or the use of these grants.
    Answer. The need for federal funding is demonstrated in each of the 
eight applications requesting federal assistance. Under COPS statutory 
authority and programmatic guidelines, the Village of Chickaloon and 
the Chickaloon Village Forestry Department were eligible for the grant 
funding received from the COPS Office. The Village of Chickaloon is a 
federally recognized tribe according to the Department of the Interior 
Bureau of Indian Affairs.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                          safe explosives act
    Question. It is my understanding that the Safe Explosives Act, 
enacted last year, requires tighter security for explosives materials 
and increased security measures for purchasers and possessors of 
explosives and that this new law will assist the Bureau of Alcohol, 
Tobacco, and Firearms (ATF) in helping to ensure that terrorists and 
criminals do not have access to explosives.
    In testimony before the House Appropriations Subcommittee on the 
Departments of Commerce, Justice and State, the Judiciary and Related 
Agencies on March 20, 2003, Acting ATF Director Bradley Buckles stated 
that the Safe Explosives Act represents a significant additional 
workload for ATF.
    I understand that, currently, the initial processing and issuance 
or denial of explosive licenses or permits is handled out of ATF's 
National Licensing Center in Atlanta, Georgia, which also handles the 
processing of Federal Firearms Licenses and is, consequently, 
overburdened, as well as overcrowded.
    In addition, Mr. Buckles stated in his testimony that the fiscal 
year 2004 budget request of $10,000,000 for the continuation of the 
implementation of the Safe Explosives Act ``* * * would continue the 
implementation of the Act and specifically, would be used to create the 
National Explosives Licensing Center (NELC) in an existing ATF facility 
in Martinsburg, West Virginia * * *.''
    I fully support the establishment of the NELC at the ATF facility 
in Martinsburg, West Virginia.
    Can you provide more details regarding the creation of the National 
Explosives Licensing Center (NELC) in West Virginia, including a 
detailed timeframe and cost estimate, including the costs of 
renovations needed to accommodate the NELC at the Martinsburg ATF 
facility, space and equipment needs, as well as the number of federal 
and contractor personnel that would be employed at the center?
    Answer. The requirements of the Safe Explosives Act (SEA) became 
fully effective on May 24, 2003. In part, the SEA increased the number 
of entities required to obtain an explosives permit from ATF. Also, the 
SEA enhanced the license/permit qualification requirements to include 
the submission of additional documentation (fingerprints and 
photographs) of individuals responsible for explosives operations and 
additional identifying information for employee possessors of 
explosives. This additional information is needed so that ATF can 
conduct, with the assistance of the FBI, more thorough background 
checks of these individuals. This increase in responsibility resulted 
in a need for a National Explosives Licensing Center (NELC). Since ATF 
currently houses the National Tracing Center in West Virginia and space 
was available at this location, the proposal was made to also house the 
NELC at the same location in Martinsburg, West Virginia.
    Renovations needed at the West Virginia site would not start any 
earlier than fiscal year 2004 and span into fiscal year 2005 due to 
other renovations taking place at the site. A minimal amount of funds 
(approximately $268,000) have been allocated in fiscal year 2003 for 
this purpose of filling two full time positions. Approximately $4 
million is estimated to establish the NELC in West Virginia. The 
following is a breakdown of the $4 million:

  
------------------------------------------------------------------------
Computer system development/enhancement.................        $545,000
15 contractors..........................................         771,680
16 full time positions..................................       1,258,151
2 pc moves..............................................         144,000
Space buildout/renovations/furniture....................   \1\ 1,000,000
Annualization of 2 positions funded 2003................         268,246
                                                         ---------------
      Grand total.......................................       3,987,077
------------------------------------------------------------------------
\1\ Recently revised to reflect current costs.

    The NELC in West Virginia would employ 18 federal employees and 15 
contractors.
    Question. Does the President's fiscal year 2004 budget request 
provide sufficient funding to establish a fully operational NELC? If 
not, what additional funds would be needed in fiscal year 2004 for this 
purpose?
    Answer. The President's fiscal year 2004 budget request includes 
$10 million for implementing the provisions of the Safe Explosives Act. 
A portion of this funding will be used to establish the NELC in West 
Virginia.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                            usa patriot act
    Question. Last month, when you testified before the Judiciary 
Committee, you were asked about a secret bill entitled the ``Domestic 
Security Enhancement Act of 2003,'' which was leaked to the press as a 
sequel to the USA PATRIOT Act. You responded, ``there has been no bill 
decided on, no proposal decided on.'' That was on March 4th. Three 
weeks later, a Department spokesperson told the Village Voice that the 
bill was coming soon, and that it ``will be filling in the holes'' of 
the PATRIOT Act.
    When will the Department share a draft of this bill with Congress?
    Answer. The primary mission of the Department of Justice is to 
protect the American people from the threat of terrorist attacks, while 
respecting the constitutional rights and liberties that the birthright 
of every American. Department staff constantly are thinking about new 
ways to detect and prevent terrorism. In that process, Department staff 
continually ask our prosecutors and investigators in the field what 
tools they need in the fight against terrorism. That process of 
considering ideas is continuing. It would be inappropriate to comment 
on the status of the internal deliberations or to speculate about any 
future decisions. However, if the Administration moves forward with 
such a proposal, the Department will consult with Members of Congress 
and their staff at an appropriate time. If and when a final proposal is 
approved by the Administration, we will work closely with Members of 
the Congress and their staff in their review of the proposal.
    Question. What legislative ``holes'' can we expect this bill to 
address?
    Answer. Please see the answer above.
                         privacy act exemptions
    Question. Please provide a detailed description of each of the 
three databases affected by the new rule, i.e., the National Crime 
Information Center (NCIC), Central Records System (CRS), and National 
Center for the Analysis of Violent Crime (NCAVC), including the types 
of records they contain and where these records originate.
    Answer. These databases are described in the following notices, 
published by the FBI in accordance with the Privacy Act, 5 U.S.C. 
552a(e)(4)(B) and (C). Each notice details the organization and 
categorization of the individuals and information in the database.
  --National Crime Information Center (NCIC), 64 Federal Register 52343 
        (Sept. 28, 1999);
  --Central Records System (CRS), 63 Federal Register 8659 (Feb. 20, 
        1998) and 66 Federal Register 17200 (March 29, 2001);
  --National Center for the Analysis of Violent Crime (NCAVC), 58 
        Federal Register 51887 (Oct. 5, 1993);
  --Blanket Routine Uses (BRU) Applicable to More Than One FBI Privacy 
        Act System of Records (JUSTICE/FBI-BRU), 66 Federal Register 
        33558 (June 22, 2001).
    Each database is summarized below. Copies of the Privacy Act 
notices are enclosed.
    The NCIC system of records provides a computerized database for 
ready access by a criminal justice agency making an inquiry. It 
includes information on fugitives, missing persons, members of violent 
criminal gangs, members of terrorist organizations, and other persons 
of interest to law enforcement. The database also includes records on 
stolen property, vehicles, and guns. The attached Privacy Act notice 
provides an exhaustive list of the available data. The NCIC system 
provides prompt disclosure of information in the system from other 
criminal justice agencies about crimes and criminals.
    The CRS maintains the FBI's investigative, personnel, applicant, 
and administrative case files. This system consists of one numerical 
sequence of subject matter files and an alphabetical index to the case 
files. The case file classifications used by the FBI in its basic 
filing system pertain primarily to Federal violations over which the 
FBI has investigative jurisdiction. The case file classifications 
include personnel, applicant, and administrative matters to facilitate 
information retrieval. As a part of the NCAVC, the Violent Crime 
Apprehensive Program (VICAP) maintains investigation reports on all 
forms of solved and unsolved violent crimes. These violent crimes 
include, but are not limited to, acts or attempted acts of murder, 
kidnapping, incendiary arson or bombing, rape, physical torture, sexual 
trauma, or evidence of violent forms of death. VICAP records include, 
but are not limited to, crime scene descriptions, victim and offender 
descriptive data, laboratory reports, criminal history records, court 
records, news media references, crime scene photographs, and 
statements. The data in the system consists of homicide, missing 
person, unidentified dead, sexual assault, and other criminal cases. 
State and local law enforcement agencies enter their case information, 
consisting primarily of victim information, offender information, and a 
description of the event, into the national database. In addition to 
entering data, law enforcement personnel can retrieve their own cases, 
run reports using their own data, and request query against the 
national database.
    Copies of the Privacy Act system notices listed above for the NCIC, 
CRS, and NCAVC are attached.

   [From the Federal Register, Vol. 64, No. 187, September 28, 1999]

                         DEPARTMENT OF JUSTICE
[AAG/A Order No. 170-99]

Privacy Act of 1974; Notice of Modified Systems of Records

    Pursuant to the Privacy Act of 1974 (5 U.S.C. 552a) and Office of 
Management and Budget (OMB) Circular No. A-130, notice is given that 
the Department of Justice, Federal Bureau of Investigation (FBI), is 
modifying the following system of records which was last published in 
the Federal Register on April 20, 1995 (60 FR 19775):
    National Crime Information Center (NCIC), JUSTICE/FBI-001.
    Also being modified is the following system of records which was 
last published in the Federal Register on February 20, 1996 (61 FR 
6386):
    Fingerprint Identification Records Systems (FIRS), JUSTICE/FBI-009.
    The FBI has made revisions to these systems of records to update 
information about these systems, make editorial adjustments to existing 
language, confirm in clearer language the categories of agencies that 
participate in the exchange of records through these systems, and add 
three new routine uses for both systems. A brief description of these 
changes is provided below.
    The two systems of records are being modified to update the 
location of the systems and denote the exact street address of the 
system manager. Both notices are also being revised to clarify existing 
language through minor editorial adjustments and to confirm in clearer 
language the authorized participation in these systems, and the 
availability of system records, to tribal, foreign, and international 
agencies, in addition to local, state, and federal agencies. Three 
routine uses have been added to allow disclosure of information 
maintained in these systems: To criminal justice agencies to conduct 
background checks under the National Instant Criminal Background Check 
System (NICS); to noncriminal justice government agencies, subject to 
appropriate controls, performing criminal justice dispatching functions 
or data processing/information services for a criminal justice 
dispatching functions or data processing/information services for a 
criminal justice agency; and to a private entity, subject to 
appropriate controls and under a specific agreement with an authorized 
governmental agency to perform an administration of criminal justice 
function (privatization). (In addition to the above changes, the FBI is 
currently reviewing additional changes to better describe new 
capabilities and practices, to be promulgated in a future notice.) 
Revisions to 28 CFR parts 0, 16, 20 and 50 which underlie these changes 
are being implemented in the Rules section of today's Federal Register.
    The Privacy Act (5 U.S.C. 552a (e)(4) and (11)) requires that the 
public be given 30 days in which to comment on any new or intended uses 
of information in a system of records. In addition, OMB, which has 
oversight responsibilities under the Act, requires that OMB and the 
Congress be given 40 days in which to review major changes to the 
system.
    Therefore, the public, OMB, and the Congress are invited to submit 
written comments to Mary E. Cahill, Management Analyst, Management and 
Planning Staff, Justice Management Division, Department of Justice, 
1400 National Place, Washington, DC 20530.
    In accordance with Privacy Act requirements (5 U.S.C. 552a(r)), the 
Department of Justice has provided a report on the modified system to 
OMB and the Congress.

    Dated: July 27, 1999.

Stephen R. Colgate,
Assistant Attorney General for Administration.
JUSTICE/FBI 001
            System name:
    National Crime Information Center (NCIC).
            System location:
    Federal Bureau of Investigation, Criminal Justice Information 
Services (CJIS) Division, 1000 Custer Hollow Road, Clarksburg, WV 
26306.
            Categories of individuals covered by the system:
    A. Wanted Persons:
    1. Individuals for whom federal warrants are outstanding.
    2. Individuals who have committed or have been identified with an 
offense which is classified as a felony or serious misdemeanor under 
the existing penal statutes of the jurisdiction originating the entry 
and for whom a felony or misdemeanor warrant has been issued with 
respect to the offense which was the basis of the entry. Probation and 
parole violators meeting the foregoing criteria.
    3. A ``Temporary Felony Want'' may be entered when a law 
enforcement agency has need to take prompt action to establish a 
``want'' entry for the apprehension of a person who has committed, or 
the officer has reasonable grounds to believe has committed, a felony 
and who may seek refuge by fleeing across jurisdictional boundaries and 
circumstances preclude the immediate procurement of a felony warrant. A 
``Temporary Felony Want'' shall be specifically identified as such and 
subject to verification and support by a proper warrant within 48 hours 
following the entry of a temporary want. The agency originating the 
``Temporary Felony Want'' shall be responsible for subsequent 
verification or re-entry of a permanent want.
    4. Juveniles who have been adjudicated delinquent and who have 
escaped or absconded from custody, even though no arrest warrants were 
issued. Juveniles who have been charged with the commission of a 
delinquent act that would be a crime if committed by an adult, and who 
have fled from the state where the act was committed.
    5. Individuals who have committed or have been identified with an 
offense committed in a foreign country, which would be a felony if 
committed in the United States, and for whom a warrant of arrest is 
outstanding and for which act an extradition treaty exists between the 
United States and that country.
    6. Individuals who have committed or have been identified with an 
offense committed in Canada and for whom a Canada-Wide Warrant has been 
issued which meets the requirements of the Canada-U.S. Extradition 
Treaty, 18 U.S.C. 3184.
    B. Individuals who have been charged with serious and/or 
significant offenses:
    1. Individuals who have been fingerprinted and whose criminal 
history record information has been obtained.
    2. Violent Felons: Persons with three or more convictions for a 
violent felony or serious drug offense as defined by 18 U.S.C. 924(e).
    C. Missing Persons:
    1. A person of any age who is missing and who is under proven 
physical/mental disability or is senile, thereby subjecting that person 
or others to personal and immediate danger.
    2. A person of any age who is missing under circumstances 
indicating that the disappearance was not voluntary.
    3. A person of any age who is missing under circumstances 
indicating that that person's physical safety may be in danger.
    4. A person of any age who is missing after a catastrophe.
    5. A person who is missing and declared unemancipated as defined by 
the laws of the person's state of residence and does not meet any of 
the entry criteria set forth in 1-4 above.
    D. Individuals designed by the U.S. Secret Service as posing a 
potential danger to the President and/or other authorized protectees.
    E. Members of Violent Criminal Gangs: Individuals about whom 
investigation has developed sufficient information to establish 
membership in a particular violent criminal gang by either:
    1. Self admission at the time of arrest or incarceration, or
    2. Any two of the following criteria:
    a. Identified as a gang member by a reliable informant;
    b. Identified as a gang member by an informant whose information 
has been corroborated;
    c. Frequents a gang's area, associates with known members, and/or 
affects gang dress, tattoos, or hand signals;
    d. Has been arrested multiple times with known gang members for 
offenses consistent with gang activity; or
    e. Self admission (other than at the time of arrest or 
incarceration).
    F. Members of Terrorist Organizations: Individuals about whom 
investigation has developed sufficient information to establish 
membership in a particular terrorist organization using the same 
criteria listed above in paragraph E, items 1 and 2 a-e, as they apply 
to members of terrorist organizations rather than members of violent 
criminal gangs.
    G. Unidentified Persons:
    1. Any unidentified deceased person.
    2. Any person who is living, but whose identify has not been 
ascertained (e.g., infant, amnesia victim).
    3. Any unidentified catastrophe victim.
    4. Body parts when a body has been dismembered.
            Categories of records in the system:
    A. Stolen Vehicle File:
    1. Stolen vehicles.
    2. Vehicles wanted in conjunction with felonies or serious 
misdemeanors.
    3. Stolen vehicle parts including certificates of origin or title.
    B. Stolen License Plate File.
    C. Stolen Boat File.
    D. Stolen Gun File:
    1. Stolen guns.
    2. Recovered guns, when ownership of which has not been 
established.
    E. Stolen Article File.
    F. Securities File:
    1. Serially numbered stolen, embezzled, or counterfeited 
securities.
    2. ``Securities'' for present purposes of this file are currency 
(e.g., bills, bank notes) and those documents or certificates which 
generally are considered to be evidence of debt (e.g., bonds, 
debentures, notes) or ownership of property (e.g., common stock, 
preferred stock), and documents which represent subscription rights, 
warrants and which are of the types traded in the securities exchanges 
in the United States, except for commodities futures. Also included are 
warehouse receipts, travelers checks and money orders.
    G. Wanted Person File: Described in ``Categories of individuals 
covered by the system: A. Wanted Persons, 1-4.''
    H. Foreign Fugitive File: Identification data regarding persons who 
are fugitives from foreign countries, who are described in ``Categories 
of individuals covered by the system: A. Wanted Persons, 5 and 6.''
    I. Interstate Identification Index File: A cooperative federal-
state program for the interstate exchange of criminal history record 
information for the purpose of facilitating the interstate exchange of 
such information among criminal justice agencies: Described in 
``Categories of individuals covered by the system: B. 1.''
    J. Identification records regarding persons enrolled in the United 
States Marshals Service Witness Security Program who have been charged 
with serious and/or significant offenses. Described in ``Categories of 
individuals covered by the system: B.''
    K. Bureau of Alcohol, Tobacco, and Firearms (BATF) Violent Felon 
File: Described in ``Categories of individuals covered by the system: 
B.2.''
    L. Missing Person File: Described in ``Categories of individuals 
covered by the system: C. Missing Persons.''
    M. U.S. Secret Service Protective File: Described in ``Categories 
of individuals covered by the system: D.''
    N. Violent Criminal Gang File: A cooperative federal-state program 
for the interstate exchange of criminal gang information. For the 
purpose of this file, a ``gang'' is defined as a group of three or more 
persons with a common interest, bond, or activity characterized by 
criminal delinquent conduct. Described in ``Categories of individuals 
covered by the system: E. Members of Violent Criminal Gangs.''
    O. Terrorist File: A cooperative federal-state program for the 
exchange of information about terrorist organizations and individuals. 
For the purposes of this file, ``terrorism'' is defined as activities 
that involve violent acts or acts dangerous to human life that are a 
violation of the criminal laws of the United States or any state or 
would be a criminal violation if committed within the jurisdiction of 
the United States or any states, which appear to be intended to:
    1. Intimidate or coerce a civilian population,
    2. Influence the policy of a government by intimidation or 
coercion, or
    3. Affect the conduct of a government by crimes or kidnaping. 
Described in ``Categories of individuals covered by the system: F. 
Members of Terrorist Organizations.''
    P. Unidentified Person File: Described in ``Categories of 
individuals covered by the system: G. Unidentified Persons.''
            Authority for maintenance of the system:
    The system is established and maintained in accordance with 28 
U.S.C. 534; 28 CFR part 20; Department of Justice Appropriation Act, 
1973, Pub. L. 92-544, 86 Stat. 1115; Securities Acts Amendment of 1975, 
Pub. L. 94-29, 89 Stat. 97; and 18 U.S.C. 924 (e). Exec. Order No. 
10450, 3 CFR (1974).
            Purpose(s):
    The purpose for maintaining the NCIC system of records is to 
provide a computerized data base for ready access by a criminal justice 
agency making an inquiry and for prompt disclosure of information in 
the system from other criminal justice agencies about crimes and 
criminals. This information assists authorized agencies in criminal 
justice objectives, such as apprehending fugitives, locating missing 
persons, locating and returning stolen property, as well as in the 
protection of the law enforcement officers encountering the individuals 
described in the system.
            Routine uses of records maintained in the system, including 
                    categories of users and the purposes of such uses:
    Data in NCIC files is exchanged with and for the official use of 
authorized officials of the federal government, the states, cities, 
penal and other institutions, and certain foreign governments. The data 
is exchanged most frequently, but not exclusively, through NCIC lines 
to federal criminal justice agencies, criminal justice agencies in the 
50 states, the District of Columbia, Puerto Rico, U.S. Possessions, 
U.S. Territories, and certain authorized foreign and international 
criminal justice agencies. Criminal history data is disseminated to 
non-criminal justice agencies for use in connection with licensing for 
local/state employment or other uses, but only where such dissemination 
is authorized by federal or state statute and approved by the Attorney 
General of the United States.
    Data in NCIC files, other than the information described in 
``Categories of records in the system: I, J, K, M, N, and O'' is 
disseminated to:
    (1) A nongovernmental agency or subunit thereof which allocates a 
substantial part of its annual budget to the administration of criminal 
justice, whose regularly employed peace officers have full police 
powers pursuant to state law and have complied with the minimum 
employment standards of governmentally employed police officers as 
specified by state statute;
    (2) A noncriminal justice governmental department of motor vehicle 
or driver's license registry established by a statute, which provides 
vehicle registration and driver record information to criminal justice 
agencies;
    (3) A governmental regional dispatch center, established by a state 
statute, resolution, ordinance or Executive order, which provides 
communications services to criminal justice agencies; and
    (4) The National Insurance Crime Bureau (NICB), a nongovernmental 
nonprofit agency which acts as a national clearinghouse for information 
on stolen vehicles and offers free assistance to law enforcement 
agencies concerning automobile thefts, identification and recovery of 
stolen vehicles.
    Disclosures of information from this system, as described in (1) 
through (4) above, are for the purpose of providing information to 
authorized agencies to facilitate the apprehension of fugitives, the 
location of missing persons, the location and/or return of stolen 
property, or similar criminal justice objectives.
    Information on missing children, missing adults who were reported 
missing while children, and unidentified living and deceased persons 
may be disclosed to the National Center for Missing and Exploited 
Children (NCMEC). The NCMEC is a nongovernmental, nonprofit, federally 
funded corporation, serving as a national resource and technical 
assistance clearinghouse focusing on missing and exploited children. 
Information is disclosed to NCMEC to assist it in its efforts to 
provide technical assistance and education to parents and local 
governments regarding the problems of missing and exploited children, 
and to operate a nationwide missing children hotline to permit members 
of the public to telephone the Center from anywhere in the United 
States with information about a missing child.
    System records may be disclosed to criminal justice agencies for 
the conduct of background checks under the National Instant Criminal 
Background Check System (NICS).
    System records may be disclosed to noncriminal justice governmental 
agencies performing criminal justice dispatching functions or data 
processing/information services for criminal justice agencies.
    System records may be disclosed to private contractors pursuant to 
a specific agreement with a criminal justice agency or a noncriminal 
justice governmental agency performing criminal justice dispatching 
functions or data processing/information services for criminal justice 
agencies to provide services for the administration of criminal justice 
pursuant to that agreement. The agreement must incorporate a security 
addendum approved by the Attorney General of the United States, which 
shall specifically authorize access to criminal history record 
information, limit the use of the information to the purposes for which 
it is provided, ensure the security and confidentiality of the 
information, provide for sanctions, and contain such other provisions 
as the Attorney General may require. The power and authority of the 
Attorney General hereunder shall be exercised by the FBI Director (or 
the Director's designee).
    In addition, information may be released to the news media and the 
public pursuant to 28 CFR 50.2, unless it is determined that release of 
the specific information in the context of a particular case would 
constitute an unwarranted invasion of personal privacy;
    System records may be disclosed to a Member of Congress or staff 
acting on the member's behalf when the member or staff requests the 
information on behalf of and at the request of the individual who is 
the subject of the record; and,
    System records may be disclosed to the National Archives and 
Records Administration and the General Services Administration for 
records management inspections conducted under the authority of 44 
U.S.C. 2904 and 2906.
            Policies and practices for storing, retrieving, accessing, 
                    retaining, and disposing of records in the system:
            Storage:
    Information maintained in the NCIC system is stored electronically 
for use in a computer environment.
            Retrievability:
    On line access to data in NCIC is achieved by using the following 
search descriptors:
    A. Stolen Vehicle File:
    1. Vehicle identification number;
    2. Owner applied number;
    3. License plate number;
    4. NCIC number (unique number assigned by NCIC computer to each 
NCIC record.)
    B. Stolen License Plate File:
    1. License plate number;
    2. NCIC number.
    C. Stolen Boat File:
    1. Registration document number;
    2. Hull serial number;
    3. Owner applied number;
    4. NCIC number.
    D. Stolen Gun File:
    1. Serial number of gun;
    2. NCIC number.
    E. Stolen Article File:
    1. Serial number of article;
    2. Owner applied number;
    3. NCIC number.
    F. Securities File:
    1. Type, serial number, denomination of security, and issuer for 
other than U.S. Treasury issues and currency;
    2. Type of security and name of owner of security;
    3. Social Security number of owner of security (it is noted the 
requirements of the Privacy Act with regard to the solicitation of 
Social Security numbers have been brought to the attention of the 
members of the NCIC system);
    4. NCIC number.
    G. Wanted Person File:
    1. Name and one of the following numerical identifiers:
    a. Date of birth;
    b. FBI number (number assigned by the Federal Bureau of 
Investigation to an arrest fingerprint record);
    c. Social Security number (it is noted the requirements of the 
Privacy Act with regard to the solicitation of Social Security numbers 
have been brought to the attention of the members of the NCIC system);
    d. Operator's license number (driver's number);
    e. Miscellaneous identifying number (military number or number 
assigned by federal, state, or local authorities to an individual's 
record);
    f. Originating agency case number;
    2. Vehicle or license plate known to be in the possession of the 
wanted person;
    3. NCIC number.
    H. Foreign Fugitive File: See G, above.
    I. Interstate Identification Index File:
    1. Name, sex, race, and date of birth;
    2. FBI number;
    3. State identification number;
    4. Social Security number;
    5. Miscellaneous identifying number.
    J. Witness Security Program File: See G, above.
    K. BATF Violent Felon File: See G, above.
    L. Missing Person file: See G, above, plus the age, sex, race, 
height and weight, eye and hair color of the missing person.
    M. U.S. Secret Service Protective File: See G, above.
    N. Violent Criminal Gang File: See G, above.
    O. Terrorist File: See G, above.
    P. Unidentified Person File: The age, sex, race, height and weight, 
eye and hair color of the unidentified person.
            Safeguards:
    Data stored in the NCIC is documented criminal justice agency 
information and access to that data is restricted to duly authorized 
users. The following security measures are the minimum to be adopted by 
all authorized users having access to the NCIC.
    Interstate Identification Index (III) File. These measures are 
designed to prevent unauthorized access to the system data and/or 
unauthorized use of data obtained from the computerized file.
    1. Computer Center.
    a. The authorized user's computer site must have adequate physical 
security to protect against any unauthorized personnel gaining access 
to the computer equipment or to any of the stored data.
    b. Since personnel at these computer centers can have access to 
data stored in the system, they must be screened thoroughly under the 
authority and supervision of an NCIC control terminal agency. (This 
authority and supervision may be delegated to responsible criminal 
justice agency personnel in the case of a satellite computer center 
being serviced through a state control terminal agency.) This screening 
will also apply to non-criminal justice maintenance or technical 
personnel.
    c. All visitors to these computer centers must be accompanied by 
staff personnel at all times.
    d. Computers having access to the NCIC must have the proper 
computer instructions written and other built-in controls to prevent 
criminal history data from being accessible to any terminals other than 
authorized terminals.
    e. Computers having access to the NCIC must maintain a record of 
all transactions against the criminal history file in the same manner 
the NCIC computer logs all transactions. The NCIC identifies each 
specific agency entering or receiving information and maintains a 
record of those transactions. This transaction record must be monitored 
and reviewed on a regular basis to detect any possible misuse of 
criminal history data.
    f. Each State Control terminal shall build its data system around a 
central computer, through which each inquiry must pass for screening 
and verification. The configuration and operation of the center shall 
provide for the integrity of the data base.
    2. Communications:
    a. Lines/channels being used to transmit criminal history 
information must be dedicated solely to criminal justice, i.e., there 
must be no terminals belonging to agencies outside the criminal justice 
system sharing these lines/channels.
    b. Physical security of the lines/channels must be protected to 
guard against clandestine devices being utilized to intercept or inject 
system traffic.
    3. Terminal Devices Having Access to NCIC:
    a. All authorized users having terminal on this system must be 
required to physically place theses terminals in secure locations 
within the authorized agency.
    b. The authorized users having terminals with access to criminal 
history must screen terminal operators and restrict access to the 
terminal to a minimum number of authorized employees.
    c. Copies of criminal history data obtained from terminal devices 
must be afforded security to prevent any unauthorized access to or use 
of the data.
    d. All remote terminals on NCIS III will maintain a manual or 
automatedlog of computerized criminal history inquiries with notations 
of individuals making requests for records for a minimum of one year.
            Retention and disposal:
    Unless otherwise removed, records will be retained in files as 
follows:
    A. Vehicle File:
    a. Unrecovered stolen vehicle records (including snowmobile 
records) which do not contain vehicle identification numbers (VIN) or 
Owner-applied number (OAN) therein, will be purged from file 90 days 
after date of entry. Unrecovered stolen vehicle records (including 
snowmobile records) which contain VINS or OANs will remain in file for 
the year of entry plus 4.
    b. Unrecovered vehicles wanted in conjunction with a felony will 
remain in file for 90 days after entry. In the event a longer retention 
period is desired, the vehicle must be reentered.
    c. Unrecovered stolen VIN plates, certificates of origin or title, 
and serially numbered stolen vehicle engines or transmissions will 
remain in file for the year of entry plus 4. (Job No. NC1-65-82-4, Part 
E. 13 h.(12 )
    B. License Plate File: Unrecovered stolen license plates will 
remain in file for one year after the end of the plate's expiration 
year as shown in the record. (Job no. NC1-65-82-4, Part E. 13 h. (2) )
    C. Boat file: Unrecovered stolen boat records, which contain a hull 
serial number or an OAN, will be retained in file for the balance of 
the year entered plus 4. Unrecovered stolen boat records which do not 
contain a hull serial number or an OAN will be purged from file 90 days 
after date of entry. (Job No. NC1-65-82-4, Part E. 13 h. (6))
    D. Gun File:
    a. Unrecovered weapons will be retained in file for an indefinite 
period until action is taken by the originating agency to clear the 
record.
    b. Weapons entered in file as ``recovered'' weapons will remain in 
file for the balance of the year entered plus 2. (Job No. NC1-65-82-4, 
Part E. 13 h. (3))
    E. Article File: Unrecovered stolen articles will be retained for 
the balance of the year entered plus one year. (Job No. NC1-65-82-4, 
Part E. 13 h. (4))
    F. Securities File: Unrecovered stolen, embezzled or counterfeited 
securities will be retained for the balance of the year entered plus 4, 
except for travelers checks and money orders, which will be retained 
for the balance of the year entered plus 2. (Job No. NC1-65-82-4, Part 
E. 13 h. (5))
    G. Wanted Person File: Person not located will remain in file 
indefinitely until action is taken by the originating agency to clear 
the record (except ``Temporary Felony Wants'', which will be 
automatically removed from the file after 48 hours''. (Job No. NC1-65-
87-114, Part E. 13 h. (7))
    H. Foreign Fugitive File: Person not located will remain in file 
indefinitely until action is taken by the originating agency to clear 
the record.
    I. Interstate Identification Index File: When an individual reaches 
age of 99. (Job No. N1-65-95-03)
    J. Witness Security Program File: Will remain in file until action 
is taken by the U.S. Marshals Service to clear or cancel the records.
    K. BATF Violent Felon File: Will remain in file until action is 
taken by the BATF to clear or cancel the records.
    L. Missing Persons File: Will remain in the file until the 
individual is located or action is taken by the originating agency to 
clear the record. (Job No. NC1-65-87-11, Part E 13h (8))
    M.U.S. Secret Service Protective File: Will be retained until names 
are removed by the U.S. Secret Service.
    N. Violent Criminal Gang File: Records will be subject to mandatory 
purge if inactive for five years.
    O. Terrorist File: Records will be subject to mandatory purge if 
inactive for five years.
    P. Unidentified Person File: Will be retained for the remainder of 
the year of entry plus 9.
            System manager(s) and address:
    Director, Federal Bureau of investigation, J. Edgar Hoover 
Building, 935 Pennsylvania Avenue, NW., Washington, DC 20535-0001.
            Notification procedure:
    Same as the above.
            Record access procedures:
    It is noted the Attorney General has exempted this system from the 
access and contest procedures of the Privacy Act. However, the 
following alternative procedures are available to a requester. The 
procedures by which an individual may obtain a copy of his or her 
criminal history record from a state or local criminal justice agency 
are detailed in 28 CFR 20.34 appendix and are essentially as follows:
    If an individual has a criminal record supported by fingerprints 
and that record has been entered in the III System, it is available to 
that individual for review, upon presentation of appropriate 
identification and in accordance with applicable state and federal 
administrative and statutory regulations.
    Appropriate identification includes being fingerprinted for the 
purpose of insuring that the individual is who the individual purports 
to be. The record on file will then be verified through comparison of 
fingerprints.
    Procedure:
    1. All requests for review must be made by the subject of the 
record through a law enforcement agency which has access to the III 
System. That agency within statutory or regulatory limits can require 
additional identification to assist in securing a positive 
identification.
    2. If the cooperating law enforcement agency can make an 
identification with fingerprints previously taken which are on file 
locally and if the FBI identification number of the individual's record 
is available to that agency, it can make an on-line inquiry through 
NCIC to obtain the III System record or, if it does not have suitable 
equipment to obtain an on-line response, obtain the record from 
Clarksburg, West Virginia, by mail. The individual will then be 
afforded the opportunity to see that record.
    3. Should the cooperating law enforcement agency not have the 
individual's fingerprints on file locally, it is necessary for that 
agency to relate the prints to an existing record by having the 
identification prints compared with those already on file in the FBI, 
or, possibly, in the state's central identification agency.
    The procedures by which an individual may obtain a copy of his or 
her criminal history record from the FBI are set forth in 28 CFR 16.30-
16.34.
            Contesting record procedures:
    The Attorney General has exempted this system from the contest 
procedures of the Privacy Act. Under the alternative procedures 
described above under ``Record Access Procedures,'' the subject of the 
requested record shall request the appropriate arresting agency, court, 
or correctional agency to initiate action necessary to correct any 
stated inaccuracy in subject's record or provide the information needed 
to make the record complete. The subject of a record may also direct 
his/her challenge as to the accuracy or completeness of any entry on 
his/her record to the FBI, Criminal Justice Information Services (CJIS) 
Division, ATTN: SCU, Mod. D-2, 1000 Custer Hollow Road, Clarksburg, WV 
26306. The FBI will then forward the challenge to the agency which 
submitted the data requesting that agency to verify or correct the 
challenged entry. Upon the receipt of an official communication 
directly from the agency which contributed the original information, 
the FBI CJIS Division will make any changes necessary in accordance 
with the information supplied by that agency.
            Record source categories:
    Information contained in the NCIC system is obtained from local, 
state, tribal, federal, foreign, and international criminal justice 
agencies.
            Systems exempted from certain provisions of the act:
    The Attorney General has exempted this system from subsection 
(c)(3) and (4); (d); (e)(1), (2), and (3); (e)(4)(G) and (H), (e)(8) 
and (g) of the Privacy Act pursuant to 5 U.S.C. 552a(j)(2) and (k)(3). 
Rules have been promulgated in accordance with the requirements of 5 
U.S.C. 553(b), (c) and (e) and have been published in the Federal 
Register.
                                 ______
                                 

    [From the Federal Register, Vol. 63, No. 34, February 20, 1998]

                         DEPARTMENT OF JUSTICE
[AAG/A Order No. 146-97]

Privacy Act of 1974; Notice of Modified Systems of Records

    Pursuant to the Privacy Act of 1974 (5 U.S.C. 552a), the Department 
proposes to modify the following Privacy Act systems of records:

    Antitrust Information Management System (AMIS)--Matter Report, 
Justice/ATR-006 (previously published on October 17, 1988 at 53 FR 
40502)
    Central Civil Rights Division Index File and Associated Records, 
Justice/CRT-001 (previously published on May 17, 1993 at 58 FR 28896)
    Central Criminal Division Index File and Associated Records, 
Justice/CRM-001 (previously published on December 11, 1987 at 53 FR 
47186)
    Civil Division Case File System, Justice/CIV-001 (previously 
published on October 17, 1988 at 53 FR 40504)
    Civil Case Files, Justice/USA-005 (previously published on January 
22, 1988 at 53 FR 1864)
    Criminal Case Files, Justice/USA-007 (previously published on 
January 22, 1988 at 53 FR 1861)
    FBI Central Records System, Justice/FBI-002 (previously published 
on October 5, 1993 at 58 FR 51858)
    Tax Division Central Classification Cards, Index Docket Cards, and 
Associated Records--Criminal Tax Cases, Justice/TAX-001 (previously 
published on September 30, 1977 at 42 FR 53389)
    Tax Division Central Classification Cards, Index Docket Cards, and 
Associated Records--Civil Tax Cases, Justice/TAX-002 (previously 
published on September 30, 1977 at 42 FR 53390)

    The Department proposes to add a new routine use disclosure to all 
of the above-named systems of records. The routine use will permit 
disclosure of health care-related information obtained during health-
care related investigations. In addition, the Department proposes to 
add an additional routine use disclosure to the Central Civil Rights 
Division Index File and Associated Records system to permit the 
disclosure of information regarding the progress and results of 
investigations to the complainants and/or victims involved. The 
proposed disclosures have been italicized for the reader's convenience. 
The modified systems of records are printed below.
    Title 5 U.S.C. 552a(e)(4) and (11) provide that the public be given 
a 30-day period in which to comment on proposed new routine use 
disclosures. The Office of Management and Budget (OMB), which has 
oversight responsibilities under the Act, requires a 40-day period in 
which to conclude its review of the new routine uses.
    Therefore, please submit any comments by March 23, 1998. The 
public, OMB, and the Congress are invited to send written comments to 
Patricia E. Neely, Program Analyst, Information Management and Security 
Staff, Justice Management Division, Department of Justice, Washington, 
DC 20530 (Room 850, WCTR Building).
    In accordance with 5 U.S.C. 552a(r), the Department has provided a 
report to OMB and the Congress on the proposed modification.

    Dated: December 31, 1997.

Stephen R. Colgate,
Assistant Attorney General for Administration.
          * * * * * * *
JUSTICE/FBI-002
            System name:
    The FBI Central Records System.
            System location:
    a. Federal Bureau of Investigation, J. Edgar Hoover Building, 10th 
and Pennsylvania Avenue, NW, Washington DC 20535; b. 56 field divisions 
(see Appendix); c. 16 Legal Attache (see Appendix).
            Categories of individuals covered by the system:
    a. Individuals who relate in any manner to official FBI 
investigations including, but not limited to subjects, suspects, 
victims, witnesses, and close relatives and associates who are relevant 
to an investigation.
    b. Applicants for and current and former personnel of the FBI and 
persons related thereto who are considered relevant to an applicant 
investigation, personnel inquiry, or other personnel matters.
    c. Applicants for and appointees to sensitive positions in the 
United States Government and persons related thereto who are considered 
relevant to the investigation.
    d. Individuals who are the subject of unsolicited information, who 
offer unsolicited information, request assistance, and make inquiries 
concerning record material, including general correspondence, and 
contacts with other agencies, businesses, institutions, clubs; the 
public and the news media.
    e. Individuals associated with administrative operations or 
services including pertinent functions, contractors and pertinent 
persons related thereto. (All manner of information concerning 
individuals may be acquired in connection with and relating to the 
varied investigative responsibilities of the FBI which are further 
described in ``CATEGORIES OF RECORDS IN THE SYSTEM.'' Depending on the 
nature and scope of the investigation this information may include, 
among other things, personal habits and conduct, financial information, 
travel and organizational affiliation of individuals. The information 
collected is made a matter of record and placed in FBI files.)
            Categories of records in the system:
    The FBI Central Records Systems--The FBI utilizes a central records 
system of maintaining its investigative, personnel, applicant, 
administrative, and general files. This system consists of one 
numerical sequence of subject matter files, an alphabetical index to 
the files, and a supporting abstract system to facilitate processing 
and accountability of all important mail placed in files. This abstract 
system is both a textual and an automated capability for locating mail. 
Files kept in FBI field offices are also structured in the same manner, 
except they do not utilize an abstract system.
    The 281 classifications used by the FBI in its basic filing system 
pertain primarily to Federal violations over which the FBI has 
investigative jurisdiction. However, included in the 281 
classifications are personnel, applicant, and administrative matters to 
facilitate the overall filing scheme. These classifications are as 
follows (the word ``obsolete'' following the name of the classification 
indicates the FBI is no longer initiating investigative cases in these 
matters, although the material is retained for reference purposes):
    1. Training Schools; National Academy Matters: FBI National Academy 
Applicants. Covers general information concerning the FBI National 
Academy, including background investigations of individual candidates.
    2. Neutrality Matters. Title 18, United States Code, Sections 956 
and 958 962; Title 22, United States Code, Sections 1934 and 401.
    3. Overthrow or Destruction of the Government. Title 18, United 
States Code, Section 2385.
    4. National Firearms Act, Federal Firearms Act; State Firearms 
Control Assistance Act; Unlawful Possession or Receipt of Firearms. 
Title 26, United States Code, Sections 5801-5812; Title 18, United 
States Code, Sections 921-928; Title 18, United States Code, Sections 
1201-1203.
    5. Income Tax. Covers violations of Federal income tax laws 
reported to the FBI. Complaints are forwarded to the Commissioner of 
the Internal Revenue Service.
    6. Interstate Transportation of Strikebreakers. Title 18, United 
States Code, Section 1231.
    7. Kidnapping. Title 28, United States Code, Sections 1201 and 
1202.
    8. Migratory Bird Act. Title 18, United States Code, Section 43; 
Title 16, United States Code, Section 703 through 718.
    9. Extortion. Title 18, United States Code, Sections 876, 877, 875, 
and 873.
    10. Red Cross Act. Title 18, United States Code, Sections 706 and 
917.
    11. Tax (Other than Income). This classification covers complaints 
concerning violations of Internal Revenue law as they apply to other 
than alcohol, social security and income and profits taxes, which are 
forwarded to the Internal Revenue Service.
    12. Narcotics. This classification covers complaints received by 
the FBI concerning alleged violations of Federal drug laws. Complaints 
are forwarded to the headquarters of the Drug Enforcement 
Administration (DEA), or the nearest district office of DEA.
    13. Miscellaneous. Section 125, National Defense Act, Prostitution; 
Selling Whiskey Within Five Miles of An Army Camp, 1920 only. Subjects 
were alleged violators of abuse of U.S. flag, fraudulent enlistment, 
selling liquor and operating houses of prostitution within restricted 
bounds of military reservations. Violations of Section 13 of the 
Selective Service Act (Conscription Act) were enforced by the 
Department of Justice as a war emergency measure with the Bureau 
exercising jurisdiction in the detection and prosecution of cases 
within the purview of that Section.
    14. Sedition. Title 18, United States Code, Sections 2387, 2388, 
and 2391.
    15. Theft from Interest Shipment. Title 18, United States Code, 
Section 859; Title 18, United States Code, Section 660; Title 18 United 
States Code, Section 2117.
    16. Violations of Federal Injunction (obsolete). Consolidated into 
Classification 69, ``Contempt of Court''.
    17. Fraud Against the Government, Department of Veterans Affairs, 
Department of Veterans Affairs Matters. Title 18, United States Code, 
Section 287, 289, 290, 371, or 1001, and Title 38, United States Code, 
Sections 787(a), 787(b), 3405, 3501, and 3502.
    18. May Act. Title 18, United States Code, Section 1384.
    19. Censorship Matter (obsolete). Pub. L. 77th Congress.
    20. Federal Grain Standards Act (obsolete) 1920 only. Subjects were 
alleged violators of contracts for sale. Shipment of Interstate 
Commerce, Section 5, U.S. Grain Standards Act.
    21. Food and Drugs. This classification covers complaints received 
concerning alleged violations of the Food, Drug and Cosmetic Act; Tea 
Act; Import Milk Act; Caustic Poison Act; and Filled Milk Act. These 
complaints are referred to the Commissioner of the Food and Drug 
Administration of the field component of that Agency.
    22. National Motor Vehicle Traffic Act, 1922-27 (obsolete). 
Subjects were possible violators of the National Motor Vehicle Theft 
Act, Automobiles seized by Prohibitions Agents.
    23. Prohibition. This classification covers complaints received 
concerning bootlegging activities and other violations of the alcohol 
tax laws. Such complaints are referred to the Bureau of Alcohol, 
Tobacco and Firearms, Department of the Treasury, or field 
representatives of the Agency.
    24. Profiteering 1920-42 (obsolete). Subjects are possible 
violators of the Lever Act--Profiteering in food and clothing or 
accused company was subject of file. Bureau conducted investigations to 
ascertain profits.
    25. Selective Service Act; Selective Training and Service Act. 
Title 50, United States Code, Section 462; Title 50, United States 
Code, Section 459.
    26. Interstate Transportation of Stolen Motor Vehicle; Interstate 
Transportation of Stolen Aircraft. Title 18, United States Code, 
Sections 2311 (in part), 2312, and 2313.
    27. Patent Matter. Title 35, United States Code, Sections 104 and 
105.
    28. Copyright Matter. Title 17, United States Code, Sections 104 
and 105.
    29. Bank Fraud and Embezzlement. Title 18, United States Code, 
Sections 212, 213, 215, 334, 655-657, 1004-1006, 1008, 1009, 1014, and 
1306; Title 12, United States Code, Section 1725(g).
    30. Interstate Quarantine Law, 1922-25 (obsolete). Subjects alleged 
violators of Act of February 15, 1893, as amended, regarding interstate 
travel of persons afflicted with infectious diseases. Cases also 
involved unlawful transportation of animals, Act of February 2, 1903. 
Referrals were made to Public Health Service and the Department of 
Agriculture.
    31. White Slave Traffic Act. Title 18, United States Code, Section 
2421-2424.
    32. Identification (Fingerprint) Matters. This classification 
covers general information concerning Identification (fingerprint) 
matters.
    33. Uniform Crime Reporting. This classification covers general 
information concerning the Uniform Crime Reports, a periodic 
compilation of statistics of criminal violations throughout the United 
States.
    34. Violation of Lacy Act. 1922-43. (obsolete) Unlawful 
Transportation and shipment of black bass and fur seal skins.
    35. Civil Service. This classification covers complaints received 
by the FBI concerning Civil Service matters which are referred to the 
Office of Personnel Management in Washington or regional offices of 
that Agency.
    36. Mail Fraud. Title 18, United States Code, Section 1341.
    37. False Claims Against the Government. 1921-22 (obsolete). 
Subjects submitted claims for allotment, vocational training, 
compensation as veterans under the Sweet Bill. Letters were generally 
referred elsewhere (Veterans Bureau). Violators apprehended for 
violation of Article No. 1, War Risk Insurance Act.
    38. Application for Pardon to Restore Civil Rights. 1921-35 
(obsolete). Subjects allegedly obtained their naturalization papers by 
fraudulent means. Cases later referred to Immigration and 
Naturalization Service.
    39. Falsely Claiming Citizenship (obsolete). Title 18, United 
States Code, Sections 911 and 1015(a)(b).
    40. Passport and Visa Matter. Title 18, United States Code, 
Sections 1451-1546.
    41. Explosives (obsolete). Title 50, United States Code, Sections 
121 through 144.
    42. Deserter; Deserter, Harboring. Title 10, United States Code, 
Sections 808 and 885.
    43. Illegal Wearing of Uniforms; False Advertising or Misuse of 
Names, Words, Emblems or Insignia; Illegal Manufacturer, Use, 
Possession, or Sale of Emblems and Insignia; Illegal Manufacture, 
Possession, or Wearing of Civil Defense Insignia; Miscellaneous, 
Forging or Using Forged Certificate of Discharge from Military or Naval 
Service; Miscellaneous, Falsely Making or Forging Naval, Military, or 
Official Pass; Miscellaneous, Forging or Counterfeiting Seal of 
Department or Agency of the United States, Misuse of the Great Seal of 
the United States or of the Seals of the President or the Vice 
President of the United States; Unauthorized Use of ``Johnny Horizon'' 
Symbol; Unauthorized Use of Smokey Bear Symbol. Title 18, United States 
Code, Sections 702, 703, and 704; Title 18, United States Code, 
Sections 701, 705, 707, and 710; Title 36, United States Code, Section 
182; Title 50, Appendix, United States Code, Section 2284; Title 46, 
United States Code, Section 249; Title 18, United States Code, Sections 
498, 499, 506, 709, 711, 711a, 712, 713, and 714; Title 12, United 
States Code, Sections 1457 and 1723a; Title 22, United States Code, 
Section 2518.
    44. Civil Rights; Civil Rights, Election Laws, Voting Rights Act, 
1965, Title 18, United States Code, Sections 241, 242, and 245; Title 
42, United States Code, Section 1973; Title 18, United States Code, 
Section 243; Title 18, United States Code, Section 244, Civil Rights 
Act--Federally Protected Activities; Civil Rights Act--Overseas 
Citizens Voting Rights Act of 1975.
    45. Crime on the High Seas (includes stowaways on boats and 
aircraft). Title 18, United States Code, Sections 7, 13, 1243, and 
2199.
    46. Fraud Against the Government (includes Department of Health, 
Education and Welfare; Department of Labor (CETA), and Miscellaneous 
Government Agencies), Anti-Kickback Statute; Department Assistance Act 
of 1950; False Claims, Civil; Federal-Aid Road Act; Lead and Zinc Act; 
Public Works and Economic Development Act of 1965; Renegotiation Act, 
Criminal; Renegotiation Act, Civil; Trade Expansion Act of 1962; 
Unemployment Compensation Statutes; Economic Opportunity Act, Title 50, 
United States Code, Section 1211 et seq.; Title 31, United States Code, 
Section 231; Title 41, United States Code, Section 119; Title 40, 
United States Code, Section 489.
    47. Impersonation. Title 18, United States Code, Sections 912, 913, 
915, and 916.
    48. Postal. Violation (Except Mail Fraud). This classification 
covers inquiries concerning the Postal Service and complaints 
pertaining to the theft of mail. Such complaints are either forwarded 
to the Postmaster General or the nearest Postal Inspector.
    49. Bankruptcy Fraud. Title 18, United States Code, Sections 151-
155.
    50. Involuntary Servitude and Slavery. U.S. Constitution, 13th 
Amendment; Title 18, United States Code, Sections 1581-1588, 241, and 
242.
    51. Jury Panel Investigations. This classification covers jury 
panel investigations which are requested by the appropriate Assistant 
Attorney General as authorized by 28 U.S.C. 533 and AG memorandum 781, 
dated November 9, 1972. These investigations can be conducted only upon 
such request and consist of an indices and arrest check, and only in 
limited important trials where defendant could have influence over a 
juror.
    52. Theft, Robbery, Embezzlement, Illegal Possession or Destruction 
of Government Property. Title 18, United States Code, Sections 641, 
1024, 1660, 2112, and 2114. Interference With Government 
Communications, Title 18, United States Code, Section 1632.
    53. Excess Profits on Wool. 1918 (obsolete). Subjects possible 
violators of Government Control of Wool Clip Act of 1918.
    54. Customs Laws and Smuggling. This classification covers 
complaints received concerning smuggling and other matters involving 
importation and entry of merchandise into and the exportation of 
merchandise from the United States. Complaints are referred to the 
nearest district office of the U.S. Customs Service or the Commissioner 
of Customs, Washington, DC.
    55. Counterfeiting. This classification covers complaints received 
concerning alleged violations of counterfeiting of U.S. coins, notes, 
and other obligations and securities of the Government. These 
complaints are referred to either the Director, U.S. Secret Service, or 
the nearest office of that Agency.
    56. Election Laws. Title 18, United States Code, Sections 241, 242, 
245, and 591-607; Title 42, United States Code, Section 1973; Title 26, 
United States Code, Sections 9012 and 9042; Title 2, United States 
Code, Sections 431-437, 439, and 441.
    57. War Labor Dispute Act (obsolete). Pub. L. 89--77th Congress.
    58. Corruption of Federal Public Officials. Title 18, United States 
Code, Sections 201-203, 205-211; Public Law 89-4 and 89-136.
    59. World War Adjusted Compensation Act of 1924-44 (obsolete). 
Bureau of Investigation was charged with the duty of investigating 
alleged violations of all sections of the World War Adjusted 
Compensation Act (Pub. L. 472, 69th Congress (H.R. 10277)) with the 
exception of Section 704.
    60. Anti-Trust, Title 15, United States Code, Sections 1-7, 12-27, 
and 13.
    61. Treason or Misprision of Treason. Title 18, United States Code, 
Sections 2381, 2382, 2389, 2390, 756, and 757.
    62. Administrative Inquiries. Misconduct Investigations of Officers 
and Employees of the Department of Justice and Federal Judiciary; 
Census Matters (Title 13, United States Code, Sections 211-214, 221-
224, 304, and 305) Domestic Police Cooperation; Eight-Hour-Day Law 
(Title 40, United States Code, Sections 321, 332, 325a, 326); Fair 
Credit Reporting Act (Title 15, United States Code, Sections 1681q and 
1681r); Federal Cigarette Labeling and Advertising Act (Title 15, 
United States Code, Section 1333); Federal Judiciary Investigations; 
Kickback Racket Act (Title 18, United States Code, Section 874); Lands 
Division Matter, other Violations and/or Matters; Civil Suits--
Miscellaneous; Soldiers' and Sailors' Civil Relief Act of 1940 (Title 
50, Appendix, United States Code, Sections 510-590); Tariff Act of 1930 
(Title 19, United States Code, Section 1304); Unreported Interstate 
Shipment of Cigarettes (Title 15, United States Code, Sections 375 and 
376); Fair Labor Standards Act of 1938 (Wages and Hours Law) (Title 29, 
United States Code, Sections 201-219); Conspiracy (Title 18, United 
States Code, Section 371 (formerly Section 88, Title 18, United States 
Code); effective September 1, 1948).
    63. Miscellaneous--Nonsubversive. This classification concerns 
correspondence from the public which does not relate to matters within 
FBI jurisdiction.
    64. Foreign Miscellaneous. This classification is a control file 
utilized as a repository for intelligence information of value 
identified by country. More specific categories are placed in 
classification 108-113.
    65. Espionage. Attorney General Guidelines on Foreign 
Counterintelligence; Internal Security Act of 1950; Executive Order 
11905.
    66. Administrative Matters. This classification covers such items 
as supplies, automobiles, salary matters and vouchers.
    67. Personnel Matters. This classification concerns background 
investigations of applicants for employment with the FBI and folders 
for current and former employees.
    68. Alaskan matters (obsolete). This classification concerns FBI 
investigations in the Territory of Alaska prior to its becoming a 
State.
    69. Contempt of Court. Title 18, United States Code, Sections 401, 
402, 3285, 3691, 3692; Title 10, United States Code. Section 847; and 
Rule 42, Federal Rules of Criminal Procedure.
    70. Crime on Government Reservation. Title 18, United States Code, 
Sections 7 and 13.
    71. Bills of Lading Act, Title 49, United States Code, Section 121.
    72. Obstruction of Criminal Investigations: Obstruction of Justice, 
Obstruction of Court Orders. Title 18, United States Code. Sections 
1503 through 1510.
    73. Application for Pardon After Completion of Sentence and 
Application for Executive Clemency. This classification concerns the 
FBI's background investigation in connection with pardon applications 
and request for executive clemency.
    74. Perjury. Title 18, United States Code, Sections 1621, 1622, and 
1623.
    75. Bondsmen and Sureties. Title 18, United States Code, Section 
1506.
    76. Escaped Federal Prisoner. Escape and Rescue; Probation 
Violator, Parole Violator, Mandatory, Release Violator. Title 18, 
United States Code, Sections 751-757, 1072; Title 18, United States 
Code. Sections 3651-3656; and Title 18, United States Code. Sections 
4202-4207, 5037, and 4161-4166.
    77. Applicants (Special Inquiry, Departmental and Other Government 
Agencies, except those having special classifications). This 
classification covers the background investigations conducted by the 
FBI in connection with the aforementioned positions.
    78. Illegal Use of Government Transportation Requests. Title 18, 
United States Code, Section 287, 495, 508, 641, 1001 and 1002.
    79. Missing Persons. This classification covers the FBI's 
Identification Division's assistance in the locating of missing 
persons.
    80. Laboratory Research Matters. At FBI Headquarters this 
classification is used for Laboratory research matters. In field office 
files this classification covers the FBI's public affairs matters and 
involves contact by the FBI with the general public, Federal and State 
agencies, the Armed Forces, Corporations, the news media and other 
outside organizations.
    81. Gold Hoarding. 1933-45. (obsolete) Gold Hoarding investigations 
conducted in accordance with an Act of March 9, 1933 and Executive 
Order issued August 28, 1933. Bureau instructed by Department to 
conduct no further investigations in 1935 under the Gold Reserve Act of 
1934. Thereafter, all correspondence referred to Secret Service.
    82. War Risk Insurance (National Life Insurance (obsolete)). This 
classification covers investigations conducted by the FBI in connection 
with civil suits filed under this statute.
    83. Court of Claims. This classification covers requests for 
investigations of cases pending in the Court of Claims from the 
Assistant Attorney General in charge of the Civil Division of the 
Department of Justice.
    84. Reconstruction Finance Corporation Act (obsolete). Title 15, 
United States Code, Chapter 14.
    85. Home Owner Loan Corporation (obsolete). This classification 
concerned complaints received by the FBI about alleged violations of 
the Home Owners Loan Act, which were referred to the Home Owners Loan 
Corporation. Title 12, United States Code, Section 1464.
    86. Fraud Against the Government--Small Business Administration. 
Title 15, United States Code, Section 645; Title 18, United States 
Code, Sections 212, 213, 215, 216, 217, 657, 658, 1006, 1011, 1013, 
1014, 1906, 1907, and 1909.
    87. Interstate Transportation of Stolen Property (Heavy Equipment--
Commercialized Theft). Title 18, United States Code, Sections 2311, 
2314, 2315 and 2318.
    88. Unlawful Flight to Avoid Prosecution, Custody, or Confinement; 
Unlawful Flight to Avoid Giving Testimony. Title 18, United States 
Code, Sections 1073 and 1074.
    89. Assaulting or Killing a Federal Officer, Crimes Against Family 
Members, Congressional Assassination Statute, Title 18, United States 
Code, Sections 1111, 1114, 2232.
    90. Irregularities in Federal Penal Institutions. Title 18, United 
States Code, Sections 1791 and 1792.
    91. Bank Burglary, Bank Larceny; Bank Robbery. Title 18, United 
States Code, Section 2113.
    92. Racketeer Enterprise Investigations. Title 18, United States 
Code. Section 3237.
    93. Ascertaining Financial Ability. This classification concerns 
requests by the Department of Justice for the FBI to ascertain a 
person's ability to pay a claim, fine or judgment obtained against him 
by the United States Government.
    94. Research matters. This classification concerns all general 
correspondence of the FBI with private individuals which does not 
involve any substantive violation of Federal law.
    95. Laboratory Cases (Examination of Evidence in Other Than 
Bureau's Cases). The classification concerns non-FBI cases where a duly 
constituted State, county or a municipal law enforcement agency in a 
criminal matter has requested an examination of evidence by the FBI 
Laboratory.
    96. Alien Applicant (obsolete). Title 10, United States Code, 
Section 310.
    97. Foreign Agents Registration Act. Title 18, United States Code, 
Section 951; Title 22, United States Code, Sections 611-621; Title 50, 
United States Code, Sections 851-857.
    98. Sabotage. Title 18, United States Code, Sections 2151-2156; 
Title 50, United States Code, Section 797.
    99. Plant Survey (obsolete). This classification covers a program 
wherein the FBI inspected industrial plants for the purpose of making 
suggestions to the operations of those plants to prevent espionage and 
sabotage.
    100. Domestic Security. This classification covers investigations 
by the FBI in the domestic security field, e.g., Smith Act violations.
    101. Hatch Act (obsolete). Public Law 252, 76th Congress.
    102. Voorhis Act, Title 18, United States Code, Section 1386.
    103. Interstate Transportation of Stolen Livestock, Title 18, 
United States Code, Sections 667, 2311, 2316 and 2317.
    104. Servicemen's Dependents Allowance Act of 1942 (obsolete). 
Public Law 625, 77th Congress, Sections 115-119.
    105. Foreign Counterintelligence Matters. Attorney General 
Guidelines on Foreign Counterintelligence. Executive Order 11905.
    106. Alien Enemy Control; Escaped Prisoners of War and Internees, 
1944-55 (obsolete). Suspects were generally suspected escaped prisoners 
of war, members of foreign organizations, failed to register under the 
Alien Registration Act. Cases ordered closed by Attorney General after 
alien enemies returned to their respective countries upon termination 
of hostilities.
    107. Denaturalization Proceedings (obsolete). This classification 
covers investigation concerning allegations that an individual 
fraudulently swore allegiance to the United States or in some other 
manner illegally obtained citizenship to the U.S. Title 8, United 
States Code, Section 738.
    108. Foreign Travel Control (obsolete). This classification 
concerns security-type investigations wherein the subject is involved 
in foreign travel.
    109. Foreign Political Matters. This classification is a control 
file utilized as a repository for intelligence information concerning 
foreign political matters broken down by country.
    110. Foreign Economic Matters. This classification is a control 
file utilized as a repository for intelligence information concerning 
foreign economic matters broken down by country.
    111. Foreign Social Conditions. This classification is a control 
file utilized as a repository for intelligence information concerning 
foreign social conditions broken down by county.
    112. Foreign Funds. This classification is a control file utilized 
as a repository for intelligence information concerning foreign funds 
broken down by country.
    113. Foreign Military and Naval Matters. This classification is a 
control file utilized as a repository for intelligence information 
concerning foreign military and naval matters broken down by country.
    114. Alien Property Custodian Matter (obsolete). Title 50, United 
States Code, Sections 1 through 38. This classification covers 
investigations concerning ownership and control of property subject to 
claims and litigation under this statute.
    115. Bond Default; Bail Jumper. Title 18, United States Code, 
Sections 3146-3152.
    116. Department of Energy Applicant; Department of Energy, 
Employee. This classification concerns background investigations 
conducted in connection with employment with the Department of Energy.
    117. Department of Energy, Criminal. Title 42, United States Code, 
Sections 2011-2281; Public Law 93-438.
    118. Applicant, Intelligence Agency (obsolete). This classification 
covers applicant background investigations conducted of persons under 
consideration for employment by the Central Intelligence Group.
    119. Federal Regulation of Lobbying Act. Title 2, United States 
Code, ections 261-270.
    120. Federal Tort Claims Act, Title 28, United States Code, 
Sections 2671 to 2680. Investigations are conducted pursuant to 
specific request from the Department of Justice in connection with 
cases in which the Department of Justice represents agencies sued under 
the Act.
    121. Loyalty of Government Employees (obsolete). Executive Order 
9835.
    122. Labor Management Relations Act, 1947. Title 29, United States 
Code, Sections 161, 162, 176-178 and 186.
    123. Section inquiry, State Department, Voice of America (U.S. 
Information Center) (Public Law 402, 80th Congress) (obsolete). This 
classification covers loyalty and security investigations on personnel 
employed by or under consideration for employment for Voice of America.
    124. European Recovery Program Administration, formerly Foreign 
Operations Administration, Economic Cooperation Administration or 
E.R.P., European Recovery Programs; A.I.D. Agency for International 
Development (obsolete). This classification covers security and loyalty 
investigation of personnel employed by or under consideration for 
employment with the European Recovery Program, Public Law 472, 80th 
Congress.
    125. Railway Labor Act; Railway Labor Act--Employer's Liability Act 
Title 45, United States Code, Sections 151-163 and 181-188.
    126. National Security Resources Board, Special Inquiry (obsolete). 
This classification covers loyalty investigations on employees and 
applicants of the National Security Resources Board.
    127. Sensitive Positions in the United States Government, Public 
Law 266 (obsolete). Public Law 81st Congress.
    128. International Development Program (Foreign Operations 
Administration) (obsolete). This classification covers background 
investigations conducted on individuals who are to be assigned to 
duties under the International Development Program.
    129. Evacuation Claims (obsolete). Public Law 886, 80th Congress.
    130. Special Inquiry. Armed Forces Security Act (obsolete). This 
classification covers applicant-type investigations conducted for the 
Armed Forces security agencies.
    131. Admiralty Matter. Title 46, United States Code, Sections 741-
752 and 781-799.
    132. Special Inquiry, Office of Defense Mobilization (obsolete). 
This classification covers applicant-type investigations of individuals 
associated with the Office of Defense Mobilization.
    133. National Science Foundation Act, Applicant (obsolete). Public 
Law 507, 81st Congress.
    134. Foreign Counterintelligence Assets. This classification 
concerns individuals who provide information to the FBI concerning 
Foreign Counterintelligence matters.
    135. PROSAB (Protection of Strategic Air Command Bases of the U.S. 
Air Force (obsolete). This classification covered contacts with 
individuals with the aim to develop information useful to protect bases 
of the Strategic Air Command.
    136. American Legion Contact (obsolete). This classification 
covered liaison contracts with American Legion offices.
    137. Informants. Other than Foreign Counterintelligence Assets. 
This classification concerns individuals who furnish information to the 
FBI concerning criminal violations on a continuing and confidential 
basis.
    138. Loyalty of Employees of the United Nations and Other Public 
International Organizations. This classification concerns FBI 
investigations based on referrals from the Office of Personnel 
Management wherein a question or allegation has been received regarding 
the applicant's loyalty to the U.S. Government as described in 
Executive Order 10422.
    139. Interception of Communications (Formerly, Unauthorized 
Publication or Use of Communications). Title 47, United States Code, 
Section 605; Title 47, United States Code, Section 501; Title 18, 
United States Code, Sections 2510-2513.
    140. Security of Government Employees; Fraud Against the 
Government, Executive Order 10450.
    141. False Entries in Records of Interstate Carriers. Title 47, 
United States Code, Section 220; Title 49, United States Code, Section 
20.
    142. Illegal Use of Railroad Pass. Title 49, United States Code, 
Section 1.
    143. Interstate Transport of Gambling Devices. Title 15, United 
States Code, Sections 1171 through 1180.
    144. Interstate Transportation of Lottery Tickets. Title 18, United 
States Code, Section 1301.
    145. Interstate Transportation of Obscene Materials. Title 18, 
United States Code, Sections 1462, 1464, and 1465.
    146. Interstate Transportation of Prison-Made Goods. Title 18, 
United States Code, Sections 1761 and 1762.
    147. Fraud Against the Government--Department of Housing and Urban 
Development, Matters. Title 18, United States Code, Sections 657, 709, 
1006, and 1010; Title 12, United States Code, Sections 1709 and 1715.
    148. Interstate Transportation of Fireworks. Title 18, United 
States Code, Section 836.
    149. Destruction of Aircraft or Motor Vehicles. Title 18, United 
States Code, Section 31-35.
    150. Harboring of Federal Fugitives, Statistics (obsolete).
    151. (Referral cases received from the Office of Personnel 
Management under Pub. L. 298). Agency for International Development; 
Department of Energy; National Aeronautics and Space Administration; 
National Science Foundation; Peace Corps; Action; U.S. Arms Control and 
Disarmament Agency; World Health Organization; International Labor 
Organization; International Communications Agency. This classification 
covers referrals from the Office of Personnel Management where an 
allegation has been received regarding an applicant's loyalty to the 
U.S. Government. These referrals refer to applicants from Peace Corps; 
Department of Energy, National Aeronautics and Space Administration, 
Nuclear Regulatory Commission, United States Arms Control and 
Disarmament Agency and the International Communications Agency.
    152. Switchblade Knife Act. Title 15, United States Code, Sections 
1241-1244.
    153. Automobile Information Disclosure Act. Title 15, United States 
Code, Sections 1231-1233.
    154. Interstate Transportation of Unsafe Refrigerators. Title 15, 
United States Code, Sections 1211-1214.
    155. National Aeronautics and Space Act of 1958. Title 18, United 
States Code, Section 799.
    156. Employee Retirement Income Security Act. Title 29, United 
States Code, Sections 1021-1029, 1111, 1131, and 1141; Title 18, United 
States Code, Sections 644, 1027, and 1954.
    157. Civil Unrest. This classification concerns FBI responsibility 
for reporting information on civil disturbances or demonstrations. The 
FBI's investigative responsibility is based on the Attorney General's 
Guidelines for Reporting on Civil Disorders and Demonstrations 
Involving a Federal Interest which became effective April 5, 1976.
    158. Labor-Management Reporting and Disclosure Act of 1959 
(Security Matter) (obsolete). Public Law 86-257, Section 504.
    159. Labor-Management Reporting and Disclosure Act of 1959 
(Investigative Matter). Title 29, United States Code, Sections 501, 
504, 522, and 530.
    160. Federal Train Wreck Statute. Title 18, United States Code, 
Section 1992.
    161. Special Inquiries for White House, Congressional Committee and 
Other Government Agencies. This classification covers investigations 
requested by the White House. Congressional committees or other 
Government agencies.
    162. Interstate Gambling Activities. This classification covers 
information acquired concerning the nature and scope of illegal 
gambling activities in each field office.
    163. Foreign Police Cooperation. This classification covers 
requests by foreign police for the FBI to render investigative 
assistance to such agencies.
    164. Crime Aboard Aircraft. Title 49, United States Code, Sections 
1472 and 1473.
    165. Interstate Transmission of Wagering Information. Title 18, 
United States Code, Section 1065.
    166. Interstate Transportation in Aid of Racketeering. Title 18, 
United States Code, Section 1952.
    167. Destruction of Interstate Property. Title 15, United States 
Code, Sections 1281 and 1282.
    168. Interstate Transportation of Wagering Paraphernalia. Title 18, 
United States Code, Section 1953.
    169. Hydraulic Brake Fluid Act (obsolete); 76 Stat. 437, Public Law 
87-637.
    170. Extremist Informants (obsolete). This classification concerns 
individuals who provided information on a continuing basis on various 
extremist elements.
    171. Motor Vehicle Seat Belt Act (obsolete). Pub. L. 88-201, 80th 
Congress.
    172. Sports Bribery. Title 18, United States Code, Section 244.
    173. Public Accommodations. Civil Rights Act of 1964 Public 
Facilities; Civil Rights Act of 1964 Public Education; Civil Rights Act 
of 1964 Employment; Civil Rights Act of 1964. Title 42, United States 
Code, Section 2000; Title 18, United States Code, Section 245.
    174. Explosives and Incendiary Devices; Bomb Threats (Formerly 
Bombing Matters; Bombing Matters, Threats). Title 18, United States 
Code, Section 844.
    175. Assaulting, Kidnapping or Killing the President (or Vice 
President) of the United States. Title 18, United States Code, Section 
1751.
    176. Anti-riot Laws. Title 18, United States Code, Section 245.
    177. Discrimination in Housing. Title 42, United States Code, 
Sections 3601-3619 and 3631.
    178. Interstate Obscene or Harassing Telephone Calls. Title 47, 
United States Code, Section 223.
    179. Extortionate Credit Transactions. Title 18, United States 
Code, Sections 891-896.
    180. Desecration of the Flag. Title 18, United States Code, Section 
700.
    181. Consumer Credit Protection Act. Title 15, United States Code, 
Section 1611.
    182. Illegal Gambling Business: Illegal Gambling Business, 
Obstruction; Illegal Gambling Business Forfeiture. Title 18, United 
States Code, Section 1955; Title 18, United States Code, Section 1511.
    183. Racketeer, Influence and Corrupt Organizations. Title 18, 
United States Code, Sections 1961-1968.
    184. Police Killings. This classification concerns investigations 
conducted by the FBI upon written request from local Chief of Police or 
duty constituted head of the local agency to actively participate in 
the investigation of the killing of a police officer. These 
investigations are based on a Presidential Directive dated June 3, 
1971.
    185. Protection of Foreign Officials and Officials Guests of the 
United States. Title 18, United States Code, Sections 112, 970, 1116, 
1117, and 1201.
    186. Real Estate Settlement Procedures Act of 1974. Title 12, 
United States Code, Section 2602; Title 12, United States Code, Section 
2606, and Title 12, United States Code, Section 2607.
    187. Privacy Act of 1974, Criminal. Title 5, United States Code, 
Section 552a.
    188. Crime Resistance. This classification covers FBI efforts to 
develop new or improved approaches, techniques, systems, equipment and 
devices to improve and strengthen law enforcement as mandated by the 
Omnibus Crime Control and Safe Streets Action of 1968.
    189. Equal Credit Opportunity Act. Title 15, United States Code, 
Section 1691.
    190. Freedom of Information/Privacy Acts. This classification 
covers the creation of a correspondence file to preserve and maintain 
accurate records concerning the handling of requests for records 
submitted pursuant to the Freedom of Information--Privacy Acts.
    191. False Identity Matters. (obsolete) This classification covers 
the FBI's study and examination of criminal elements' efforts to create 
false identities.
    192. Hobbs Act--Financial Institutions; Commercial Institutions 
Armored Carrier. Title 18, United States Code, Section 1951.
    193. Hobbs Act--Commercial Institutions (obsolete). Title 18, 
United States Code, Section 1951; Title 47, United States Code, Section 
506.
    194. Hobbs Act--Corruption of Public Officials. Title 18, United 
States Code, Section 1951.
    195. Hobbs Act--Labor Related. Title 18, United States Code, 
Section 1951.
    196. Fraud by Wire. Title 18, United States Code, Section 1343.
    197. Civil Actions or Claims Against the Government. This 
classification covers all civil suits involving FBI matters and most 
administrative claims filed under the Federal Tort Claims Act arising 
from FBI activities.
    198. Crime on Indian Reservations. Title 18, United States Code, 
Sections 1151, 1152, and 1153.
    199. Foreign Counterintelligence--Terrorism. Attorney General 
Guidelines on Foreign Counterintelligence. Executive Order 11905.
    200. Foreign Counterintelligence Matters. Attorney General 
Guidelines on Foreign Counterintelligence. Executive Order 11905.
    201. Foreign Counterintelligence Matters. Attorney General 
Guidelines on Foreign Counterintelligence. Executive Order 11905.
    202. Foreign Counterintelligence Matters. Attorney General 
Guidelines on Foreign Counterintelligence. Executive Order 11905.
    203. Foreign Counterintelligence Matters. Attorney General 
Guidelines on Foreign Counterintelligence. Executive Order 11905.
    204. Federal Revenue Sharing. This classification covers FBI 
investigations conducted where the Attorney General has been authorized 
to bring civil action whenever he has reason to believe that a pattern 
or practice of discrimination in disbursement of funds under the 
Federal Revenue Sharing status exists.
    205. Foreign Corrupt Practices Act of 1977. Title 15, United States 
Code, Section 78.
    206. Fraud Against the Government--Department of Defense, 
Department of Agriculture, Department of Commerce, Community Services 
Organization, Department of Transportation. (See classification 46 
(supra) for a statutory authority for this and the four following 
classifications.)
    207. Fraud Against the Government--Environmental Protection Agency, 
National Aeronautics and Space Administration, Department of Energy, 
Department of Transportation.
    208. Fraud Against the Government--General Services Administration.
    209. Fraud Against the Government--Department of Health and Human 
Services (Formerly Department of Health, Education, and Welfare).
    210. Fraud Against the Government--Department of Labor.
    211. Ethics in Government Act of 1978, Title VI (Title 28, Sections 
591-596).
    212. Foreign Counterintelligence--Intelligence Community Support. 
This is an administrative classification for the FBI's operational and 
technical support to other Intelligence Community agencies.
    213. Fraud Against the Government--Department of Education.
    214. Civil Rights of Institutionalized Persons Act (Title 42, 
United States Code, Section 1997).
    215. Foreign Counterintelligence Matters. Attorney General 
Guidelines on Foreign Counterintelligence. Executive Order 11905.
    216. thru 229. Foreign Counterintelligence Matters. (Same authority 
as 215.)
    230. thru 240. FBI Training Matters.
    241. DEA Applicant Investigations.
    242. Automation Matters.
    243. Intelligence Identities Protection Act of 1982.
    244. Hostage Rescue Team.
    245. Drug Investigative Task Force.
    246 thru 248. Foreign Counterintelligence Matters. (Same authority 
as 215.)
    249. Environmental Crimes--Investigations involving toxic or 
hazardous waste violations.
    250. Tampering With Consumer Products (Title 18, U.S. Code, Section 
1395).
    251. Controlled Substance--Robbery;--Burglary (Title 18, U.S. Code, 
section 2118).
    252. Violent Crime Apprehension Program (VICAP). Case folders 
containing records relevant to the VICAP Program, in conjunction with 
the National Center for the Analysis of Violent Crime Record System at 
the FBI Academy; Quantico, Virginia.
    253. False Identification Crime Control Act of 1982 (Title 18, U.S. 
Code, Section 1028--Fraud and Related Activity in Connection With 
Identification Documents, and Section 1738--Mailing Private 
Identification Documents Without a Disclaimer).
    254. Destruction of Energy Facilities (Title 18, U.S. Code, Section 
1365) relates to the destruction of property of nonnuclear energy 
facilities.
    255. Counterfeiting of State and Corporate Securities (Title 18, 
U.S. Code, Section 511) covers counterfeiting and forgery of all forms 
of what is loosely interpreted as securities.
    256. Hostage Taking--Terrorism (Title 18, U.S. Code, Section 1203) 
prohibits taking of hostage(s) to compel third party to do or refrain 
from doing any act.
    257. Trademark Counterfeiting Act (Title 18, United States Code, 
section 2320) covers the international trafficking in goods which bear 
a counterfeited trademark.
    258. Credit Card Fraud Act of 1984 (Title 18, United States Code, 
section 1029) covers fraud and related activities in connection with 
access devices (credit and debit cards).
    259. Security Clearance Investigations Program. (Same authority as 
215.)
    260. Industrial Security Program. (Same authority as 215.)
    261. Security Officer Matters. (Same authority as 215.)
    262. Overseas Homicide (Attempted Homicide--International 
Terrorism). Title 18, United States Code, Section 2331.
    263. Office of Professional Responsibility Matters.
    264. Computer Fraud and Abuse Act of 1986. Electronic 
Communications Privacy Act of 1986. Title 18, United States Code, 
Section 1030; Title 18, United States Code, Section 2701.
    265. Acts of Terrorism in the United States--International 
Terrorist. (Followed by predicate offense from other classification.)
    266. Acts of Terrorism in the United States--Domestic Terrorist. 
(Followed by predicate offense from other classification.)
    267. Drug-Related Homicide. Title 21, U.S. Code, Section 848(e).
    268. Engineering Technical Matters--FCI.
    269. Engineering Technical Matters--Non-FCI.
    270. Cooperative Witnesses.
    271. Foreign Counterintelligence Matters. Attorney General 
Guidelines on Foreign Counterintelligence. Executive Order 11905.
    272. Money Laundering. Title 18, U.S. Code, Sections 1956 and 1957.
    273. Adoptive Forfeiture Matter--Drug. Forfeiture based on seizure 
of property by state, local or other Federal authority.
    274. Adoptive Forfeiture Matter--Organized Crime. (Same explanation 
as 273.)
    275. Adoptive Forfeiture Matter--White Collar Crime. (Same 
explanation as 273.)
    276. Adoptive Forfeiture Matter--Violent Crime/Major Offenders 
Program. (Same explanation as 273.)
    277. Adoptive Forfeiture Matter--Counterterrorism Program. (Same 
explanation as 273.)
    278. Presidents Intelligence Oversight Board. Executive Order 
12334.
    279. Biological Weapons Anti-Terrorism Act of 1989. (Title 18, U.S. 
Code, Sections 175-179).
    280. Equal Employment Opportunity Investigations.
    281. Organized Crime Drug Investigations. Records Maintained in FBI 
Field Divisions--FBI field divisions maintain for limited periods of 
time investigative, administrative and correspondence records, 
including files, index cards and related material, some of which are 
duplicated copies of reports and similar documents forwarded to FBI 
Headquarters. Most investigative activities conducted by FBI field 
divisions are reported to FBI Headquarters at one or more stages of the 
investigation. There are, however, investigative activities wherein no 
reporting was made to FBI Headquarters, e.g., pending cases not as yet 
reported and cases which were closed in the field division for any of a 
number of reasons without reporting to FBI Headquarters.
    Duplicate records and records which extract information reported in 
the main files are also kept in the various divisions of the FBI to 
assist them in their day-to-day operation. These records are lists of 
individuals which contain certain biographic data, including physical 
description and photograph. They may also contain information 
concerning activities of the individual as reported to FBIHQ by the 
various field offices. The establishment of these lists is necessitated 
by the needs of the Division to have immediate access to pertinent 
information duplicative of data found in the central records without 
the delay caused by a time-consuming manual search of central indices. 
The manner of segregating these individuals varies depending on the 
particular needs of the FBI Division. The information pertaining to 
individuals who are a part of the list is derivative of information 
contained in the Central Records System. These duplicative records fall 
into the following categories:
    (1) Listings of individuals used to assist in the location and 
apprehension of individuals for whom legal process is outstanding 
(fugitives):
    (2) Listings of individuals used in the identification of 
particular offenders in cases where the FBI has jurisdiction. These 
listings include various photograph albums and background data 
concerning persons who have been formerly charged with a particular 
crime and who may be suspect in similar criminal activities; and 
photographs of individuals who are unknown but suspected of involvement 
in a particular criminal activity, for example, bank surveillance 
photographs:
    (3) Listings of individuals as part of an overall criminal 
intelligence effort by the FBI. This would include photograph albums, 
lists of individuals known to be involved in criminal activity, 
including theft from interstate shipment, interstate transportation of 
stolen property, and individuals in the upper echelon of organized 
crime:
    (4) Listings of individuals in connection with the FBI's mandate to 
carry out Presidential directives on January 8, 1943, July 24, 1950, 
December 15, 1953, and February 18, 1976, which designated the FBI to 
carry out investigative work in matters relating to espionage, 
sabotage, and foreign counterintelligence. These listings may include 
photograph albums and other listings containing biographic data 
regarding individuals. This would include lists of identified and 
suspected foreign intelligence agents and informants:
    (5) Special indices duplicative of the central indices used to 
access the Central Records System have been created from time to time 
in conjunction with the administration and investigation of major 
cases. This duplication and segregation facilitates access to documents 
prepared in connection with major cases.
    In recent years, as the emphasis on the investigation of white 
collar crime, organized crime, and hostile foreign intelligence 
operations has increased, the FBI has been confronted with increasingly 
complicated cases, which require more intricate information processing 
capabilities. Since these complicated investigations frequently involve 
massive volumes of evidence and other investigative information, the 
FBI uses its computers, when necessary to collate, analyze, and 
retrieve investigative information in the most accurate and expeditious 
manner possible. It should be noted that this computerized 
investigative information, which is extracted from the main files or 
other commercial or governmental sources, is only maintained as 
necessary to support the FBI's investigative activities. Information 
from these internal computerized subsystems of the ``Central Records 
System'' is not accessed by any other agency. All disclosures of 
computerized information are made in printed form or other appropriate 
format, in accordance with the routine uses which are set forth below 
and in compliance with applicable security requirements.
    Records also are maintained on a temporary basis relevant to the 
FBI's domestic police cooperating program, where assistance in 
obtaining information is provided to state and local police agencies. 
Also, personnel type information, dealing with such matters as 
attendance and production and accuracy requirements is maintained by 
some divisions.

(The following chart identifies various listings or indexes maintained 
by the FBI which have been or are being used by various divisions of 
the FBI in their day-to-day operations. The chart identifies the list 
by name, description and use, and where maintained, i.e., FBI 
Headquarters and/or Field Office. The number of field offices which 
maintain these indices is also indicated. The list indicates those 
indexes which are in current use (designated by the word ``active'') 
and those which are no longer being used, although maintained 
(designated by the word ``inactive''). There are 27 separate indices 
which are classified in accordance with existing regulations and are 
not included in this list. The following indices are no longer being 
used by the FBI and are being maintained at FBIHQ pending receipt of 
authority to destroy: Black Panther Party Photo Index; Black United 
Front Index; Security Index; and Wounded Knee Album.)
    1. Administrative Index (ADEX). Consists of cards with descriptive 
data on individuals who were subject to investigation in a national 
emergency because they were believed to constitute a potential or 
active threat to the internal security of the United States. When ADEX 
was started in 1971, it was made up of people who were formerly on the 
Security Index, Reserve Index, and Agitator Index. This index is 
maintained in two separate locations in FBI Headquarters. ADEX was 
discontinued in January 1978. This list is inactive at FBI Headquarters 
and 29 Field Offices.
    2. Anonymous Letter File. Consists of photographs of anonymous 
communications and extortionate credit transactions, kidnapping, 
extortion and threatening letters. It is active at FBI Headquarters.
    3. Associates of DEA Class I Narcotics Violators Listing. Consists 
of a computer listing of individuals whom DEA has identified as 
associates of Class I Narcotics Violators. It is active at FBI 
Headquarters and 56 Field Offices.
    4. Background Investigation Index--Department of Justice. Consists 
of cards on persons who have been the subject of a full field 
investigation in connection with their consideration of employment in 
sensitive positions with Department of Justice, such as U.S. Attorney, 
Federal judges, or a high level Department position. It is active at 
FBI Headquarters.
    5. Background Investigation Index--White House, Other Executive 
Agencies, and Congress. Consists of cards on persons who have been the 
subject of a full field investigation in connection with their 
consideration for employment in sensitive positions with the White 
House, Executive agencies (other than the Department of Justice) and 
the Congress. Active at FBI Headquarters.
    6. Bank Fraud and Embezzlement Index. Consists of individuals who 
have been the subject of ``Bank Fraud and Embezzlement'' investigation. 
This file is used as an investigative aid. It is active in one Field 
Office.
    7. Bank Robbery Album. Consists of photos of bank robbers, 
burglars, and larceny subjects. In some field offices it will also 
contain pictures obtained from local police departments of known armed 
robbers and thus potential bank robbers. The index is used to develop 
investigative leads in bank robbery cases and may also be used to show 
to witnesses of bank robberies. It is usually filed by race, height, 
and age. This index is also maintained in one resident agency (a 
suboffice of a field office). Active in 47 Field Offices.
    8. Bank Robbery Nickname Index. Consists of nicknames used by known 
bank robbers. The index cards on each would contain the real name and 
method of operation and are filed in alphabetical order. Active in one 
Field Office.
    9. Bank Robbery Note File. Consists of photographs of notes used in 
bank robberies in which the suspect has been identified. This index is 
used to help solve robberies in which the subject has not been 
identified but a note was left. The role is compared with the index to 
try to match the sentence structure and handwriting for the purpose of 
identifying possible suspects. Active at FBI Headquarters.
    10. Bank Robbery Suspect Index. Consists of a control file or index 
cards with photos, if available, of bank robbers or burglars. In some 
field offices these people may be part of a bank robbery album. This 
index is generally maintained and used in the same manner as the bank 
robbery album. Active in 33 Field Offices.
    11. Car Ring Case Photo Album. Consists of photos of subjects and 
suspects involved in a large car theft ring investigation. It is used 
as an investigative aid. Active in one Field Office.
    12. Car Ring Case Photo Album and Index. Consists of photos of 
subjects and suspects involved in a large car theft ring investigation. 
The card index maintained in addition to the photo album contains the 
names and addresses appearing on fraudulent title histories for stolen 
vehicles. Most of these names appearing on these titles are fictitious. 
But the photo album and card indexes are used as an investigative aid. 
Active in one Field Office.
    13. Car Ring Case Toll Call Index. Consists of cards with 
information on persons who subscribe to telephone numbers to which toll 
calls have been placed by the major subjects of a large car theft ring 
investigation. It is maintained numerically by telephone number. It is 
used to facilitate the development of probable cause for a court-
approved wiretap. Active in two Field Offices.
    14. Car Ring Theft Working Index. Contains cards on individuals 
involved in car ring theft cases on which the FBI Laboratory is doing 
examination work. Active at FBI Headquarters.
    15. Cartage Album. Consists of photos with descriptive data of 
individuals who have been convicted of theft from interstate shipment 
or interstate transportation of stolen property where there is a reason 
to believe they may request the offense. It is used in investigating 
the above violations. Active in three Field Offices.
    16. Channelizing Index. Consists of cards with the names and case 
file numbers of people who are frequently mentioned in information 
reports. The index is used to facilitate the distributing or channeling 
of information reports to appropriate files. Active in nine Field 
Offices.
    17. Check Circular File. Consists of fliers numerically in a 
control file on fugitives who are notorious fraudulent check passers 
and who are engaged in a continuing operation of passing checks. The 
fliers, which include the subject's name, photo, a summary of the 
subject's method of operation and other identifying data, are used to 
alert other FBI field offices and business establishments which may be 
the victims of bad checks.
    18. Computerized Telephone Number File (CTNF) Intelligence. 
Consists of a computer listing of telephone numbers (and) subscribers' 
names and addresses) utilized by subjects and/or certain individuals 
which come to the FBI's attention during major investigations. During 
subsequent investigations, telephone numbers, obtained through 
subpoena, are matched with the telephone numbers on file to determine 
connections or associations. Active at FBI Headquarters.
    19. Con Man Index. Consists of computerized names of individuals, 
along with company affiliation, who travel nationally and 
internationally while participating in large-dollar-value financial 
swindles. Active in four Field Offices.
    20. Confidence Game (Flim Flam) Album. Consists of photos with 
descriptive information on individuals who have been arrested for 
confidence games and related activities. It is used as an investigative 
aid. Active in one Field Office.
    21. Copyright Matters Index. Consists of cards of individuals who 
are film collectors and film titles. It is used as a reference in the 
investigation of copyright matters. Active in one Field Office.
    22. Criminal Intelligence Index. Consists of cards with name and 
file number of individuals who have become the subject of an 
antiracketeering investigation. The index is used as a quick way to 
ascertain file numbers and the correct spelling of names. This index is 
active in two Field Offices and one Resident Agency.
    23. Criminal Informant Index. Consists of cards containing identity 
and brief background information on all active and inactive informants 
furnishing information in the criminal area. Active at FBI 
Headquarters.
    24. DEA Class 1 Narcotics Violators Listing. Consists of a computer 
listing of narcotic violators--persons known to manufacture, supply, or 
distribute large quantities of illicit drugs--with background data. It 
is used by the FBI in their role of assisting DEA in disseminating 
intelligence data concerning illicit drug trafficking. This index is 
also maintained in two resident agencies.
    25. Deserter Index. Contains cards with the names of individuals 
who are known military deserters. It is used as an investigative aid. 
Active in four Field Offices.
    26. False Identities Index. Contains cards with the names of 
deceased individuals whose birth certificates have been obtained by 
other persons for possible false identification uses and in connection 
with which the FBI laboratory has been requested to perform 
examinations. Inactive at FBI Headquarters.
    27. False Identities List. Consists of a listing of names of 
deceased individuals whose birth certificates have been obtained after 
the person's death, and thus whose names are possibly being used for 
false identification purposes. The listing is maintained as part of the 
FBI's program to find persons using false identities for illegal 
purposes. Inactive at 31 Field Offices.
    28. False Identity Photo Album. Consists of names and photos of 
people who have been positively identified as using a false 
identification. This is used as an investigative aid in the FBI's 
investigation of false identities. Inactive in two Field Offices.
    29. FBI/Inspector General (IG) Case Pointer System (FICPS). 
Consists of a computerized listing of individual names of organizations 
which are the subject of active and inactive fraud investigations, 
along with the name of the agency conducting the investigation. Data is 
available to IG offices throughout the federal government to prevent 
duplication of investigative activity. Active at FBI Headquarters.
    30. FBI Wanted Persons Index. Consists of cards on persons being 
sought on the basis of Federal warrants covering violations which fall 
under the jurisdiction of the FBI. It is used as a ready reference to 
identify those fugitives. Active at FBI Headquarters.
    31. Foreign Counterintelligence (FCI). Consists of cards with 
identity background data on all active and inactive operational and 
informational assets in the foreign counterintelligence field. It is 
used as a reference aid on the FCI Asset program. Active at FBI 
Headquarters.
    32. Fraud Against the Government Index. Consists of individuals who 
have been the subject of a ``fraud against the 
Government''investigation. It is used as an investigative aid. Active 
in one Field Office.
    33. Fugitive Bank Robbers File. Consists of fliers on bank robbery 
fugitives filed sequentially in a control file. FBI Headquarters 
distributes to the field offices fliers on bank robbers in a fugitive 
status for 15 or more days to facilitate their location. Active at FBI 
Headquarters and in 43 Field Offices.
    34. General Security Index. Contains cards on all persons that have 
been the subject of a security classification investigation by the FBI 
field office. These cards are used for general reference purposes. 
Active in one Field Office.
    35. Hoodlum License Plate Index. Consists of cards with the license 
plate numbers and descriptive data on known hoodlums and cars observed 
in the vicinity of hoodlum homes. It is used for quick identification 
of such person in the course of investigation. The one index which is 
not fully retrievable is maintained by a resident agency. Active in 
three Field Offices.
    36. Identification Order Fugitive Flier File. Consists of fliers 
numerically in a control file. When immediate leads have been exhausted 
in fugitive investigations and a crime of considerable public interest 
has been committed, the fliers are given wide circulation among law 
enforcement agencies throughout the United States and are posted in 
post offices. The fliers contain the fugitive's photograph, 
fingerprints, and description. Active at FBI Headquarters and in 49 
Field Offices.
    37. Informant Index. Consists of cards with the name, symbol 
numbers, and brief background information on the following categories 
of active and inactive informants, top echelon criminal informants, 
security informants, criminal information, operational and 
informational assets, extremist informants (discontinued), plant 
informant--informants on and about certain military basis 
(discontinued), and potential criminal informants. Active in 56 Field 
Offices.
    38. Informants in Other Field Offices, Index of. Consist of cards 
with names and/or symbol numbers of informants in other FBI field 
offices that are in a position to furnish information that would also 
be included on the index card. Active in 15 Field Offices.
    39. Interstate Transportation of Stolen Aircraft Photo Album. 
Consists of photos and descriptive data on individuals who are suspects 
known to have been involved in interstate transportation of stolen 
aircraft. It is used as an investigative aid. Active in one Field 
Office.
    40. IRS Wanted List. Consists of one-page fliers from IRS on 
individuals with background information who are wanted by IRS for tax 
purposes. It is used in the identification of persons wanted by IRS. 
Active in 11 Field Offices.
    41. Kidnapping Book. Consists of data, filed chronologically, on 
kidnappings that have occurred since the early fifties. The victims' 
names and the suspects, if known, would be listed with a brief 
description of the circumstances surrounding the kidnapping. The file 
is used as a reference aid in matching up prior methods of operation in 
unsolved kidnapping cases. Active at FBI Headquarters and inactive in 
four Field Offices.
    42. Known Check Passers Album. Consists of photos with descriptive 
data of persons known to pass stolen, forged, or counterfeit checks. It 
is used as an investigative aid. Active in four Field Offices.
    43. Known Gambler Index. Consists of cards with names, descriptive 
data, and sometimes photos of individuals who are known bookmakers and 
gamblers. The index is used in organized crime and gambling 
investigations. Subsequent to GAO's review, and at the recommendation 
of the inspection team at one of the two field offices where the index 
was destroyed and thus is not included in the total. Active in five 
Field Offices.
    44. La Cosa Nostra (LCN) Membership Index. Contains cards on 
individuals having been identified as members of the LCN index. The 
cards contain personal data and pictures. The index is used solely by 
FBI agents for assistance in investigating organized crime matters. 
Active at FBI Headquarters and 55 Field Offices.
    45. Leased Line Letter Request Index. Contains cards on individuals 
and organizations who are or have been the subject of a national 
security electronic surveillance where a leased line letter was 
necessary. It is used as an administrative and statistical aid. Active 
at FBI Headquarters.
    46. Mail Cover Index. Consists of cards containing a record of all 
mail covers conducted on individuals and group since about January 
1973. It is used for reference in preparing mail cover requests. Active 
at FBIHQ.
    47. Military Deserter Index. Consists of cards containing the names 
of all military deserters where the various military branches have 
requested FBI assistance in locating. It is used as an administrative 
aid. Active at FBI Headquarters.
    48. National Bank Robbery Album. Consists of fliers on bank robbery 
suspects held sequentially in a control file. When an identifiable bank 
camera photograph is available and the case has been under 
investigation for 30 days without identifying the subject, FBIHQ sends 
a flier to the field offices to help identify the subject. Active at 
FBI Headquarters and in 42 Field Offices.
    49. National Fraudulent Check File. Contains photographs of the 
signature on stolen and counterfeit checks. It is filed alphabetically 
but there is no way of knowing the names are real or fictitious. The 
index is used to help solve stolen check cases by matching checks 
obtained in such cases against the index to identify a possible 
suspect. Active at FBI Headquarters.
    50. National Security Electronic Surveillance Card File. Contains 
cards recording electronic surveillances previously authorized by the 
Attorney General and previously and currently authorized by the FISC; 
current and previous assets in the foreign counterintelligence field; 
and a historical, inactive section which contains cards believed to 
record nonconsented physical entries in national security cases, 
previously toll billings, mail covers and leased lines. The inactive 
section also contains cards Attorney General approvals and denials for 
warrantless electronic surveillance in the national security cases. 
Inactive at FBI Headquarters.
    51. Night Depository Trap Index. Contains cards with the names of 
persons who have been involved in the theft of deposits made in bank 
night depository boxes. Since these thefts have involved various 
methods, the FBI uses the index to solve such cases by matching up 
similar methods to identify possible suspects. Active at FBI 
Headquarters.
    52. Organized Crime Photo Album. Consists of photos and background 
information on individuals involved in organized crime activities. The 
index is used as a ready reference in identifying organized crime 
figures within the field offices' jurisdiction. Active in 13 Field 
Offices.
    53. Photospread Identification Elimination File. Consists of photos 
of individuals who have been subjects and suspects in FBI 
investigations. It also includes photos received from other law 
enforcement agencies. These pictures can be used to show witnesses of 
certain crimes. Active in 14 Field Offices.
    54. Prostitute Photo Album. Consists of photos with background data 
on prostitutes who have prior local or Federal arrests for 
prostitution. It is used to identify prostitutes in connection with 
investigations under the White Slave Traffic Act. Active in four Field 
Offices.
    55. Royal Canadian Mounted Policy (RCMP) Wanted Circular File. 
Consists of a control file of individuals with background information 
of persons wanted by the RCMP. It is used to notify the RCMP if an 
individual is located. Active in 17 Field Offices.
    56. Security Informant Index. Consists of cards containing identity 
and brief background information on all active and inactive informants 
furnishing information in the criminal area. Active at FBI 
Headquarters.
    57. Security Subjects Control Index. Consists of cards containing 
the names and case file numbers of individuals who have been subject to 
security investigations check. It is used as a reference source. Active 
in one Field Office.
    58. Security Telephone Number Index. Contains cards with telephone 
subscriber information subpoenaed from the telephone company in any 
security investigation. It is maintained numerically by the last three 
digits in the telephone number. It is used for general reference 
purposes in security investigations. Active in one Field Office.
    59. Selective Service Violators Index. Contains cards on 
individuals being sought on the basis of Federal warrants for violation 
of the Selective Service Act. Active at FBI Headquarters.
    60. Sources of Information Index. Consists of cards on individuals 
and organizations such as banks, motels, local government that are 
willing to furnish information to the FBI with sufficient frequency to 
justify listing for the benefit of all agents. It is maintained to 
facilitate the use of such sources. Active in 10 Field Offices.
    61. Special Services Index. Contains cards of prominent individuals 
who are in a position to furnish assistance in connection with FBI 
investigative responsibility. Active in 28 Field Offices.
    62. Stolen Checks and Fraud by Wire Index. Consists of cards on 
individuals involved in check and fraud by wire violations. It is used 
as an investigative aid. Active in one Field Office.
    63. Stop Notices Index. Consists of cards on names of subjects or 
property where the field office has placed a stop at another law 
enforcement agency or private business such as pawn shops in the event 
information comes to the attention of that agency concerning the 
subject or property. This is filed numerically by investigative 
classification. It is used to insure that the agency where the stop is 
placed is notified when the subject is apprehended or the property is 
located or recovered. Active in 43 Field Offices.
    64. Surveillance Locator Index. Consists of cards with basic data 
on individuals and businesses which have come under physical 
surveillance in the city in which the field office is located. It is 
used for general reference purposes in antiracketeering investigations. 
Active in two Field Offices.
    65. Telephone Number Index--Gamblers. Contains information on 
persons identified usually as a result of a subpoena for the names of 
subscribers to particular telephone numbers or toll records for a 
particular phone number of area gamblers and bookmakers. The index 
cards are filed by the last three digits of the telephone number. The 
index is used in gambling investigations. Active in two Field Offices.
    66. Telephone Subscriber and Toll Records Check Index. Contains 
cards with information on persons identified as the result of a formal 
request or subpoena to the phone company for the identity of 
subscribers to particular telephone numbers. The index cards are filed 
by telephone number and would also include identity of the subscriber, 
billing party's identity, subscriber's address, date of request from 
the telephone company, and file number. Active in one Field Office.
    67. Thieves, Couriers and Fences Photo Index. Consists of photos 
and background information on individuals who are or are suspected of 
being thieves, couriers, or fences based on their past activity in the 
area of interstate transportation of stolen property. It is used as an 
investigative aid. Active in four Field Offices.
    68. Toll Record Request Index. Contains cards on individuals and 
organizations on whom toll records have been obtained in national 
security related cases and with respect to which FBIHQ had to prepare a 
request letter. It is used primarily to facilitate the handling of 
repeat requests on individuals listed. Active at FBIHQ.
    69. Top Burglar Album. Consists of photos and background data of 
known and suspect top burglars involved in the area of interstate 
transportation of stolen property. It is used as an investigative aid. 
Active in four Field Offices.
    70. Top Echelon Criminal Informer Program (TECIP) Index. Consists 
of cards containing identity and brief background information on 
individuals who are either furnishing high level information in the 
organized crime area or are under development to furnish such 
information. The index is used primarily to evaluate, corroborate, and 
coordinate informant information and to develop prosecutive data 
against racket figures under Federal, State, and local statutes. Active 
at FBI Headquarters.
    71. Top Ten Program File. Consists of fliers, filed numerically in 
a control file, on fugitives considered by the FBI to be 1 of the 10 
most wanted. Including a fugitive of the top 10 usually assures a 
greater national news coverage as well as nation-wide circulation of 
the flier. Active at FBI Headquarters and in 44 Field Offices.
    72. Top Thief Program Index. Consists of cards of individuals who 
are professional burglars, robbers, or fences dealing in items likely 
to be passed in interstate commerce or who travel interstate to commit 
the crime. Usually photographs and background information would also be 
obtained on the index card. The index is used as an investigative aid. 
Active in 27 Field Offices.
    73. Truck Hijack Photo Album. Contains photos and descriptive data 
of individuals who are suspected truck hijackers. It is used as an 
investigative aid and for displaying photos to witnesses and/or victims 
to identify unknown subjects in hijacking cases. Active in four Field 
Offices.
    74. Truck Thief Suspect Photo Album. Consists of photos and 
background data on individuals previously arrested or are currently 
suspects regarding vehicle theft. The index is used as an investigative 
aid. Active in one Field Office.
    75. Traveling Criminal Photo Album. Consists of photos with 
identifying data of individuals convicted of various criminal offenses 
and may be suspects in other offenses. It is used as an investigative 
aid. Active in one Field Office.
    76. Veterans Administrative (VA)/Federal Housing Administration 
(FHA) Matters Index. Consists of cards of individuals who have been 
subject of an investigation relative to VA and FHA matters. It is used 
as an investigative aid. Active in one Field Office.
    77. Wanted Fliers File. Consists of fliers, filed numerically in a 
control file, on badly wanted fugitives whose apprehension may be 
facilitated by a flier. The flier contains the names, photographs, 
aliases, previous convictions, and a caution notice. Active at FBI 
Headquarters and in 46 Field Offices.
    78. Wheeldex. Contains the nicknames and the case file numbers of 
organized crime members. It is used in organized crime investigations. 
Active in one Field Office.
    79. White House Special Index. Contains cards on all potential 
White House appointees, staff members, guests, and visitors that have 
been referred to the FBI by the White House security office for a 
records check to identify any adverse or derogatory information. This 
index is used to expedite such check in view of the tight timeframe 
usually required. Active at FBI Headquarters.
    80. Witness Protection Program Index. Contains cards on individuals 
who have been furnished a new identity by the U.S. Justice Department 
because of their testimony in organized crime trials. It is used 
primarily to notify the U.S. Marshals Service when information related 
to the safety of a protected witness comes to the FBI's attention. 
Active at FBI Headquarters.
            Authority for maintenance of the system:
    Federal Records Act of 1950, Title 44, United States Code, chapter 
31, section 3101; and title 36, Code of Federal Regulations, chapter 
XII, require Federal agencies to insure that adequate and proper 
records are made and preserved to document the organization, functions, 
policies, decisions, procedures and transactions and to protect the 
legal and financial rights of the Federal Government, title 28, United 
States Code, section 534, delegates authority to the Attorney General 
to acquire, collect, classify, and preserve identification, criminal 
identification, crime and other records.
            Routine uses of records maintained in the system, including 
                    categories of users and the purposes of such uses:
    Records, both investigative and administrative, are maintained in 
this system in order to permit the FBI to function efficiently as an 
authorized, responsive component of the Department of Justice. 
Therefore, information in this system is disclosed to officials and 
employees of the Department of Justice, and/or all components thereof, 
who have need of the information in the performance of their official 
duties.
    Personal information from this system may be disclosed as a routine 
use to any Federal agency where the purpose in making the disclosure is 
compatible with the law enforcement purpose for which it was collected, 
e.g., to assist the recipient agency in conducting a lawful criminal or 
intelligence investigation, to assist the recipient agency in making a 
determination concerning an individual's suitability for employment 
and/or trustworthiness for employment and/or trustworthiness for access 
clearance purposes, or to assist the recipient agency in the 
performance of any authorized function where access to records in this 
system is declared by the recipient agency to be relevant to that 
function.
    In addition, personal information may be disclosed from this system 
to members of the Judicial Branch of the Federal Government in response 
to a specific request, or at the initiation of the FBI, where 
disclosure appears relevant to the authorized function of the recipient 
judicial office or court system. An example would be where an 
individual is being considered for employment by a Federal judge. 
Information in this system may be disclosed as a routine use to any 
state or local government agency directly engaged in the criminal 
justice process, e.g., police, prosecution, penal, probation and 
parole, and the judiciary, where access is directly related to a law 
enforcement function of the recipient agency, e.g., in connection with 
a lawful criminal or intelligence investigation, or making a 
determination concerning an individual's suitability for employment as 
a state or local law enforcement employee or concerning a victim's 
compensation under a state statute. Disclosure to a state or local 
government agency, (a) not directly engaged in the criminal justice 
process or (b) for a licensing or regulatory function, is considered on 
an individual basis only under exceptional circumstances, as determined 
by the FBI.
    Information in this system pertaining to the use, abuse or traffic 
of controlled substances may be disclosed as a routine use to federal, 
state or local law enforcement agencies and to licensing or regulatory 
agencies empowered to engage in the institution and prosecution of 
cases before courts and licensing boards in matters relating to 
controlled substances, including courts and licensing boards 
responsible for the licensing or certification of individuals in the 
fields of pharmacy and medicine.
    In any health care-related civil or criminal case, investigation, 
or matter, information indicating patient harm, neglect, or abuse, or 
poor or inadequate quality of care, at a health care facility or by a 
health care provider, may be disclosed as a routine use to any Federal, 
State, local, tribal, foreign, joint, international, or private entity 
that is responsible for regulating, licensing, registering, or 
accrediting any health care provider or health care facility, or 
enforcing any health care-related laws or regulations. Further, 
information indicating an ongoing quality of care problem by a health 
care provider or at a health care facility may be disclosed to the 
appropriate health plan. Additionally, unless otherwise prohibited by 
applicable law, information indicating patient harm, neglect, abuse, or 
poor or inadequate quality of care may be disclosed to the affected 
patient or his or her representative or guardian at the discretion of 
and in the manner determined by the agency in possession of the 
information. Information in this system may be disclosed as a routine 
use in a proceeding before a court of adjudicative body, e.g., the 
Equal Employment Opportunity Commission and the Merit Systems 
Protection Board, before which the FBI is authorized to appear, when 
(a) the FBI or any employee thereof in his or her official capacity, or 
(b) any employee in his or her individual capacity where the Department 
of Justice has agreed to represent the employee, or (c) the United 
States, where the FBI determines it is likely to be affected by the 
litigation, is a party to litigation or has an interest in litigation 
and such records are determined by the FBI to be relevant to the 
litigation.
    Information in this system may be disclosed as a routine use to an 
organization or individual in both the public or private sector if 
deemed necessary to elicit information or cooperation from the 
recipient for use by the FBI in the performance of an authorized 
activity. An example would be where the activities of an individual are 
disclosed to a member of the public in order to elicit his/her 
assistance in our apprehension or detection efforts.
    Information in this system may be disclosed as a routine use to an 
organization or individual in both the public or private sector where 
there is reason to believe the recipient is or could become the target 
of a particular criminal activity or conspiracy, to the extent the 
information is relevant to the protection of life or property.
    Information in this system may be disclosed to legitimate agency of 
a foreign government where the FBI determines that the information is 
relevant to that agency's responsibilities, and dissemination serves 
the best interests of the U.S. Government, and where the purpose in 
making the disclosure is compatible with the purpose for which the 
information was collected.
    Relevant information may be disclosed from this system to the news 
media and general public where there exists a legitimate public 
interest, e.g., to assist in the location of Federal fugitives, to 
provide notification of arrests, and where necessary for protection 
from imminent threat of life or property. This would include releases 
of information in accordance with 28 CFR 50.2.
    A record relating to an actual or potential civil or criminal 
violation of the copyright statute, Title 17, United States Code, or 
the trademark statutes. Titles 15 and 17, U.S. Code, may be 
disseminated to a person injured by such violation to assist him/her in 
the institution or maintenance of a suit brought under such titles. The 
FBI has received inquiries from private citizens and Congressional 
offices on behalf of constituents seeking assistance in locating 
individuals such as missing children and heirs to estates. Where the 
need is acute, and where it appears FBI files may be the only lead in 
locating the individual, consideration will be given to furnishing 
relevant information to the requester. Information will be provided 
only in those instances where there are reasonable grounds to conclude 
from available information the individual being sought would want the 
information to be furnished, e.g., an heir to a large estate. 
Information with regard to missing children will not be provided where 
they have reached their majority.
    Information contained in this system, may be made available to a 
Member of Congress or staff acting upon the member's behalf when the 
member of staff requests the information in behalf of and at the 
request of the individual who is the subject of the record.
    A record from this system of records may be disclosed as a routine 
use to the National Archives and Records Administration and General 
Services Administration in records management inspections conducted 
under the authority of 44 U.S.C. 2904 and 2906, to the extent that 
legislation governing the records permits.
            Policies and practices for storing, retrieving, accessing, 
                    retaining, and disposing of records in the system:
            Storage:
    The active main files are maintained in hard copy form and some 
inactive records are maintained on microfilm. Investigative information 
which is maintained in computerized form may be stored in memory, on 
disk storage, on computer tape, or on a computer printed listing.
            Retrievability:
    The FBI General Index must be searched to determine what 
information, if any, the FBI may have in its files. Index records, or 
pointers to specific FBI files, are created on all manner of subject 
matters, but the predominant type record is the name index record. It 
should be noted the FBI does not index all individuals who furnish 
information or all names developed during the course of an 
investigation. Only that information considered pertinent, relevant, or 
essential for future retrieval, is indexed. In certain major cases, 
individuals interviewed may be indexed to facilitate the administration 
of the investigation. The FBI has automated that portion of its index 
containing the most recent information--15 years for criminal related 
matters and 30 years for intelligence and other type matters.
    Automation will not change the ``Central Records System''; it will 
only facilitate more economic and expeditious access to the main files. 
Searches against the automated records are accomplished on a ``batch 
off-line'' basis for certain submitting agencies where the name search 
requests conform to FBI specified formats and also in an ``on-line'' 
mode with the use of video display terminals for other requests. The 
FBI will not permit any organization, public or private, outside the 
FBI to have direct access to the FBI indices system. All searches 
against the indices data base will be performed on site within FBI 
space by FBI personnel with the assistance of the automated procedures, 
where feasible. Automation of the various FBI field office indices was 
completed in 1989. This automation initiative has been on a ``day-one'' 
basis. This indices system points to specific files within a given 
field office. Additionally, certain complicated investigative matters 
may be supported by specialized computer systems or by individual 
microcomputers. Indices created in these environments are maintained as 
part of the particular computer system and accessible only through the 
system or through printed listings of the indices. Full text retrieval 
is used in a limited number of cases as an investigative technique. It 
is not part of the normal search process and is not used as a 
substitute for the General Index or computer indices mentioned above.
    The FBI will transfer historical records to the National Archives 
consistent with 44 U.S.C. 2103. No record of individuals or subject 
matter will be retained for transferred files; however, a record of the 
file numbers will be retained to provide full accountability of FBI 
files and thus preserve the integrity of the filing system.
            Safeguards:
    Records are maintained in a restricted area and are accessed only 
by agency personnel. All FBI employees receive a complete background 
investigation prior to being hired. All employees are cautioned about 
divulging confidential information or any information contained in FBI 
files. Failure to abide by this provision violates Department of 
Justice regulations and may violate certain statutes providing maximum 
severe penalties of a ten thousand dollar fine or 10 years imprisonment 
or both. Employees who resign or retire are also cautioned about 
divulging information acquired in the jobs. Registered mail is used to 
transmit routine hard copy records between field offices. Highly 
classified records are hand carried by Special Agents or personnel of 
the Armed Forces Courier Service. Highly classified or sensitive 
privacy information, which is electronically transmitted between field 
offices, is transmitted in encrypted form to prevent interception and 
interpretation. Information transmitted in teletype form is placed in 
the main files of both the receiving and transmitting field offices. 
Field offices involved in certain complicated investigative matters may 
be provided with on-line access to the duplicative computerized 
information which is maintained for them on disk storage in the FBI 
Computer Center in Washington, DC, and this computerized data is also 
transmitted in encrypted form.
            Retention and disposal:
    As the result of an extensive review of FBI records conducted by 
NARA, records evaluated as historical and permanent will be transferred 
to the National Archives after established retention periods and 
administrative needs of the FBI have elapsed. As deemed necessary, 
certain records may be subject to restricted examination and usage, as 
provided by 44 U.S.C. section 2104.
    FBI record disposition programs relevant to this System are 
conducted in accordance with the FBI Records Retention Plan and 
Disposition Schedule which was approved by the Archivist of the United 
States and the U.S. District Court, District of Columbia. 
Investigative, applicant and administrative records which meet the 
destruction criteria will be destroyed after 20 or 30 years at FBI 
Headquarters and after 1, 5, 10 or 20 years in FBI Field Offices. 
Historical records will be transferred to the National Archives after 
30 or 50 years, contingent upon investigative and administrative needs. 
The administrative indices and listings described within this System 
were appraised separately and disposition authority established. (Job 
No. NC1-65-82-4 and amendments)
            System manager(s) and address:
    Director, Federal Bureau of Investigation, Washington, DC 20535.
            Notification procedure:
    Same as above.
            Record access procedures:
    A request for access to a record from the system shall be made in 
writing with the envelope and the letter clearly marked ``Privacy 
Access Request''. Include in the request your full name, complete 
address, date of birth, place of birth, notarized signature, and other 
identifying data you may wish to furnish to assist in making a proper 
search of our records. Also include the general subject matter of the 
document of its file number. The requester will also provide a return 
address for transmitting the information. Requests for access to 
information maintained at FBI Headquarters must be addressed to the 
Director, Federal Bureau of Investigation, Washington, DC 20535. 
Requests for information maintained at FBI field divisions or Legal 
Attaches must be made separately and addressed to the specific field 
division or Legal Attache listed in the appendix to this system notice.
            Contesting record procedures:
    Individuals desiring to contest or amend information maintained in 
the system should also direct their request to the Director, Federal 
Bureau of Investigation, Washington, DC 20535, stating clearly and 
concisely what information is being contested, the reasons for 
contesting it, and the proposed amendment to the information sought.
            Record source categories:
    The FBI, by the very nature and requirement to investigate 
violations of law within its investigative jurisdiction and its 
responsibility for the internal security of the United States, collects 
information from a wide variety of sources. Basically, it is the result 
of investigative efforts and information furnished by other Government 
agencies, law enforcement agencies, and the general public, informants, 
witnesses, and public source material.
            Systems exempted from certain provisions of the act:
    The Attorney General has exempted this system from subsections 
(c)(3), (d), (e) (1), (2) and (3), (e)(4) (G) and (H), (e)(8) (f), (g), 
of the Privacy Act pursuant to 5 U.S.C. 552a (j) and (k). Rules have 
been promulgated in accordance with the requirements of 5 U.S.C. 553 
(b), (c) and (e).

 Appendix of Field Divisions and Legal Attaches for the Federal Bureau 
           of Investigation Field Divisions; Justice/FBI-999

    5th Floor, 445 Broadway, Albany, NY 12201.
    POB 25186, Albuquerque, NM 87125.
    POB 100560, Anchorage, AK 99510.
    POB 1683, Atlanta, GA 30370.
    7142 Ambassador Road, Baltimore, MD 21207.
    2122 Building, Birmingham, AL 35203.
    One Center Plaza, Suite 600, Boston, MA 02108.
    111 West Huron Street, Buffalo, NY 14202.
    6010 Kenley Lane, Charlotte, NC 28217.
    219 S. Dearborn St., Chicago, IL 60604.
    POB 1277, Cincinnati, OH 45201.
    1240 E. 9th St., Cleveland, OH 44199.
    POB 137, Columbia, SC 29202.
    1801 W. Lamar, Dallas, TX 75202.
    POB 1229, Denver, CO 80201.
    POB 2118, Detroit, MI 48231.
    700 E. San Antonio Ave., El Paso, TX 79901.
    POB 50164, Honolulu, HI 96850.
    POB 61369, Houston, TX 77208.
    POB 1186, Indianapolis, IN 45206.
    100 W. Capitol St., Jackson, MS 39269.
    POB 8928, Jacksonville, FL 32239.
    POB 2449, Kansas City, MO 64142.
    POB 10368, Knoxville, TN 37919.
    POB 16032, Las Vegas, NV 89101.
    POB 21470, Little Rock, AR 72221-1470.
    11000 Wilshire Blvd., Los Angeles, CA 90024.
    POB 2467, Louisville, KY 40201.
    167 N. Main St., Memphis, TN 38103.
    POB 592418, Miami, FL 33159.
    POB 2058, Milwaukee, WI 53201.
    111 Washington Ave. South S-1100, Minneapolis, MN 55401.
    POB 2128, Mobile, AL 36652.
    POB 1158, Newark, NJ 07101.
    POB 2058, New Haven, CT 06521.
    POB 51930, New Orleans, LA 70151.
    POB 1425, New York, NY 10008.
    POB 3828, Norfolk, VA 23514.
    POB 54511, Oklahoma City, OK 73154.
    POB 548, Omaha, NE 68101.
    600 Arch St., Philadelphia, PA 19106.
    201 E. Indianola, Phoenix, AZ 85012.
    POB 1315, Pittsburgh, PA 15230.
    POB 709, Portland, OR 97207.
    POB 12325, Richmond, VA 23241.
    POB 13130, Sacramento, CA 95813.
    POB 7251, St. Louis, MO 63177.
    125 S. State St., Salt Lake City, UT 84138.
    POB 1630, San Antonio, TX 78296.
    880 Front St., San Diego, CA 92188.
    POB 36015, San Francisco, CA 94102.
    POB BT, San Juan, PR 00936.
    915 2nd Ave., Seattle, WA 98174.
    POB 3646, Springfield, IL 62708.
    POB 172177, Tampa, FL 33602.
    Washington Field Office, Washington, DC 20535.
    Federal Bureau of Investigation Academy, Quantico, VA 22135.
    Legal Attaches: (Send c/o the American Embassy for the Cities 
indicated).
    Athens, Greece (PSC 108, Box 45, APO AE 09842)
    Bangkok, Thailand (Box 67, APO AP 96546).
    Bern, Switzerland.
    Bogota, Columbia (APO, Miami 34038).
    Bonn, Germany (Box 310, APO, New York 09080).
    Bridgetown, Barbados (Box B, FPO, Miami 34054).
    Brussels, Belgium (APO, New York 09667).
    Canberra, Australia (APO, San Francisco 96404-0001).
    Caracas, Venezuela (Unit 4966, APO AA 34037).
    Hong Kong, B.C.C. (FPO, San Francisco 96659-0002).
    London, England (Box 2, FPO, New York 09509).
    Madrid, Spain (PSC 61, Box 0001, APO AE 09642).
    Manila, Philippines (APO, San Francisco 96528).
    Mexico City, Mexico (POB 3087, Laredo, TX 78044-3087).
    Montevideo, Uruguay (APO, Miami 34035).
    Ottawa, Canada.
    Panama City, Panama (Box E, APO, Miami 34002).
    Paris, France (APO, New York 09777).
    Rome, Italy (APO, New York 09794).
    Tokyo, Japan (APO, San Francisco 96503).
    Vienna, Austria (Unit 27937, Box 37, APO AE 09222).
                                 ______
                                 

      [From the Federal Register, Vol. 66, No. 61, March 29, 2001]

                         DEPARTMENT OF JUSTICE
[AAG/A Order No. 223-2001]

Privacy Act of 1974; Systems of Records

    Pursuant to the provisions of the Privacy Act of 1974, 5 U.S.C. 
552a, notice is given that the Department of Justice proposes to modify 
the following systems of records:

------------------------------------------------------------------------
 ------------------------------------------------------------------------
ATR-006  Antitrust Information          2-20-98  63 FR 8660.
 Management System (AMIS)--Matter
 Report.
CIV-001  Civil Division Case File       2-20-98  63 FR 8665.
 System.
CRM-001  Central Criminal               2-20-98  63 FR 8663.
 Division Index File and
 Associated Records.
CRM-012  Organized Crime and           11-26-90  55 FR 49147.
 Racketeering Section, General
 Index File and Associated
 Records.
CRT-001  Central Civil Rights           2-20-98  63 FR 8661.
 Division Index File and
 Associated Records.
FBI-002  The FBI Central Records        2-20-98  63 FR 8671.
 System.
TAX-001  Tax Division Central           2-20-98  63 FR 8684.
 Classification Cards, Index
 Docket Cards, and Associated
 Records--Criminal Tax Cases.
TAX-002  Tax Division Central           2-20-98  63 FR 8685.
 Classification Cards, Index
 Docket Cards, and Associated
 Records--Civil Tax Cases.
USA-005  Civil Case Files........       2-20-98  63 FR 8666.
USA-007  Criminal Case Files.....      12-21-99  64 FR 71499.
------------------------------------------------------------------------

    The Department has modified the above systems of records to include 
a new routine use that allows disclosure of information relating to 
health care fraud to private health plans, associations of private 
health plans, health insurers, and associations of health insurers, for 
the following purposes: To promote the coordination of efforts to 
prevent, detect, investigate, and prosecute health care fraud; to 
assist victims of such fraud to obtain restitution; to enable private 
health plans to participate in health care fraud task force activities; 
and to assist tribunals having jurisdiction over claims against private 
health plans. It should be noted that with regard to taxpayer 
information, the addition of this routine use is not intended to affect 
the confidentiality of such taxpayer information as provided for in 26 
U.S.C. 6103.
    In accordance with 5 U.S.C. 552a(e)(4) and (11), the public is 
given a 30-day period in which to comment; and the Office of Management 
and Budget (OMB), which has oversight responsibility under the Privacy 
Act, requires a 40-day period in which to conclude its review of the 
system. Therefore, please submit any comments by [30 days after 
publication in the Federal Register]. The public, OMB, and the Congress 
are invited to submit any comments to Mary E. Cahill, Management and 
Planning Staff, Justice Management Division, United States Department 
of Justice, Washington, DC 20530-0001 (Room 1400, National Place 
Building).
    A description of the modification to the Department's systems of 
records is provided below. In accordance with 5 U.S.C. 552a(r), the 
Department has provided a report to OMB and the Congress.

    Dated: March 19, 2001.

Stephen R. Colgate,
Assistant Attorney General for Administration.
DOJ Privacy Act Systems of Records
    ATR-006  Antitrust Information Management System (AMIS)--Matter 
Report.
    CIV-001  Civil Division Case File System.
    CRM-001  Central Criminal Division Index File and Associated 
Records.
    CRM-012  Organized Crime and Racketeering Section, General Index 
File and Associated Records.
    CRT-001  Central Civil Rights Division Index File and Associated 
Records.
    FBI-002  The FBI Central Records System.
    TAX-001  Tax Division Central Classification Cards, Index Docket 
Cards, and Associated Records--Criminal Tax Cases.
    TAX-002  Tax Division Central Classification Cards, Index Docket 
Cards, and Associated Records--Civil Tax Cases.
    USA-005  Civil Case Files.
    USA-007  Criminal Case Files.
          * * * * * * *
            Routine Uses of Records Maintained in the System, Including 
                    Categories of Users and the Purposes of Such Uses:
    Information relating to health care fraud may be disclosed to 
private health plans, or associations of private health plans, and 
health insurers, or associations of health insurers, for the following 
purposes: to promote the coordination of efforts to prevent, detect, 
investigate, and prosecute health care fraud; to assist efforts by 
victims of health care fraud to obtain restitution; to enable private 
health plans to participate in local, regional, and national health 
care fraud task force activities; and to assist tribunals having 
jurisdiction over claims against private health plans.
          * * * * * * *
[FR Doc. 01-7676 Filed 3-28-01; 8:45 am]

BILLING CODE 4410-14-M
                                 ______
                                 

     [From the Federal Register, Vol. 58, No. 191, October 5, 1993]

                         DEPARTMENT OF JUSTICE
[AAG/A Order No. 79-93]
          * * * * * * *
JUSTICE/FBI-015
            System name:
    National Center for the Analysis of Violent Crime (NCAVC).
            System location:
    Federal Bureau of Investigation, Training Division, FBI Academy, 
Behavioral Science Unit, Quantico, Virginia 22135.
            Categories of individuals covered by the system:
    A. Individuals who relate in any manner to official FBI 
investigations into violent crimes including, but not limited to, 
subjects, suspects, victims, witnesses, close relatives, medical 
personnel, and associates who are relevant to an investigation.
    B. Individuals who are the subject of unsolicited information or 
who offer unsolicited information, and law enforcement personnel who 
request assistance and/or make inquiries concerning records.
    C. Individuals who are the subject of violent crime research 
studies including, but not limited to, criminal personality profiles, 
scholarly journals, and news media references.
            Categories of records in the system:
    The National Center for the Analysis of Violent Crime will maintain 
in both manual and automated formats case investigation reports on all 
forms of solved and unsolved violent crimes. These violent crimes 
include, but are not limited to, acts or attempted acts of murder, 
kidnapping, incendiary arson or bombing, rape, physical torture, sexual 
trauma, or evidence of violent forms of death. Less than ten percent of 
the records which are analyzed may not be directly related to violent 
activities.
    A. Violent Criminal Apprehension Program (VICAP) case reports 
submitted to the FBI by a duly constituted Federal, State, county, 
municipal, or foreign law enforcement agency in any violent criminal 
matter. VICAP reports include, but are not limited to, crime scene 
descriptions, victim and offender descriptive data, laboratory reports, 
criminal history records, court records, news media references, crime 
scene photographs, and statements.
    B. Violent crime case reports submitted by FBI headquarters or 
field offices, and case reports submitted to the FBI by a duly 
constituted Federal, State, county, municipal, or foreign law 
enforcement agency in any violent criminal matter.
    C. Violent crime research studies, scholarly journal articles, 
textbooks, training materials, and news media references of interest to 
NCAVC personnel.
    D. An index of all detected trends, patterns, profiles and methods 
of operation of known and unknown violent criminals whose records are 
maintained in the system.
    E. An index of the names, addresses, and contact telephone numbers 
of professional individuals and organizations who are in a position to 
furnish assistance to the FBI's NCAVC operation.
    F. An index of public record sources for historical, statistical 
and demographic data collected by the U.S. Bureau of the Census.
    G. An alphabetical name index pertaining to all individuals whose 
records are maintained in the system.
            Authority for maintenance of the system:
    44 U.S.C. Section 3101; 41 CFR subpart 101-11.2 and 28 U.S.C. 
Section 534.
            Routine uses of records maintained in the system, including 
                    categories of users and the purposes of such uses:
    Currently, the NCAVC is administered by the FBI through its 
Training Division, located at the FBI Academy, Quantico, Virginia. Its 
primary mission is to consolidate research, training, and operational 
support activities for the express purposes of providing expertise to 
any legitimate law enforcement agency confronted with unusual, bizarre, 
and/or particularly vicious or repetitive violent crimes.
    Records described above are maintained in this system to permit the 
FBI to function efficiently as an authorized, responsive component of 
the Department of Justice. Therefore, the information in this system is 
disclosed to officials and employees of the Department of Justice, and/
or all components thereof, who need the information to perform their 
official duties.
    Information in this system may be disclosed as a routine use to any 
Federal, State, local, or foreign government agency directly engaged in 
the criminal justice process where access is directly related to a law 
enforcement function of the recipient agency in connection with the 
tracking identification, and apprehension of persons believed to be 
engaged in repeated or exceptionally violent acts of criminal behavior.
    Information in this system may be disclosed as a routine use in a 
proceeding before a court or adjudicative body, e.g., the Equal 
Employment Opportunity Commission and the Merit Systems Protection 
Board, before which the FBI is authorized to appear, when (a) the FBI 
or any employee thereof in his or her official capacity, or (b) any 
employee in his or her individual capacity where the Department of 
Justice has agreed to represent the employee, or (c) the United States, 
where the FBI determines it is likely to be affected by the litigation, 
is a party to litigation or has an interest in litigation and such 
records are determined by the FBI to be relevant to the litigation.
    Information in this system may be disclosed as a routine use to an 
organization or individual in both the public or private sector 
pursuant to an appropriate legal proceeding or, if deemed necessary, to 
elicit information or cooperation from the recipient for use by the FBI 
in the performance of an authorized activity. An example could be where 
the activities of an individual are disclosed to a member of the public 
to elicit his/her assistance in FBI apprehension or detection efforts.
    Information in this system may be disclosed as a routine use to an 
organization or individual in the public or private sector where there 
is reason to believe the recipient is or could become the target of a 
particular criminal activity or conspiracy and to the extent the 
information is relevant to the protection of life or property.
    Relevant information may be disclosed from this system to the news 
media and general public where there exists a legitimate public 
interest. Examples would include: To obtain public or media assistance 
in the tracking, identifying, and apprehending of persons believed to 
be engaged in repeated acts of violent criminal behavior; to notify the 
public and/or media of arrests; to protect the public from imminent 
threat to life or property where necessary; and to disseminate 
information to the public and/or media to obtain cooperation with 
violent crime research, evaluation, and statistical programs.
    Information in this system may be disclosed as is necessary to 
appropriately respond to congressional inquiries on behalf of 
constituents.
    A record from a system of records may be disclosed as a routine use 
to the National Archives and Records Administration (NARA) in records 
management inspections conducted under the authority of 44 U.S.C. 2904 
and 2906 to the extent that legislation governing the record permits.
            Policies and practices for storing, retrieving, accessing, 
                    retaining, and disposing of records in the system:
            Storage:
    Information in the system is stored manually in locked file 
cabinets, either in its natural state or on microfilm, at the NCAVC in 
Quantico, Virginia. The active main files are maintained in hard copy 
form and some inactive records are maintained on microfilm.
    In addition, some of the information is stored in computerized data 
storage devices at the NCAVC and FBI Computer Center in Washington, DC. 
Investigative information which is maintained in computerized form may 
be stored in memory on disk storage on computer tape, or on computer 
printed listings.
            Retrievability:
    On-line computer access to NCAVC files is achieved by using the 
following search descriptors:
    A. A data base which contains the names of individuals, their birth 
dates, physical descriptions, and other identification numbers such as 
FBI numbers, if such have been assigned.
    B. Summary variables contained on VICAP reports submitted to the 
NCAVC as previously described.
    C. Key words citations to violent crime research studies. scholarly 
journal articles, textbooks, training materials, and media references.
            Safeguards:
    Records are maintained in restricted areas and accessed only by FBI 
employees. All FBI employees receive a complete pre-employment 
background investigation. All employees are cautioned about divulging 
confidential information or any information contained in FBI files. 
Failure to abide by this provision violates Department of Justice 
regulations and may violate certain statutes providing maximum severe 
penalties of a ten thousand dollar fine or 10 years' imprisonment or 
both. Employees who resign or retire are also cautioned about divulging 
information acquired in the job.
    Registered mail is used to transmit routine hard copy records 
between field offices. Highly classified records are hand carried by 
Special Agents or personnel of the Armed Forces Courier Service. Highly 
classified or sensitive privacy information, which is electronically 
transmitted between field offices and to and from FBI Headquarters, is 
transmitted in encrypted form to prevent interception and 
interpretation.
    Information transmitted in teletype form between the NCAVC in 
Quantico, Virginia and the FBI Computer Center in Washington, DC, is 
encrypted prior to transmission at both places to ensure 
confidentiality and security of the data.
    FBI field offices involved in certain complicated, investigative 
matters may be provided with on-line access to the computerized 
information which is maintained for them on disc storage in the FBI 
Computer Center in Washington, DC. This computerized data is also 
transmitted in encrypted form.
            Retention and disposal:
    Records are proposed for destruction after 50 years or upon 
termination of the program, whichever is earlier. The disposition 
schedule is pending with NARA as Job No. N1-65-88-13.
            System manager(s) and address:
    Director, Federal Bureau of Investigation, 10th and Pennsylvania 
Avenue NW., Washington, DC 20535.
            Notification procedure:
    Address inquiries to the System Manager.
            Record access procedures:
    Requests for access to records in this system shall be made in 
writing with the envelope and the letter clearly marked ``Privacy 
Access Request.'' The request must provide the full name, complete 
address, date of birth, place of birth, and notarized signature of the 
individual who is the subject of the record requested. The request 
should also include the general subject matter of the document or its 
file number--along with any other known information which may assist in 
making a search of the records. The request must also provide a return 
addressing for transmitting the information. Access requests should be 
addressed to the Director, Federal Bureau of Investigation, Washington, 
DC 20535.
            Contesting record procedures:
    Individuals desiring to contest or amend information maintained in 
the system should also direct their request to the Director, Federal 
Bureau of Investigation, Washington, DC 20535. The request should state 
clearly and concisely (1) the reasons for contesting the information, 
and (2) the proposed amendment to the information.
            Record source categories:
    The FBI, by the very nature of its responsibilities to investigate 
violations of law within its investigative jurisdiction and ensure the 
internal security of the United States, collects information from a 
wide variety of sources. Basically, information is obtained, as a 
result of investigative efforts, from other Government agencies, law 
enforcement agencies, the general public, informants, witnesses, and 
public source material.
            Systems exempted from certain provisions of the act:
    The Attorney General has exempted this system from subsections 
(c)(3), (d), (e)(1), (e)(4) (G) and (H), (f) and (g) of the Privacy Act 
pursuant to 5 U.S.C. 552a (j)(2) and (k)(2). Rules have been 
promulgated in accordance with the requirements of 5 U.S.C. 553 (b), 
(c), and (e).
                                 ______
                                 

      [From the Federal Register, Vol. 66, No. 121, June 22, 2001]

                         DEPARTMENT OF JUSTICE
[AAG/A Order No. 233-2001]

Privacy Act of 1974; System of Records

AGENCY: Federal Bureau of Investigation, DOJ.

ACTION: Notice.

SUMMARY: Pursuant to the Privacy Act of 1974 (5 U.S.C. 552a), and 
Office of Management and Budget (OMB) Circular No. A-130, notice is 
hereby given that the Department of Justice, Federal Bureau of 
Investigation (FBI), is establishing ten ``blanket'' routine uses to be 
applicable to more than one FBI system of records. Further, the FBI is 
modifying the following systems of records:
    Bureau Mailing Lists, Justice/FBI-003 (previously published on 
October 5, 1993, at 58 FR 51846); and
    Electronic Surveillance (ELSUR) Indices, Justice/FBI-006 
(previously published on March 10, 1992, at 57 FR 8473).
    Opportunity for Comment: The Privacy Act (5 U.S.C. 552a(e)(r) and 
(11)) requires that the public be given 30 days in which to comment on 
any new or amended uses of information in a system of records. In 
addition, in accordance with Privacy Act requirements (5 U.S.C. 
552a(r)), the Department of Justice has provided a report on these 
modifications to OMB and the Congress. OMB, which has oversight 
responsibilities under the Act, requires that OMB and the Congress be 
given 40 days in which to review major changes to Privacy Act systems. 
Therefore, the public, OMB, and the Congress are invited to submit 
written comments on this modification.
    Address Comments or Request for Further Information to: Mary E. 
Cahill, Management Analyst, Management and Planning Staff, Justice 
Management Division, Department of Justice, 1400 National Place, 
Washington, DC 20530.

EFFECTIVE DATE: These proposed changes will be effective August 1, 
2001, unless comments are received that result in a contrary 
determination.

SUPPLEMENTARY INFORMATION: The FBI is proposing to establish ten 
blanket routine uses in order to: (1) Foster greater public 
understanding by simplifying and consolidating FBI Privacy Act 
issuances; (2) minimize through use of standardized wording the 
potential for misunderstanding or misinterpretation which might arise 
from unintended variations in different versions of common routine 
uses; and (3) reduce costs and duplication of effort in the publication 
and maintenance of FBI Privacy Act issuances. Unless this or other 
published notice expressly provides otherwise, these blanket routine 
uses will apply to existing FBI systems of records as indicated below 
and to all FBI systems of records created or modified hereafter. 
However, the FBI is not at this time applying blanket routine uses to 
the National DNA Index System (NDIS) (Justice/FBI-017) or to the 
National Instant Criminal Background Check System (NICS) (Justice/FBI-
018). (Any blanket routine uses which the FBI may in the future propose 
to apply to these two systems will be implemented by express reference 
in revisions to the respective systems notices.)
    In large part these blanket routine uses standardize wording of 
routine uses already promulgated for one or more FBI or DOJ systems. 
The wording of a blanket use may differ somewhat from the existing 
counterpart(s). These differences generally do not reflect 
substantially different uses; however, some uses are clarified or 
broadened as to when and to whom disclosures may be made. Furthermore, 
Blanket Routine Use 9 is a new use not now reflected in any FBI system.
    Upon taking effect, these blanket routine uses will apply to the 
FBI systems indicated below:
    National Crime Information Center (NCIC), JUSTICE/FBI-001 (last 
published in the Federal Register on September 28, 1999, at 64 FR 
52343);
    FBI Central Records System, JUSTICE/FBI-002 (last published in the 
Federal Register on February 20, 1998, at 63 FR 8671);
    Bureau Mailing Lists, JUSTICE/FBI-003 (published in today's Federal 
Register);
    Electronic Surveillance (ELSUR) Indices, JUSTICE/FBI-006 (published 
in today's Federal Register);
    FBI Automated Payroll System, JUSTICE/FBI-007 (last published in 
the Federal Register on October 5, 1993, at 58 FR 51874);
    Bureau Personnel Management System (BPMS), JUSTICE/FBI-008 (last 
published in the Federal Register on October 5, 1993, at 58 FR 51875);
    Fingerprint Identification Records System (FIRS), JUSTICE/FBI-009 
(last published in the Federal Register on September 28, 1999, at 64 FR 
52347);
    Employee Travel Vouchers and Individual Earning Records, JUSTICE/
FBI-010 (last published in the Federal Register on December 11, 1987, 
at 52 FR 47248);
    Employee Health Records, JUSTICE/FBI-011 (last published in the 
Federal Register on October 5, 1993, at 58 FR 51875);
    Time Utilization Record/Keeping (TURK) System, JUSTICE/FBI-012 
(last published in the Federal Register on October 5, 1993, at 58 FR 
51876);
    Security Access Control System (SACS), JUSTICE/FBI-013 (last 
published in the Federal Register on October 5, 1993, at 58 FR 51877);
    FBI Alcoholism Program, JUSTICE/FBI-014 (last published in the 
Federal Register on December 11, 1987, at 52 FR 47251);
    National Center for the Analysis of Violent Crime (NCAVC), JUSTICE/
FBI-015 (last published in the Federal Register on October 5, 1993, at 
58 FR 51877);
    FBI/Counterdrug Information Indices Systems (CIIS), JUSTICE/FBI-016 
(last published in the Federal Register on June 9, 1994, at 59 FR 
29824);
    The routine uses currently published for each system will also 
continue to apply to that system. As individual FBI system notices are 
hereafter revised, we will eliminate individual system routine uses 
which duplicate blanket routine uses and add express reference to the 
applicability of the blanket routine uses.
    The Department is also modifying the Bureau Mailing Lists and the 
ELSUR systems of records in order to clarify and more accurately 
describe them. The Bureau Mailing Lists system notice is being modified 
to clarify the categories of individuals covered by the system, the 
categories of records in the system, and the record access procedures. 
The existing routine uses are modified to include a system specific 
routine use which permits the disclosure of system records to public 
and/or private entities where such disclosures may promote, assist, or 
otherwise serve law enforcement interests. The notice also provides 
that records can be disclosed in accordance with the blanket routine 
uses that are concurrently being established for FBI records systems.
    The ELSUR notice is being modified to include a new category of 
records in the system, ``reference records.'' Additionally, the ELSUR 
notice clarifies the record access procedures. The routine uses for the 
ELSUR system were also modified to reflect three additional system 
specific routine uses which permit the disclosure of system records to 
public and/or private entities where: (1) Such disclosures may promote, 
assist, or otherwise serve law enforcement interests; (2) the FBI deems 
it reasonable and helpful in eliciting information or cooperation from 
the recipient for use by the FBI in the performance of an authorized 
function; or (3) there is reason to believe that a person or entity 
could become the target of a particular criminal activity or 
conspiracy. In addition, the notice provides that records may be 
disclosed pursuant to the proposed blanket routine uses being published 
simultaneously herein.
    Both the Bureau Mailing Lists and the ELSUR systems are being 
republished to reflect these and other minor changes, including the 
addition of a ``Purpose'' section to both notices.
    A description of the proposed ten blanket routine uses and the 
modification to the Bureau Mailing Lists and the ELSUR systems of 
records is provided below.

    Dated: June 11, 2001.

Janis A. Sposato,
Acting Assistant Attorney General for Administration.
JUSTICE/FBI-BRU
            SUBJECT:
    Blanket Routine Uses (BRU) Applicable to More Than One FBI Privacy 
Act System of Records.
            APPLICABILITY:
    The following routine uses describe those types of disclosures 
which are common to more than one FBI Privacy Act system of records and 
which the FBI is establishing as ``blanket'' routine uses. Unless this 
or other published notice expressly provides otherwise, these blanket 
routine uses shall apply, without need of further implementation, to 
every existing FBI Privacy Act system of records and to all FBI systems 
of records created or modified hereafter. These blanket routine uses 
supplement but do not replace any routine uses that are separately 
published in the notices of individual record systems to which the 
blanket routine uses apply.
            ROUTINE USES OF RECORDS MAINTAINED IN FBI SYSTEMS, 
                    INCLUDING CATEGORIES OF USERS AND THE PURPOSES OF 
                    SUCH USES:
    System records may be disclosed to the following persons or 
entities under the circumstances or for the purposes described below, 
to the extent such disclosures are compatible with the purpose for 
which the information was collected. (These routine uses are not meant 
to be mutually exclusive and may overlap in some cases.)
    BRU-1. Violations of Law, Regulation, Rule, Order, or Contract. If 
any system record, on its face or in conjunction with other 
information, indicates a violation or potential violation of law 
(whether civil or criminal), regulation, rule, order, or contract, the 
pertinent record may be disclosed to the appropriate entity (whether 
federal, state, local, joint, tribal, foreign, or international), that 
is charged with the responsibility of investigating, prosecuting, and/
or enforcing such law, regulation, rule, order, or contract.
    BRU-2. Non-FBI Employees. To contractors, grantees, experts, 
consultants, students, or other performing or working on a contract, 
service, grant, cooperative agreement, or other assignment for the 
Federal Government, when necessary to accomplish an agency function.
    BRU-3. Appropriate Disclosures to the Public. To the news media or 
members of the general public in furtherance of a legitimate law 
enforcement or public safety function as determined by the FBI, e.g., 
to assist in locating fugitives; to provide notifications of arrests; 
to provide alerts, assessments, or similar information on potential 
threats to life, health, or property; or to keep the public 
appropriately informed of other law enforcement or FBI matters or other 
matters of legitimate public interest where disclosure could not 
reasonably be expected to constitute an unwarranted invasion of 
personal privacy. (The availability of information in pending criminal 
or civil cases will be governed by the provisions of 28 CFR 50.2.)
    BRU-4. Courts or Adjudicative Bodies. To a court or adjudicative 
body, in matters in which (a) the FBI or any FBI employee in his or her 
official capacity, (b) any FBI employee in his or her individual 
capacity where the Department of Justice has agreed to represent the 
employee, or (c) the United States, is or could be a party to the 
litigation, is likely to be affected by the litigation, or has an 
official interest in the litigation, and disclosure of system records 
has been determined by the FBI to be arguably relevant to the 
litigation. Similar disclosures may be made in analogous situations 
related to assistance provided to the Federal Government by non-FBI 
employees (see BRU-2).
    BRU-5. Parties. To an actual or potential party or his or her 
attorney for the purpose of negotiating or discussing such matters as 
settlement of the case or matter, or informal discovery proceedings, in 
matters in which the FBI has an official interest and in which the FBI 
determines records in the system to be arguably relevant.
    BRU-6. As Mandated by Law. To such recipients and under such 
circumstances and procedures as are mandated by Federal statute or 
treaty.
    BRU-7. Members of Congress. To a Member of Congress or a person on 
his or her staff acting on the Member's behalf when the request is made 
on behalf and at the request of the individual who is the subject of 
the record.
    BRU-8. NARA/GSA Records Management. To the National Archives and 
Records Administration and the General Services Administration for 
records management inspections and such other purposes conducted under 
the authority of 44 U.S.C. 2904 and 2906.
    BRU-9. Auditors. To any agency, organization, or individual for the 
purposes of performing authorized audit or oversight operations of the 
FBI and meeting related reporting requirements.
    BRU-10. Former Employees. The DOJ may disclose relevant and 
necessary information to a former employee of the Department for 
purposes of: responding to an official inquiry by a federal, state, or 
local government entity or professional licensing authority, in 
accordance with applicable Department regulations; or facilitating 
communications with a former employee that may be necessary for 
personnel-related or other official purposes where the Department 
requires information and/or consultation assistance from the former 
employee regarding a matter within that person's former area of 
responsibility. (Such disclosures will be effected under procedures 
established in title 28, Code of Federal Regulations, sections 16.300-
301 and DOJ Order 2710.8C, including any future revisions.)
            FBI RECORDS SYSTEMS TO WHICH THESE BLANKET ROUTINE USES DO 
                    NOT APPLY:
    These blanket routine uses shall not apply to the following FBI 
Privacy Act systems of records (to which shall apply only those routine 
uses established in the records system notice for the particular 
system):
    JUSTICE/FBI-017, National DNA Index System (NDIS) (last published 
in the Federal Register on July 18, 1996, at 61 FR 37495); and
    JUSTICE/FBI-018, National Instant Criminal Background Check System 
(NICS) (last published in the Federal Register on November 25, 1998, at 
63 FR 65,223).
JUSTICE/FBI-003
            SYSTEM NAME:
    Bureau Mailing Lists.
            SYSTEM LOCATION:
    Records may be maintained at all locations at which the Federal 
Bureau of Investigation (FBI) operates, including: J. Edgar Hoover 
Bldg., 935 Pennsylvania Ave., NW., Washington, DC 20535; FBI Academy, 
Quantico, VA 22135; FBI Criminal Justice Information Services (CJIS) 
Division, 1000 Custer Hollow Rd., Clarksburg, WV 26306; and FBI field 
offices, legal attaches, and information technology centers as listed 
on the FBI's Internet website, http://www.fbi.gov, including any future 
revisions to the website.
            CATEGORIES OF INDIVIDUALS COVERED BY THE SYSTEM:
    All persons appearing on mailing lists maintained throughout the 
FBI to facilitate mailings to multiple addressees in furtherance of FBI 
activities. These include persons who have requested Bureau material, 
persons who are routinely forwarded unsolicited Bureau material and who 
meet established criteria (generally law enforcement or closely related 
interests), and persons who may be in a position to furnish assistance 
in furtherance of the FBI's mission. These do not include persons on 
mailing lists not encompassed within this system as described in the 
section titled ``Categories of Records in the System.''
            CATEGORIES OF RECORDS IN THE SYSTEM:
    Records may include name, address, business affiliation, and 
supplemental information related to addressees and relevant to a list's 
purpose. These do not, however, include mailing lists which have been 
incorporated into some other FBI records system, such as a mailing list 
supporting a particular investigation maintained as an investigative 
record within the FBI's Central Records System.
            AUTHORITY FOR MAINTENANCE OF THE SYSTEM:
    Title 5, United States Code, section 301; title 44, United States 
Code, section 3101; title 28, United States Code, section 533; and 
title 28, Code of Federal Regulations, section 0.85.
            PURPOSE(S):
    System records are used for mailing FBI material to multiple 
addressees, via hard copy, e-mail, or other means of distribution, in 
furtherance of FBI activities. For example, various fugitive alerts are 
furnished to local law enforcement agencies, investigations periodicals 
are provided to law enforcement professionals, and information on local 
law enforcement issues may be provided to community leaders.
            ROUTINE USES OF RECORDS MAINTAINED IN THE SYSTEM, INCLUDING 
                    CATEGORIES OF USERS AND THE PURPOSES OF SUCH USES:
    The FBI may disclose relevant system records in accordance with any 
blanket routine uses established for FBI records systems. See Blanket 
Routine Uses Applicable for FBI records systems. See Blanket Routine 
Uses Applicable to More Than One FBI Privacy Act System of Records, 
Justice/FBI-BRU, as published today in the Federal Register (and any 
future revisions).
    In addition, as a routine use specific to this system, the FBI may 
disclose relevant system records to the following persons or entities 
under the circumstances or for the purposes described below, to the 
extent such disclosures are comptiable with the purpose for which the 
information was collected. (Routine uses are not meant to be mutually 
exclusive and may overlap in some cases.)
    A. To a federal, state, local, joint, tribal, foreign, 
international, or other public agency/organization, or to any person or 
entity in either the public or private sector, domestic or entity in 
either the public or private sector, domestic or foreign, where such 
disclosure may promote, assist, or otherwise serve law enforcement 
interests. By way of example and not limitation, such disclosures may 
for instance include: Sharing names of law enforcement professionals 
receiving FBI periodicals with law enforcement agencies interested in 
reaching a similar audience; sharing information of intelligence value 
with other law enforcement on intelligence agencies to whose lawful 
responsibilities the information may be germane; or sharing information 
pertinent to victim/witness assistance with local government entities 
in furtherance of such assistance.
            POLICIES AND PRACTICES FOR STORING, RETRIEVING, ACCESSING, 
                    RETAINING, AND DISPOSING OF RECORDS IN THE SYSTEM:
            STORAGE:
    Most information is maintained in computerized form and stored in 
memory, on disk storage, on computer tape, or other computer media. 
However, some information may also be maintained in hard copy (paper) 
or other form.
            RETRIEVABILITY:
    Information typically will be retrieved by an ID number assigned by 
computer or by name of person or organization.
            SAFEGUARDS:
    System records are maintained in limited access space in FBI 
facilities and offices. Computerized data is password protected. All 
FBI personnel are required to pass an extensive background 
investigation. The information is accessed only by authorized FBI 
personnel or by non-FBI personnel properly authorized to assist in the 
conduct of an agency function related to these records.
            RETENTION AND DISPOSAL:
    FBI offices revised the lists as necessary. The records are 
destroyed, under authority granted by the National Archives and Records 
Administration, when administrative needs are satisfied (Job. No. NC1-
65-82-4, part E, item 13 (I)).
            SYSTEM MANAGER(S) AND ADDRESS:
    Director, FBI, 935 Pennsylvania Ave., NW, Washington, DC 20535-
0001.
            NOTIFICATION PROCEDURES:
    Same as Record Access Procedures.
            RECORD ACCESS PROCEDURES:
    A request for access to a record from the system shall be made in 
writing with the envelope and the letter clearly market ``Privacy Act 
Request''. Include in the request your full name and complete address. 
The requester must sign the request; and, to verify it, the signature 
must be notarized or submitted under 28 U.S.C. 1746, a law that permits 
statements to be made under penalty of perjury as a substitute for 
notarization. You may submit any other identifying data you wish to 
furnish to assist in making a proper search of the system. Requests for 
access to information maintained at FBI Headquarters must be addressed 
to the Director, Federal Bureau of Investigation, 935 Pennsylvania 
Ave., NW, Washington, DC 20535-0001. Requests for information 
maintained at FBI field offices, legal attaches, information technology 
centers, or other locations must be made separately and addressed to 
the specific field office, legal attache, information technology 
center, or other location as listed on the FBI's Internet website, 
http://www.fbi.gov, including any future revisions to the website.
            CONTESTING RECORD PROCEDURES:
    Individuals desiring to contest or amend information maintained in 
the system should also direct their request to the appropriate FBI 
office, stating clearly and concisely what information is being 
contested, the reasons for contesting it, and the proposed amendment to 
the information sought.
            RECORD SOURCE CATEGORIES:
    The mailing list information is based on information supplied by 
affected individuals/organizations, public source data, and/or 
information already in other FBI records systems.
            SYSTEMS EXEMPTED FROM CERTAIN PROVISIONS OF THE ACT:
    None.
JUSTICE/FBI 006
            SYSTEM NAME:
    Electronic Surveillance (ELSUR) Indices.
            SYSTEM LOCATION:
    Records may be maintained at all locations at which the Federal 
Bureau of Investigation (FBI) operates, including: J. Edgar Hoover 
Bldg., 935 Pennsylvania Ave., NW, Washington, DC 20535; and FBI field 
offices and information technology centers as listed on the FBI's 
Internet website, http://www.fbi.gov, including any future revisions to 
the website.
            CATEGORIES OF INDIVIDUALS COVERED BY THE SYSTEM:
    Individuals and entities who have been the targets of electronic 
surveillance coverage sought, conducted, or administered by the FBI 
pursuant to a court order or other authority; those who have been a 
party to a communication monitored/recorded electronically pursuant to 
a court order, consensual monitoring, or other authorized monitoring 
sought, conducted, or administered by the FBI; and those who own, 
lease, license, hold a possessor interest in, or commonly use the 
location subjected to electronic surveillance.
            CATEGORIES OF RECORDS IN THE SYSTEM:
    The ELSUR Indices are comprised of four types of records:
    1. Principal records identify, by true name or best known name, all 
persons, entities, and facilities who have been the targets of 
electronic surveillance coverage sought, conducted, or administered by 
the FBI pursuant to a court order or other authority. These records 
include, but are not limited to, persons, entities, and facilities 
named in an application filed by the FBI in support of an affidavit 
seeking a court order to conduct or administer an electronic 
surveillance. Principal records may also include descriptive data 
associated with the name appearing on the record.
    2. Proprietary-interest records identify entities and/or 
individuals who own, lease, license, hold a possessory interest in, or 
commonly use the location subjected to an electronic surveillance. 
Proprietary-interest records may also include descriptive data 
associated with the name appearing on the record.
    3. Intercept records identify, by true name or best known name, 
individuals who have been reasonably identified by a first name or 
initial and a last name as being a party to a communication monitored/
recorded electronically by the FBI pursuant to an electronic 
surveillance. Intercept records also identify entities that have been a 
party to a communication monitored/recorded electronically by the FBI 
pursuant to an electronic surveillance. Intercept records may include 
descriptive data associated with the name appearing on the record.
    4. Reference records identify, by partial name, such as a first 
name only, last name only, code name, nickname, or alias those 
individuals who have been a party to a communication monitored/recorded 
electronically by the FBI pursuant to an electronic surveillance, and 
may include descriptive data associated with the individual. If the 
individual is later identified by a more complete name, e.g., through 
further monitoring or normal investigative procedures, the reference 
record is re-entered as an intercept record.
            AUTHORITY FOR MAINTENANCE OF THE SYSTEM:
    The ELSUR Indices were initiated in October, 1966, at the 
recommendation of the Department of Justice and relate to electronic 
surveillance sought, administered, and/or conducted by the FBI since 
January 1, 1960. The authority for the maintenance of these records is 
title 5, United States Code, section 301; title 44, United States Code, 
section 3101; title 18, United States Code, section 2510, et seq.; 
title 18, United States Code, section 3504; title 28, United States 
Code, section 533, title 50, United States Code 1801, et seq.; and 
title 28, Code of Federal Regulations, section 0.85.
            PURPOSE(S):
    These records are used by the FBI to maintain certain information 
regarding electronic surveillance sought, conducted or administered by 
the FBI in order to permit the agency to respond to judicial inquiries 
about possible electronic surveillance coverage of any individual or 
entity involved in Federal court proceedings and to enable the 
Government to certify, as requested by federal, state or local law 
enforcement agencies, whether or not an individual, entity, facility, 
or place on whom a court ordered authority is being sought for 
electronic surveillance coverage has ever been subjected to electronic 
surveillance coverage in the past.
            ROUTINE USES OF RECORDS MAINTAINED IN THE SYSTEM, INCLUDING 
                    CATEGORIES OF USERS AND THE PURPOSES OF SUCH USES:
    The FBI may disclose relevant system records in accordance with any 
blanket routine uses established for FBI records systems. See Blanket 
Routine Uses Applicable to More Than One FBI Privacy Act System of 
Records, Justice/FBI-BRU, as published today in the Federal Register 
(and any future revisions).
    In addition, as routine uses specific to this system, the FBI may 
disclose relevant system records to the following persons or entities 
under the circumstances or for the purposes described below, to the 
extent such disclosures are compatible with the purpose for which the 
information was collected. (Routine uses are not meant to be mutually 
exclusive and may overlap in some cases.)
    A. To the judiciary in response to inquiries about possible 
electronic surveillance coverage of any individual or entity involved 
in Federal court proceedings.
    B. To federal, state, and local law enforcement officers to enable 
the government to certify whether or not an individual, entity, 
facility, or place on whom a court ordered authority is being sought 
for electronic surveillance coverage has ever been subjected to 
electronic surveillance coverage in the past.
    C. To a federal, state, local, joint, tribal, foreign, 
international, or other public agency/organization, or to any person or 
entity in either the public or private sector, domestic or foreign, 
where such disclosure may promote, assist, or otherwise serve law 
enforcement interests. By way of example and not limitation, such 
disclosures may for instance include: Sharing information of 
intelligence value with other law enforcement or intelligence agencies 
to whose lawful responsibilities the information may be germane; 
disclosing information to another law enforcement or intelligence 
agency which may bear on the suitability of a person for employment or 
continued employment with that agency; disclosing information to a 
cognizant employer or clearance-granting authority which may bear on 
the trustworthiness of a person to obtain or retain a security 
clearance; or sharing information pertinent to victim/witness 
assistance with local government entities in furtherance of such 
assistance.
    D. To any person or entity in either the public or private sector, 
domestic or foreign, if deemed by the FBI to be reasonable and helpful 
in eliciting information or cooperation from the recipient for use by 
the FBI in the performance of an authorized function, e.g., disclosure 
of personal information to a member of the public in order to elicit 
his/her assistance/cooperation in a criminal, security, or employment 
background investigation.
    E. To any person or entity in either the public or private sector, 
domestic or foreign, where there is reason to believe that a person or 
entity could become the target of a particular criminal activity or 
conspiracy, to the extent the disclosure of information is deemed by 
the FBI to be reasonable and relevant to the protection of life, 
health, or property of such target.
            POLICIES AND PRACTICES FOR STORING, RETRIEVING, ACCESSING, 
                    RETAINING, AND DISPOSING OR RECORDS IN THE SYSTEM:
            STORAGE:
    The majority of the records are maintained in an automated data 
base. Some records are maintained in hard-copy (paper) format or other 
form.
            RETRIEVABILITY:
    Information typically will be retrieved by the name of the 
individual or entity. Telephone numbers and other such serial or 
identification numbers are retrievable numerically. Locations targeted 
are retrievable by street name.
            SAFEGUARDS:
    System records are maintained in limited access space in FBI 
facilities and offices. Computerized data is password protected. All 
FBI personnel are required to pass an extensive background 
investigation. The information is accessed only by authorized FBI 
personnel or by non-FBI personnel properly authorized to assist in the 
conduct of an agency function related to these records.
            RETENTION AND DISPOSAL:
    A reference record is purged if the individual is later identified 
by a more complete name and re-entered as an intercept record. 
Remaining reference records are purged from the system as follows: 
Those relating to court ordered electronic surveillance are purged six 
months from the date the corresponding authorization for the 
surveillance expires. Reference records relating to consensual 
intercepts are purged one year from the last intercept date shown on 
the record. Until advised to the contrary by the Department, the 
courts, or the Congress, all other indices records will be maintained 
indefinitely and have been declared permanent by the National Archives 
and Records Administration (NARA) (Job No. NC1-65-82-4, Part E, item 2 
(t)).
            SYSTEM MANAGER(S) AND ADDRESS:
    Director, Federal Bureau of Investigation, 935 Pennsylvania Avenue, 
NW, Washington, DC 20535.
            NOTIFICATION PROCEDURE:
    Same as Record Access Procedures.
            RECORD ACCESS PROCEDURES:
    A request for notification as to whether a record about an 
individual exists in the system and/or for access to a record from the 
system shall be made in writing with the envelope and the letter 
clearly marked ``Privacy Act Request.'' Include in the request your 
full name and complete address. The requests must sign the request; 
and, to verify it, the signature must be notarized or submitted under 
28 U.S.C. 1746, a law that permits statements to be made under penalty 
of perjury as a substitute for notarization. You may submit any other 
identifying data you wish to furnish to assist in making a proper 
search of the system. Requests for access to information maintained at 
FBI Headquarters must be addressed to the Director, Federal Bureau of 
Investigation, 935 Pennsylvania Avenue, NW, Washington, DC 20535-0001. 
Requests for information maintained at FBI field offices, information 
technology centers, or other locations must be made separately and 
addressed to the specific field office, information technology center, 
or other location as listed on the FBI's Internet website, http://
www.fbi.gov, including any future revisions to the website.
    Some information may be exempt from notification and/or access 
procedures as described in the section titled ``Systems Exempted from 
Certain Provisions of the Act.'' An individual who is the subject of 
one or more records in this system may be notified of records that are 
not exempt from notification and may access those records that are not 
exempt from disclosure. A determination on notification and access will 
be made at the time a request is received.
            CONTESTING RECORD PROCEDURES:
    If you desire to contest or amend information maintained in the 
system, you should also direct your request to the appropriate FBI 
office, stating clearly and concisely what information is being 
contested, the reasons for contesting it, and the proposed amendment to 
the information sought.
    Some information may be exempt from contesting record procedures as 
described in the section titled ``Systems Exempted from Certain 
Provisions of the Act.'' An individual who is the subject of one or 
more records in this system may contest and pursue amendment of those 
records that are not exempt. A determination whether a record may be 
subject to amendment will be made at the time a request is received.
            RECORD SOURCE CATEGORIES:
    Information in the indices is derived from electronic surveillance, 
public source information, and other FBI record systems.
            SYSTEMS EXEMPTED FROM CERTAIN PROVISIONS OF THE ACT:
    The Attorney General has exempted this system from subsections 
(c)(3) and (4), (d), (e)(1), (2) and (3), (e)(4)(G) and(H), (e)(5) 
and(8), (f), (g) and (m) of the Privacy Act pursuant to 5 U.S.C. 
552a(j). Rules have been promulgated in accordance with the 
requirements of 5 U.S.C. 553(b), (c) and (e) and have been published in 
the Federal Register.

[FR Doc. 01-15675 Filed 6-21-01; 8:45 am]

BILLING CODE 4410-02-M

DEPARTMENT OF JUSTICE
Antitrust Division

Notice Pursuant to the National Cooperative Research and Production Act 
of 1993--National Center for Manufacturing Sciences (NCMS): Advanced 
Embedded Passives Technology

    Notice is hereby given that, on May 23, 2001, pursuant to section 
6(a) of the National Cooperative Research and Production Act of 1993, 
15 U.S.C. 4301 et seq. (``the Act''), National Center for Manufacturing 
Sciences (NCMS): Advanced Embedded Passives Technology has filed 
written notifications simultaneously with the Attorney General and the 
Federal Trade Commission disclosing changes in its membership status. 
The notifications were filed for the purpose of extending the Act's 
provisions limiting the recovery of antitrust plaintiffs to actual 
damages under specified circumstances. Specifically, SAS Circuits, 
Inc., Littleton, CO has been added as a party to this venture. Also, 
HADCO Corporation, Salem, NH and Ormet Corporation, Carlsbad, CA have 
been dropped as parties to this venture.
    No other changes have been made in either the membership or planned 
activity of the group research project. Membership in this group 
research project remains open, and National Center for Manufacturing 
Sciences (NCMS): Advanced Embedded Passives Technology intends to file 
additional written notification disclosing all changes in membership.
    On October 7, 1998, National Center for Manufacturing Sciences 
(NCMS): Advanced Embedded Passives Technology filed its original 
notification pursuant to section 6(a) of the Act. The Department of 
justice published a notice in the Federal Register pursuant to section 
6(b) of the Act on January 22, 1999 (64 FR 3571).
    The last notification was filed with the Department on August 5, 
1999. A notice was published in the Federal Register pursuant to 
section 6(b) of the Act on March 21, 2000 (65 FR 15176).

Constance K. Robinson,
Director of Operations, Antitrust Division.

[FR Doc. 01-15672 Filed 6-21-01; 8:45 am]

BILLING CODE 4410-11-M
DEPARTMENT OF JUSTICE
Antitrust Division

Notice Pursuant to the National Cooperative Research and Production Act 
of 1933--The National Center for Manufacturing Sciences, Inc.

    Notice is hereby given that, on May 15, 2001, pursuant to section 
6(a) of the National Cooperative Research and Production Act of 1993, 
15 U.S.C. 4301 et seq. (``the Act''), the National Center for 
Manufacturing Sciences, Inc. has filed written notifications 
simultaneously with the Attorney General and the Federal Trade 
Commission disclosing changes in its membership status. The 
notifications were filed for the purpose of extending the Act's 
provisions limiting the recovery of antitrust plaintiffs to actual 
damages under specified circumstances.
    Specifically, Automated Precision Inc., Gaithersburg, MD; 
Cincinnati Machine Division of Unova, Inc., Cincinnati, OH; CoCreate 
Software, Inc., Fort Collins, CO; ComauPico, Inc., Southfield, MI; 
Defense Modeling and Simulation Office of the U.S. Department of 
Defense, Alexandria, VA; Electronic Data Systems, Inc, Troy, MI; 
Holagent Corporation, Gilroy, CA; Hydrogen Technology Applications, 
Inc, Clearwater, FL; Johann A. Krause Inc., Auburn Hills, MI; Johnson 
Controls, Inc., Plymouth, MI; LFX Technologies LLC, Bloom field Hills, 
MI; Manufacturing Resources, Inc., Cleveland, OH; Michigan 
Technological University, Houghton, MI; Sulzer Metco Inc., Westbury, 
NY; and Tecumseh Products Company, Tecumseh, MI have been added as 
parties to this venture.
    Also, Aesop, Inc., Concord, NH; American Induction Heating 
Corporation, Fraser, MI; Ascent Logic Corporation, Northville, MI; 
Auto-Air Composites, Inc., Lansing, MI; Bencyn West LLC, North 
Highlands, CA; Center for Clean Industrial and Treatment Technologies 
(CenCITT), Houghton, MI; Corning, Inc., NY; Dow-United Technologies 
Composite Products, Inc., Wallingford, CT; Eaton Corporation, 
Cleveland, OH; FileNET Corporation, Denver, CO; The Federal Trchnology 
Center, North Highlands, CA; Flame Spray Industries, Inc., Port 
Wahington, NY; Gensym Corporation, Cambridge, MA; Hewlett-Packard 
Company, Kirkland, Quebec, CANADA; IBD, Inc., Winnetka, IL; Indium 
Corporation of America, Utica, NY; Information Transport Associates, 
Inc., Annapolis, MD; Iowa State University, Ames, IA; Michigan Virtual 
Automotive College, Ann Arbor, MI; Midwest Manufacturing Technology 
Corporation, St. Louis, MO; Minnesota Technology, Inc., St. Cloud, MN; 
MSC Software Corporation, Costa Mesa, CA; MSE Technology Applications, 
Inc., Butte, MT; Progressive Tool & Industries Company, Southfield, MI; 
Remmele Engineering, Inc., Big Lake, MN; Schafer Corporation, 
Albuquerque, NM; Setco Industries, Inc., Cincinnati, OH; Teknowledge 
Corporation, Palo Alto, CA; Trellis Software and Controls, Inc., 
Rochester Hills, MI; Trust Data Solutions, San Jose, CA; TRW Integrated 
SupplyChain Solutions, Reston, VA; University of New Hampshire, Durham, 
NH; and UNOVA-Industrial Automation Systems, Cincinnati, OH have been 
dropped as parties to this venture.
    No other changes have been made in either the membership or planned 
activity of the group research project. Membership in this group 
research project remains open, and the National Center for 
Manufacturing Sciences, Inc. intends to file additional written 
notification disclosing all changes in membership.
    On February 20, 1987, the National Center for Manufacturing 
Sciences, Inc. filed its original notification pursuant to section 6(a) 
of the Act. The Department of Justice published a notice in the Federal 
Register pursuant to section 6(b) of the Act on March 17, 1987 (52 FR 
8375).
    The last notification was filed with the Department on December 20, 
2000. A notice has not yet been published in the Federal Register.

Constance K. Robinson,
Director of Operations, Antitrust Division.

[FR Doc. 01-15673 Filed 6-21-01; 8:45 am]

BILLING CODE 4410-11-M

    Question. With respect to each of the three databases, please 
explain how the timeliness requirement--which sought to ensure that 
computer records were as current as possible--interfered with effective 
law enforcement. Don't we want our records to be as current as 
possible, and don't we want to create incentives for agencies like the 
FBI to meet that standard?
    Answer. As to each of these databases, the FBI continuously strives 
to keep all records as current as feasible. The exemption allows the 
FBI the necessary leeway to collect information that may be crucial to 
the successful conduct of the FBI's mission.
    In the collection of information for law enforcement purposes it 
may be impossible to determine in advance what information may still be 
of current utility. With the passage of time, seemingly irrelevant or 
untimely information may acquire new significance as further 
investigation brings new details to light. The restrictions imposed by 
paragraph (e)(5) of the Privacy Act would limit the ability of 
investigators to exercise their judgment in acquiring and exploiting 
potentially significant information (during which information quality 
can be validated through links, relationships and other evidence 
discovered during investigative efforts.) Assessing the investigative 
utility of retention and use of even very old information should thus 
be left to the investigative discretion of the FBI.
    Additionally, many records in the systems come from other federal, 
state, local, joint, foreign, tribal, and international agencies, and 
it is administratively impossible for the FBI to guarantee the records 
comply with paragraph (e)(5).
    Because NCIC functions almost exclusively as a medium for 
information exchange, additional quality assurance procedures are in 
place. The exemption has not changed NCIC's program requirements for 
entry, audit, validation, and hit confirmation of NCIC records that are 
applicable to NCIC users. For instance, the NCIC 2000 manual explains 
the requirements of ``timely entry'' for NCIC 2000 files and explains 
records should be complete and include all information available on a 
person or property at the time of entry.
    For CRS and NCAVC, in the course of an investigation, retained 
information is reviewed at reasonable intervals to determine its 
relevance. Analysts, case agents, task force members, supervisors, and 
legal counsel may perform reviews as necessary.
    Specific to NCAVC's VICAP, there is no federal statute requiring 
reports of homicide or other, serial, violent crime to be sent to a 
central location or clearinghouse. On their own initiative, several 
states have enacted mandatory reporting laws requiring timely 
submission of homicide or violent crime data to a central state 
authority. Thus, submission of a case in the VICAP database is 
voluntary on the part of the law enforcement entity with original 
jurisdiction for the offense under investigation. Once submitted, cases 
are subject to initial quality control. Reports of additional 
investigation, including laboratory results, inclusion or elimination 
of suspects, or arrest and conviction of an offender, are forwarded to 
VICAP upon the initiative of the investigator. Periodically, VICAP 
staff members may contact submitting agencies or investigators and 
request updated information.
    VICAP has demonstrated that prompt submission of cases produces 
valuable investigative results. An example is the Rafael Resendez-
Ramirez investigation. Before Mr. Resendez was identified, and when 
only three of his offenses in Texas were linked to him (there would be 
a total of six murders allegedly committed in Texas by Mr. Resendez), 
the command post in Texas notified VICAP. A murder and sexual assault 
committed in Kentucky were located in the VICAP database, and 
information concerning them was relayed to the command post. DNA 
evidence linked the Texas murders and the Kentucky murder before Mr. 
Resendez was identified.
    Question. With respect to each of the three databases, please 
explain how the other requirements that were lifted by the new rule--
that is; accuracy, relevance, and completeness--interfered with the 
legitimate collection of information for law enforcement purposes.
    Answer. See preceding response.
    Question. The new rule states that the Justice Department is 
currently reviewing additional changes to 28 CFR Part 16 for possible 
promulgation in future rulemaking. Please describe the changes the 
Department is considering.
    Answer. The FBI periodically reviews all systems and proposes 
amendments to the rule, as necessary, to further important FBI mission 
interests, implement clerical improvements, etc. For example, for ease 
of reference, the FBI may consider reorganizing the format of the rule, 
placing systems in a more logical order and eliminating the frequent 
cross-references within the rule.
                             dna initiative
    Question. Last month, the Administration unveiled a proposal to 
spend more than $1 billion over five years on forensic DNA programs. 
This proposal is overdue, but it is welcome, and it will make a 
difference. For two years, I have been urging the Administration and 
House Republicans to fully fund existing programs aimed at eliminating 
the DNA backlog crisis and, in particular, the inexcusable backlog of 
untested rape kits. Across the country, untested critical evidence has 
been piling up while rapists and killers remain at large, victims 
continue to anguish, and statutes of limitation expire. It is about 
time that we made this a national priority.
    The President's DNA Initiative includes $5 million a year for post-
conviction DNA tests that can be used by inmates to prove their 
innocence. This proposal is also long overdue. Post-conviction DNA 
testing has already been used to exonerate more than 120 prisoners 
nationwide, including 12 awaiting execution. Last year the Justice 
Department cancelled plans to spend $750,000 on a post-conviction DNA 
testing initiative, and diverted the money to another program. When I 
wrote the Department about this development, I was informed--in a 
letter dated May 8, 2002--that ``the Department does not plan to 
undertake a national effort to promote and fund post-conviction DNA 
testing.'' I am pleased that the Department has changed its position.
    The Administration proposes spending $232.6 million in federal 
funding for fiscal year 2004, which includes $100.7 million in new 
funding. Are these amounts reflected in the President's official budget 
request for fiscal year 2004?
    Answer. The President's DNA Initiative--Advancing Justice Through 
DNA Technology--calls for $232.6 million in federal funding for fiscal 
year 2004. This includes $100.7 million in new funding. Of the $232.6 
million, $177 million is proposed for DNA initiatives to be 
administered by the Office of Justice Programs (OJP) and $42.1 million 
is to be administered by the Federal Bureau of Investigation. In 
addition, the $232.6 million includes $13.5 million in training 
resources from existing programs within OJP and the Community Oriented 
Policing Services that have been identified as complementary and 
supportive of the larger DNA Initiative.
    The bulk of the $177 million proposed for OJP in the fiscal year 
2004 DNA Initiative will be administered by the National Institute of 
Justice (NIJ), and will be used to assist state and local governments 
in eliminating their backlogs of crime scene and offender DNA samples, 
and to increase state and local forensic laboratory capacity to carry 
out DNA analysis. Rape kits and other crime scene evidence that sit for 
years in storage and cannot be analyzed because of inadequate resources 
or capacity are not solving crimes. The perpetrators may remain at 
large, free to commit more crimes, and the victims continue to live in 
fear.
    By addressing these problems, the DNA backlog reduction and 
laboratory capacity programs will directly result in major benefits for 
law enforcement and increased security of the public against sexually 
violent crimes, homicides, and other offenses. In addition, the Justice 
Department expects to commit substantial funds through OJP for other 
measures to strengthen the DNA identification system, such as improved 
training in the collection and handling of DNA evidence, and DNA 
technology research and development.
    The following chart displays a detailed funding breakdown of the 
fiscal year 2004 DNA Initiative.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                            2004 Budget
              Element of the DNA Initiative                   Request
------------------------------------------------------------------------
Using DNA To Solve Crimes:
    Eliminating Backlogs................................            92.9
        State Casework Backlogs.........................            76.0
        State Convicted Offender Backlogs...............            15.0
        Funding the Federal Convicted Offender Program..             1.9
    Strengthening Crime Lab Capacity....................            90.4
        Increasing the Analysis Capacity of Public Crime            60.0
         Labs...........................................
        Funding FBI Forensic Analysis Programs..........            20.5
        Funding the Combined DNA Index System...........             9.9
    Stimulating Research and Development................            24.8
        Improving DNA Technology........................            10.0
        FBI Research and Development....................             9.8
        DNA Demonstration Projects......................             4.5
        The National Forensic Science Commission........             0.5
    Training the Criminal Justice Community.............            17.5
        Law Enforcement.................................             3.5
        Prosecutors, Defense Attorneys, and Judges......             2.5
        Probation & Parole Officers, Corrections                     1.0
         Personnel......................................
        Forensic Scientists.............................             3.0
        Medical Personnel...............................             5.0
        Victim Service Providers........................             2.5
Using DNA To Protect the Innocent.......................             5.0
Using DNA To Identify Missing Persons...................             2.0
                                                         ---------------
      Total Funding.....................................           232.6
------------------------------------------------------------------------

    Question. With respect to the proposal to spend $5 million a year 
for post-conviction DNA testing, how did the Department arrive at this 
amount? Will it cover the costs of post-conviction DNA testing 
nationwide?
    Answer. The President's Initiative on DNA evidence, ``Advancing 
Justice Through DNA Technology'' calls for the appropriation to the 
Department of $5 million annually to be used by the Attorney General to 
establish a grant program to help states defray the costs of post-
conviction DNA testing and, therefore, encourage states to adopt 
procedures that authorize post-conviction DNA testing in appropriate 
cases.
    The President's Initiative was developed, in part, from the 
recommendations of a task force convened by the Department's National 
Institute of Justice (NIJ) at the request of Attorney General Ashcroft 
to assess existing DNA analysis delays and develop recommendations for 
eliminating those delays. In developing this aspect of the Initiative, 
the Department conferred with members of the NIJ task force, as well as 
other public and private laboratory directors across the United States, 
to ascertain the extent and cost of the post-conviction DNA testing 
currently on-going in those states that provide for convicted offenders 
to seek such testing.
    Based on these discussions, the Department estimates that the cost 
of post-conviction DNA analysis in those states that have, or soon will 
authorize, a post-conviction DNA testing procedure will not exceed $5 
million annually for at least the next five years. This estimate 
relates to the actual cost of testing the biological evidence at issue 
in those cases, as this program is not intended to pay for the 
operational costs of law enforcement personnel in locating any evidence 
that an offender requests or that a court orders be tested.
    Question. In your remarks announcing the DNA initiative, you said 
that you looked forward to working with the ``Chairmen'' of the House 
and Senate Judiciary Committees to develop post-conviction DNA testing 
legislation. But at your confirmation hearing, you assured me that you 
would work on such legislation with ``the Congress''--not just the 
Republican Chairmen. Are you willing to honor that commitment today by 
working with me to refine and pass the Innocence Protection Act, which 
has already garnered overwhelming bipartisan support?
    Answer. The Department is committed to working with the Chairmen of 
the House and Senate Judiciary Committees, ranking minority members, 
and all of the members of the respective authorizing and Appropriations 
Committees in developing any legislation necessary to implement all 
aspects of the President's DNA Initiative, including the recommendation 
that ``Federal law also should provide for post-conviction DNA testing 
in appropriate cases,'' and in appropriating the funds necessary to 
enable the Attorney General to establish a grant program to ``help 
states defray the costs of post-conviction DNA testing.''
                  fbi enforcement of immigration laws
    Question. Traditionally, we have not had the FBI enforce our civil 
immigration laws because we wanted to encourage maximum cooperation 
between illegal immigrants and the officers looking to prevent and 
solve crimes and acts of terrorism. Do you disagree with that logic?
    Answer. Following the transfer of the Immigration and 
Naturalization Service from the Department of Justice, the new 
Department of Homeland Security is the primary immigration law 
enforcement agency. However, the safety of the American people is the 
primary concern for both the Department of Justice and the Department 
of Homeland Security.
    Pursuant to the Attorney General's longstanding authority under the 
immigration laws, last year the Attorney General delegated immigration 
law enforcement authority to officers of the Federal Bureau of 
Investigation (FBI) and the United States Marshals Service (USMS). 
Under this delegation, in certain limited circumstances, the FBI may in 
the course of its counterterrorism investigations discover that an 
alien who poses a potential threat to national security is illegally 
present in the United States and find that DHS is unable to take 
custody immediately because agents are not available.
    The FBI has issued field guidance to implement the delegation of 
authority in a manner that ensures that it is used only in appropriate 
situations, such as when DHS immigration officials are not available or 
when the public safety requires prompt action without DHS.
    As of April 15, 2003, in connection with Operation Liberty Shield, 
the FBI had interviewed 9,383 individuals and while there were 31 
arrests for immigration violations, all arrests were made by BICE 
agents. The Department of Justice and the Department of Homeland 
Security have discussed this delegation and will continue to do so.
    Question. At the same time that the FBI is now policing immigration 
violations, it is depending upon Iraqis in the United States to provide 
information of value to the U.S. war effort. Do you have any fear that 
this expansion of FBI authority will have a chilling effect on Iraqi 
cooperation?
    Answer. Because the FBI has been mindful of the constitutional 
rights and sensitivities of the Iraqi population in the United States 
in the course of our interview program, we do not believe that the 
expansion of Department of Justice (DOJ) authority will have a chilling 
effect on future efforts to reach out to the Iraqi population.
    From the beginning of the hostilities in Iraq, the FBI conducted 
approximately 10,000 interviews of Iraqis who might have knowledge of 
the Iraqi leadership, military facilities, or Iraqi activities in 
support of terrorism. These interviews were strictly voluntary and 
conducted within the confines of the Constitution:
  --FBI agents were trained and given sensitivity training for 
        conducting these interviews, and Iraqis being interviewed were 
        informed of their civil rights.
  --High-level FBI officials met with Arab-American civic leaders to 
        explain the interview process and to enhance communication 
        between the FBI and the Arab-American community.
    The response of the interviewees and the Arab-American community 
was overwhelmingly positive, and the DOJ and the FBI would like to 
thank community leaders and those interviewed for their cooperation. As 
a result of the information derived from the interviews, the FBI 
disseminated over 250 reports to assist the military in conducting the 
war and locating Saddam Hussein's weapons of mass destruction. The 
military consumers of these reports, including CENTCOM, have indicated 
that the reports were highly useful.
    Question. Considering this committee's obvious interest in both the 
FBI and the enforcement of our immigration laws, why did you fail to 
notify us of this regulation?
    Answer. The Department appreciates the Committee's interest in its 
programs. The preceding answer explains the rationale and limited use 
of this delegation.
    Question. According to the Washington Post, the FBI has drafted 
guidelines on how this new authority should be used. Would you provide 
a copy of those guidelines to the committee?
    Answer. The information follows.
                           Federal Bureau of Investigation,
                                                        02/26/2003.
    To: All FBIHQ Divisions, All Field Offices
    Attn: Assistant Director, ADIC, SAC, CDC
    From: Office of the General Counsel, Investigative Law Unit
    Contact: UC Elaine N. Lammert (202) 324-5640
    Approved By: Mueller Robert S. III, Gebhardt Bruce J., Wainstein 
Kenneth L.
    Drafted By: Rowan Patrick
    Case ID #: 66F-HQ-A1085154-MISC Serial 85
    Title: Delegation of Authority to the FBI to Exercise the Powers 
and Duties of Immigration Officers
    Enclosure.--Memorandum summarizing the power to arrest under the 
Immigration and Naturalization Act (INA) and listing a number of INA 
violations the FBI may enforce pursuant to the delegation and guidance 
contained in this communication.
    Synopsis.--This communication advises the receiving offices that 
the Attorney General has authorized Agents to exercise the functions of 
immigration officers in some circumstances and provides guidance on the 
implementation of this authority. This guidance was prepared in 
consultation with the Department of Justice, the SAC Advisory Committee 
and FBIHQ operational components.
    Details.--The Attorney General recently issued an Order delegating 
authority to exercise the powers and duties of Immigration Officers to 
the FBI. The Order, which is no in effect, grants powers that will be 
particularly useful in the FBI's counterterrorism investigations. In 
pertinent part, the Order states as follows:

    ``I authorize the Director of the Federal Bureau of Investigation 
(``FBI'') and, under this direction Special Agents of the FBI, to 
exercise the functions of immigration officers for the purposes of (1) 
investigating, determining the location of, and apprehending, any alien 
who is in the United States in violation of the Immigration and 
Nationality Act of 1952, as amended, or any other law or regulation 
relating to visas or the conditions of visas, admission of aliens or 
the conditions of admission, or the maintenance of status as an 
immigrant or nonimmigrant or in any category of nonimmigrant; or (2) 
enforcing any requirements of such statutes or regulations, including, 
but not limited to, nonimmigrant aliens subject to special registration 
under 8 C.F.R. Sec. 264.1(f).

    This communication is to provide guidance on the implementation of 
this Order.
    Even prior to the issuance of the Attorney General's Order the FBI 
possessed broad authority to investigate criminal violations related to 
immigration offenses under both Title 18 and Title 8 of the United 
States Code and to arrest those who commit such criminal violations. 
There will be no change in the handling or the classification of those 
investigations. The Attorney General's Order expands the FBI's 
authority to include the investigation and arrest of aliens who have 
committed or are committing non-criminal, i.e., civil violations of the 
Immigration and Nationality Act of 1952 (INA) and related statutes. 
This guidance addresses the handling of aliens who are non-criminal 
violators.
    At the outset, it should be understood that the Immigration and 
Naturalization Service and its successor within the Department of 
Homeland Security (referred to hereafter collectively as the ``INS'') 
will retain primary jurisdiction over the enforcement of immigration 
statutes, including both criminal and civil violations of the INA. the 
FBI will not create a separate investigative program to cover 
violations of the INA, as these violations will ordinarily be addressed 
only in support of existing investigative programs. Individuals 
detained or arrested for immigration violations should be turned over 
to INS' custody as soon as possible. The Attorney General's Order 
provides authority in those circumstances when agents of the INS are 
not immediately available to take custody of an alien violator. It also 
provides a basis for the apprehension of alien violators encountered in 
the course of the FBI's counterterrorism investigations.
    In all instances, the Order should be employed in a manner that 
strengthens the FBI's ability to address its priorities, rather than 
diverting from them. Accordingly, as a general rule, when, during the 
course of an investigation, agents encounter an alien who is reasonably 
believed to be in violation of the INA, they should exercise their 
authority under the Order to detain, question, and, if justified, 
arrest the alien if the exercise of these powers will serve the 
objectives of the investigation. Conversely, if the exercise of these 
powers will harm or undermine the investigation, agents are under no 
obligation to do so. Even in the absence of an ongoing investigation, 
agents should exercise all appropriate authority under this Order when 
necessary to prevent serious bodily injury or destruction of property. 
With respect to counterterrorism investigations in particular, and 
keeping in mind the FBI's primary mission of preventing acts of 
terrorism against American interests, agents should not hesitate to 
exercise any or all of their lawful authority under the Order as 
appropriate to serve this vital mission, or to refrain from exercising 
these powers if, in the judgment of the agent, the FBI's investigative 
interests are best served by doing so.\1\
---------------------------------------------------------------------------
    \1\ In furtherance of its mission to prevent acts of terrorism, the 
FBI has at its disposal the National Security Entry-Exit Registration 
System (NSEERS) database, maintained by the INS. This database contains 
comprehensive information on temporary visitors to the United States 
who are from countries designated by the Attorney General or who meet 
pre-existing criteria related to national security. Any NSEERS 
registrant who violates his requirements (e.g., by overstaying his 
visa, or by failing to verify his address and activities with the INS 
after violations are immediately identified by NSEERS, and, like other 
violations of the INA, the NSEERS violation may serve as a basic for 
arrest when arrest of the violator will advance an investigation and 
the FBI's operation priorities. In such cases, the INS should be 
notified and consulted as soon as possible. In addition, FBI personnel 
supervising counterterrorism investigations should regularly consult 
the NSEERS database to determine if aliens who have violated their 
requirements have any connection to terrorist suspects already under 
FBI investigation.
---------------------------------------------------------------------------
    There may be instances, unrelated to ongoing investigations, in 
which the FBI will receive requests for assistance from state or local 
law enforcement who have detained aliens for immigration violations. 
Such requests should ordinarily be referred to the INS. In those 
instances in which the INS is unable to respond to the request, each 
ADIC or SAC should exercise his or her discretion, based on resources 
and other relevant considerations, as to whether to provide the 
requested assistance and, if so, to what extent.
    The Order grants FBI agents the authority to exercise the powers to 
arrest an alien without warrant set forth in Title 8, U.S. Code, 
Section 1357. Under that section, agents may arrest an alien when they 
have reason to believe the alien is present in the United States in 
violation of an immigration provision of the INA, a standard that can 
be met by an admission from the alien, a review of immigration records, 
or other reliable information. In many cases, agents will be unable to 
make a determination that an alien is in violation without the 
assistance of the INS. Each Field Office should consult with their 
local INS office to develop a procedure for obtaining such assistance 
on a local level. In addition, the INS maintains a Law Enforcement 
Support Center that is staffed around the clock and can perform record 
checks and provide other assistance.
    Each Field Office should also consult with their local INS office 
to formulate procedures for the prompt transfer to INS' custody of any 
alien arrested by the FBI under the authority of the Attorney General's 
Order. Any arrest made under the authority of this Order should be 
properly documented in an FD-302.
    Attached hereto is a memorandum, prepared by the Office of General 
Counsel, summarizing a number of the commonly-encountered INA 
violations. In the near future, Headquarters personnel will be working 
with their counterparts at the INS and then the Department of Homeland 
Security to resolve issues arising from this Order. Training materials 
on immigration enforcement will soon be disseminated through the Chief 
Division Counsel of each Field Office, and additional training will be 
provided in the course of the upcoming counterterrorism training 
ordered by the Deputy Attorney General.
            national security entry-exit registration system
    Question. Under the National Security Entry-Exit Registration 
System (NSEERS), male nationals from 25 countries, all but one of which 
are overwhelmingly Muslim, must register with the government if they 
meet certain criteria. As of one week ago, more than 7,000 men who 
presented themselves for registration had been notified of the 
government's intention to deport them for various violations of our 
immigration laws. Many of those 7,000 are nationals of Pakistan, a U.S. 
ally in the war on terror that has informed the United States of its 
objections to NSEERS. Earlier this year, the Senate included language 
to end the NSEERS program in our omnibus appropriations bill, but 
agreed in conference instead to demand a report about the program, from 
you, by March 1. That deadline has come and gone, even though this 
report will be critical in determining whether we continue to fund 
NSEERS, and despite the serious domestic and international 
ramifications of this program. When will you submit this report?
    Answer. The Department is continuing to assemble the materials 
required by Section 112 of Title I of Division B of Public Law 108-7. 
The material will be submitted to the Committee.
                    crime-free rural states program
    Question. Congress created the Crime-free Rural States program last 
year in the 21st Century Department of Justice Appropriations 
Authorization Act. This program authorizes $10 million for rural states 
to combat drug abuse and other crimes that increasingly affect rural 
states and have put mounting stress on rural law enforcement officers. 
Senator Hatch and I have written to the Chairman and Ranking Member of 
the subcommittee to request full funding for this program. Do you 
support our request for full funding?
    Answer. In developing the fiscal year 2004 President's Budget, the 
Department faced the challenge of managing multiple competing 
priorities with limited resources. As a result, no resources were 
specifically requested for the Crime-free Rural States program.
    However, I do appreciate the problems faced by rural law 
enforcement. In fact, the Department currently provides substantial 
resources to rural communities. For example, the Office of Justice 
Programs' (OJP) fiscal year 2004 President's Budget included $599.724 
million for the Justice Assistance Grants program, a formula program 
designed to address a wide array of criminal justice issues that would 
provide resources directly to our nation's state and local 
jurisdictions, including those in rural areas. Other OJP programs 
included in the fiscal year 2004 President's Budget that provide 
resources to rural communities across the country include: $39.460 
million for the Rural Domestic Violence program, which specifically 
targets rural communities, $47.683 million for the State and Local Gun 
Violence Assistance program, which will continue to support projects in 
rural communities; $49.387 million for the Southwest Border Initiative, 
which provides assistance to many rural prosecutors in the Southwest 
dealing with drug cases; and a total of $25.339 million in programs 
specifically requested for Tribal governments and communities, almost 
all of which are in rural areas.
                      oig oversight of dea and fbi
    Question. I have repeatedly expressed concern that the DOJ 
Inspector General's Office be as independent and strong as possible. 
Without accountability, which the Inspector General brings to the 
Department, our law enforcers will not be as efficient and as effective 
as they can be. For that reason, I sponsored bipartisan legislation, 
which was enacted as part of the landmark DOJ Authorization Act last 
Congress, that expanded the jurisdiction of the IG by statute to cover 
the FBI and DEA. In light of these important additions--and in light of 
the growth of the FBI itself as it fulfills its stated mission of 
protecting against terrorist attacks--we need to ensure that the IG's 
budget grows to meet its new responsibilities. The IG needs to have the 
resources required to examine an FBI that is retooling its computer 
systems and its entire culture. Unfortunately, however, I note that the 
President's budget request ``flat lines'' the IG's office even though 
the Republican-controlled Congress did not grant the President's entire 
requested increase for the IG in last year's Omnibus Appropriations 
bill. Please explain why the Administration is not seeking to provide 
the IG with the new resources it will need to oversee the FBI's efforts 
to modernize itself.
    Answer. The Office of the Inspector General (OIG) received 
$5,000,000 and 63 positions in fiscal year 2002 to expand the Inspector 
General's authorities in investigating employee misconduct within the 
Federal Bureau of Investigation and the Drug Enforcement 
Administration, this allowed for an 18 percent increase in staff. In 
fiscal year 2003, the OIG received an additional $2.0 million and 17 
positions, in part to address the FBI's growth in personnel and 
counterterrorism programs. These funds, coupled with the recent 
supplemental of $2,500,000 for fiscal year 2003/2004, provide 
sufficient funding for the OIG through fiscal year 2004.
 implementation of usa patriot act and other issues related to war on 
                               terrorism
    Question. In a letter dated April 1, 2003, the Chairman and Ranking 
Member of the House Judiciary Committee requested extensive information 
from the Justice Department regarding the Department's implementation 
of the USA PATRIOT Act and other issues related to the war on 
terrorism. Please provide your responses to the 38 questions posed in 
that letter, a copy of which is attached. (Attachment 1)
    Answer. In response to your letter of September 4, 2003, co-signed 
by Senate Judiciary Committee Chairman Hatch, the Department provided a 
copy of the Department's May 13, 2003, response to the April 1, 2003, 
letter from the Ranking Member of the House Judiciary Committee on 
September 9, 2003. As noted in our transmittal letter, while we made 
every effort to answer each question thoroughly and in an unclassified 
format, four of the questions required the submission of classified 
information. The answer to a portion of question 16(a), and questions 
30 and 37 are classified and were delivered to the Senate Security 
Office for the Senate Judiciary Committee under separate cover. In 
accordance with longstanding Executive branch practices on the sharing 
of operational intelligence information with the Congress, the 
classified answers to question 1(c), and a further portion of question 
16(a), were delivered to the Senate Select Committee on Intelligence.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
         juvenile accountability incentive block grant program
    Question. Mr. Attorney General, even in a time of great domestic 
instability, we cannot forget about the important law enforcement 
functions of the DOJ. Among these responsibilities is juvenile 
delinquency prevention and enforcement. However, the fiscal year 2004 
Department of Justice budget proposal eliminates the Juvenile 
Accountability Incentive Block Grant Program (JAIBG) a program that was 
funded at $140 million last year, and more than $200 million two years 
ago. The budget justification cites that the program was found 
``ineffective'' by OMB.
    However, when we reauthorized the Department of Justice last fall, 
we also reauthorized the JAIBG program at $350 million per year. More 
importantly, we dramatically improved the program. The program purpose 
areas have been significantly expanded to provide additional services 
and treatment for troubled youth, including graduated sanctions, 
substance abuse and mental health counseling, restitution, community 
service, and supervised probation.
    Nonetheless, JAIBG has been zeroed out. The new and improved JAIBG 
has not even been given a chance by this Administration--the same 
Administration that reauthorized JAIBG just last year. I am aware that 
the Justice budget retains some funding for juvenile justice programs. 
However, a new $43 million ``Juvenile Delinquency Block Grant Program'' 
still represents almost a $100 million cut from last year's JAIBG 
program--a program authorized at $350 million. Moreover, Title V 
juvenile crime prevention programs--cut in half in the fiscal year 2003 
appropriation B are also under-funded and overly earmarked in this 
year's budget proposal.
    Why are these programs being cut at a time when the latest 
statistics suggest an up tick in juvenile crime after a steady decrease 
throughout the nineties? Now is not the time to give up juvenile 
justice programs.
    Answer. The fiscal year 2004 President's Budget request for 
juvenile justice delinquency and prevention programs focuses on those 
programs that work and provide states and local governments maximum 
flexibility. These programs include the $93.768 million Part B Formula 
Grants, the new $42.881 million Juvenile Justice Delinquency Prevention 
Block Grant Program created by the 21st Century Department of Justice 
Reauthorization Act, and the $82.255 million Title V Incentive Grants 
for Local Delinquency Prevention Program, which represents an increase 
of $36.1 million above the fiscal year 2003 enacted level. The request 
includes funding for two major activities: $69.755 million for Title V 
Delinquency Prevention Program Incentive Grants; and $12.5 million for 
the Tribal Youth Program, which awards grants directly to American 
Indian and Alaska Native communities for prevention, control, and 
juvenile justice system improvement. This is essentially the same level 
as requested in fiscal year 2001 through fiscal year 2003.
    The Juvenile Accountability Block Grant Program (JABG) was 
reauthorized under the 21st Century Department of Justice 
Reauthorization Act, which was signed into law on November 2, 2002. 
Funding for the JABG, formerly the Juvenile Accountability Incentive 
Block Grant (JAIBG) Program, was not requested because in its recent 
Program Assessment Rating Tool (PART) evaluation, OMB ranked JAIBG as 
``ineffective.'' As OMB indicated in the evaluation, program managers 
have little information on the activities and outcomes of JABG, and 
cannot verify the need for or the results of this program.
    According to the initial statutory guidance for JABG, the ultimate 
purpose of the block grants is to make juvenile offenders more 
accountable for their actions and to make the justice system more 
accountable for juveniles' safety. These stated goals make it difficult 
for managers to develop clear, outcome-based performance measures. 
Other than anecdotal evidence, the program has not demonstrated any 
measurable impact on either juvenile crime or the juvenile justice 
system to date.
    There are purpose areas in the Juvenile Delinquency Block Grant 
program that overlap with JABG purpose areas. In addition, funds under 
the proposed $599.724 million Justice Assistance Grants (JAG) program 
can be used by state and local governments to address the areas funded 
through JABG. Thus, resources will still be available to address 
juvenile offender accountability.
                          imported explosives
    Question. Federal explosives regulations require domestically 
manufactured explosives to include identifying information such as 
manufacturer, location, date, and shift of manufacture. This 
information is vital to criminal investigations when law enforcement 
authorities recover explosives. ATF can trace the purchase of 
explosives in much the same way that it traces firearms. Yet, imported 
explosives are not required to have any identification information.
    How many pounds of unmarked imported explosives enter the country--
say annually? I understand that millions of pounds of these unmarked 
explosives enter this country each year. If this is the case, should we 
not take immediate legislative action to close this loophole? Do you 
pledge to work with me on this?
    Answer. Currently there are no regulations requiring the marking of 
explosive materials imported into the United States. Federal 
regulations at 27 CFR part 555, Commerce in Explosives, administered by 
the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), require 
that licensed domestic manufacturers of explosive materials legibly 
identify all explosive materials manufactured for sale or distribution 
by placing the identity of the manufacturer and the location, date, and 
shift of manufacture on each cartridge, bag, or other immediate 
container. ATF; the Institute of Explosives Makers (IME); and the 
International Association of Bomb Technicians and Investigators (IABTI) 
recognized that these regulations do not extend similar requirements on 
importers of explosive materials. ATF; the IME; and the IABTI 
recognized that this loophole creates a major obstacle for tracing 
foreign manufactured recovered explosives, as well as results in an 
economic disadvantage by placing the marking requirement only on 
domestic producers. To that end, both the IME and IABTI petitioned ATF 
to pursue rulemaking to close this loophole. On October 16, 2002, ATF 
issued a notice of proposed rulemaking to require the marking of all 
explosive materials imported into the United States. The notice comment 
period ended January 14, 2003 and is in the final stages of review.
    There is no federal requirement for reporting the amount of 
explosives materials imported into the United States. ATF is working 
with the U.S. Customs Service to obtain a reliable figure. However, 
information from the IME indicates that there are approximately 6 
billion pounds of explosive materials used in the United States 
annually. Of that amount, approximately 2 million pounds of boosters (a 
high explosive) are imported into the United States annually. 
Additionally, industry sources have advised ATF that approximately 165 
million pounds of Chinese fireworks enter the United States annually.
              fisa (foreign intelligence surveillance act)
    Question. Press reports indicate that for the first time since FISA 
became law, surveillance requests under FISA outnumbered all of those 
under domestic law--the Washington Post reported last week that you 
personally signed more than 170 ``emergency foreign intelligence 
warrants''--this is three times the number authorized in the preceding 
23 years.
    Mr. Attorney General, can you comment on whether that is true? In 
addition, given the much greater powers granted to the government under 
FISA, can you tell us whether we should be disturbed by this trend. 
After all, the secrecy that surrounds FISA provides very little 
accountability and oversight. Are we in danger of living in a country 
where secret wiretaps and extended surveillance are the norm?
    Answer. While I cannot speak to the accuracy of press reports, as I 
have said previously, in 2002, using Foreign Intelligence Surveillance 
Act (FISA) tools, we targeted more than 1,000 international terrorists, 
spies and foreign powers who threaten our country's security. We 
requested 170 emergency FISAs. This is more than three times the total 
number of emergency FISAs obtained in the 23 years prior to September 
11.
    This is a reflection, in part, of the imminent need to protect the 
United States from potential acts of terrorism or other grave hostile 
acts from foreign powers or agents of foreign powers. I would disagree 
that the FISA provides little accountability and oversight. Every 
application that is presented to the Foreign Intelligence Surveillance 
Court (the Court) goes through a rigorous review on many levels. Before 
presenting an application to the Court, the Attorney General must 
approve the application based upon his finding that the application 
satisfies the criteria and requirements for such applications set forth 
in the FISA, including the requirement that the target of the 
surveillance or search is a foreign power or an agent of a foreign 
power. In addition, the application is certified by an appropriately 
designated official. Among other things, the official certifies that a 
significant purpose of the surveillance or search is to obtain foreign 
intelligence information. Finally, the application is presented to the 
Court for its independent judicial review. In the event that an 
application is denied by the Court, the Foreign Intelligence 
Surveillance Court of Review has jurisdiction to review such a case.
    In addition, Congress plays an important role in oversight of the 
FISA process. The Attorney General submits, on a semi-annual basis, 
detailed reports concerning activities conducted pursuant to the FISA 
to the Senate Select Committee on Intelligence, the House Permanent 
Select Committee on Intelligence, and both the House and Senate 
Judiciary Committees.
    In all cases, strict adherence to the Constitution, and observation 
of the responsibility of this government to safeguard the rights of all 
individuals regarding the Constitution, is the highest priority of the 
Department of Justice. Any surveillance or search conducted pursuant to 
the FISA is done in strict accordance with the law, and is conducted in 
ways which I believe fully respect the Constitution.
                           antitrust--telecom
    Question. A priority of the Antitrust Subcommittee has been 
promoting competition in the local and long distance phone markets. For 
many years, the Antitrust Division has had a task force--the 
Telecommunications and Media Section--devoted to monitoring competition 
in the telecom industry. Its principal responsibility has been to 
determine whether the local telephone market is open to competition 
when the incumbent Bell company applies for permission to provide long 
distance service. As you know, this is known as the Section 271 
process. The 271 process has been conducted on a state-by-state basis 
and is now nearly complete.
    With this process winding up, some observers wonder if the 
Telecommunications and Media Section is as active as it should be, and 
whether the Antitrust Division will continue to aggressively police 
anti-competitive practices in local phone markets. We must ensure that 
the markets deemed open to competition remain open, rather than 
backsliding into a monopoly environment.
    What do you see as the role of the Antitrust Division in ensuring 
competitive local phone markets in the future? Would you favor giving, 
by statute, the Telecommunications and Media Section clearly 
established periodic responsibilities to examine local phone 
competition?
    Answer. The Antitrust Division has played an important role in 
protecting competition in the telecommunications industry for decades 
and fully intends to continue doing so through vigorous antitrust 
enforcement. Following enactment of the Telecommunications Act of 1996, 
the Division has provided guidance to the FCC and the state regulatory 
agencies on the Section 271 process and has provided the FCC with an 
evaluation of each Section 271 application. Before that, the Division 
spent 14 years enforcing the 1982 antitrust consent decree that settled 
the enforcement action the Division brought against AT&T in 1974. Along 
with these responsibilities, the Division aggressively investigates 
proposed mergers and potentially anticompetitive conduct in a wide 
variety of communications and media markets.
    With the Section 271 initial application process approaching 
completion, the Division intends to continue monitoring activities in 
the telecommunications industry across the country. In states where the 
Bell Operating Company has been granted Section 271 authority, the 
Division will continue to play its traditional roles of enforcing the 
antitrust laws against Sherman Act violations and anticompetitive 
mergers, as well as engaging in competition advocacy through 
participation in FCC and state regulatory proceedings where we can 
provide competitive analysis that would assist these agencies in 
promoting and maintaining the development of local competition.
    The FCC will continue to have authority to enforce compliance with 
the specific market-opening provisions of the 1996 Act. The antitrust 
laws give the Antitrust Division sufficient authority to perform its 
broader role in protecting competition in this important marketplace, 
and the 1996 Act contains a savings clause that explicitly preserves 
the Division's antitrust enforcement authority in this area. Given our 
enforcement history and accumulated experience in telecommunications 
markets, we plan to remain fully engaged in monitoring these markets 
for possible antitrust violations. Additional authority is not needed 
in order for us to perform this role.
                             sleeper cells
    Question. What is the current status of the investigation to root 
out more terrorist sleeper cells in this country? Are we on the right 
track or do we have a long way to go?
    Answer. With the cooperation of the Joint Terrorism Task Force 
Program, the FBI successfully identified cells in Buffalo, Detroit, and 
Portland, Oregon. These investigations have resulted in convictions of 
subjects charged with offenses ranging from providing material support 
to terrorist organizations to misuse of identification documents.
    The FBI is currently working jointly with all members of the 
Intelligence Community to identify additional terrorist sleeper cells 
within the United States. Although we have identified new cells within 
the United States, and we are on the right track, the war on terrorism 
is ongoing.

                          SUBCOMMITTEE RECESS

    Senator Gregg. The next hearing will be on Tuesday, April 
8, at 10 a.m., in the Dirksen Building at 124. The subcommittee 
will be hearing testimony of SEC Chairman William Donaldson. 
This is going to be in the Senate Office Building--we are going 
to hold it over in the Capitol.
    Thank you.
    [Whereupon, at 11:25 a.m., Tuesday, April 1, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
April 8.]

</pre></body></html>
